<html>
<title> - WORKPLACE SAFETY AND HEALTH FOR IMMIGRANTS AND LOW WAGE WORKERS</title>
<body><pre>[Senate Hearing 107-306]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-306

    WORKPLACE SAFETY AND HEALTH FOR IMMIGRANTS AND LOW WAGE WORKERS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT, SAFETY, AND TRAINING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING WORKPLACE SAFETY AND HEALTH ISSUES WITH RESPECT TO IMMIGRANTS 
                          AND LOW-WAGE WORKERS

                               __________

                           FEBRUARY 27, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


78-031              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director
                                 ------                                

            Subcommittee on Employment, Safety, and Training

                 PAUL D. WELLSTONE, Minnesota, Chairman
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming, Chairman
CHRISTOPHER J. DODD, Connecticut     JEFF SESSIONS, Alabama
TOM HARKIN, Iowa                     MIKE DeWINE, Ohio
                    Margery F. Baker, Staff Director
                Raissa H. Geary, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      Wednesday, February 27, 2002

                                                                   Page
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, opening statement....................................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................     2
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     4
Wellstone, Hon. Paul D., a U.S. Senator from the State of 
  Minnesota, opening statement...................................     7
Gutierrez, Hon. Luis, a U.S. Representative in Congress from the 
  State of Illinois..............................................    11
Henshaw, John, Assistant Secretary for Occupational Safety and 
  Health, U.S. Department of Labor, Washington, DC; Rosemary 
  Sokas, M.D., Associate Director for Science, National Institute 
  for Occupational Safety and Health, Centers for Disease Control 
  and Prevention, U.S. Department of Health and Human Services, 
  Atlanta, GA....................................................    15
    Prepared Statements of:
        John Henshaw.............................................    18
        Rosemary Sokas, M.D......................................    29
Liao, You Di, Garment Industry Worker, New York, NY, accompanied 
  by Joanne Lum; Arturo S. Rodriguez, Keene, CA, President, 
  United Farm Workers of America, AFL-CIO; Tom Maier, Melville, 
  NY, Reporter, Newsday; Bobby Jackson, Vice President for 
  National Programs, National Safety Council, Washington, DC; and 
  Omar Henriquez, Coordinator, Youth and Immigrant Project, New 
  York Committee on Occupational Safety and Health, New York, NY.    40
    Prepared Statements of:
        You Di Liao..............................................    42
        Arturo S. Rodriguez......................................    45
        Tom Maier................................................    52
        Bobby Jackson............................................    55
        Omar Henriquez...........................................    60

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    Response from Mr. Henshaw to questions asked by Senator 
      Wellstone..................................................    22
    Human Rights Watch...........................................    71
    National Mobilization Against SweatShops (NMASS).............    75
    Mussa Abdulkader.............................................    78
    Aleksandra Baran.............................................    79
    Tomas Carrillo...............................................    79
    Lau Mei Chan.................................................    80
    Chinese Staff & Workers' Association (CSWA)..................    80
    Juan Flores..................................................    83
    Eva Herrera..................................................    84
    Huang Sheng Ku...............................................    84

                                 (iii)

  
Articles, publications, letters, etc.--Continued
    Stanislawa Kocimska..........................................    85
    Maria Labuz..................................................    86
    Zhi Hua Qian.................................................    87
    Agueda Santana...............................................    88
    Arkadiusz Tomaszewski........................................    88
    Workers' Awaaz (WA)..........................................    89
    Jinen Zhou...................................................    91
    United Food and Commerical Workers International Union (UFCW)    92
    Letter to Senator Wellstone from Bill Pearson dated February 
      25, 2002...................................................    93
    Letter to Senator Wellstone from Bill Pearson dated February 
      29, 2002...................................................    95
    Western Growers Association (WGA)............................    95

 
    WORKPLACE SAFETY AND HEALTH FOR IMMIGRANTS AND LOW WAGE WORKERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                                       U.S. Senate,
  Subcommittee on Employment, Safety, and Training, of the 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Paul D. 
Wellstone (chairman of the subcommittee) presiding.
    Present: Senators Clinton, Wellstone, and Enzi.

                  OPENING STATEMENT OF SENATOR CLINTON

    Senator Clinton. [presiding]. The subcommittee will come to 
order.
    Senator Wellstone, who is chairing the hearing, is 
concerned, as am I and Senator Enzi, that there are so many 
people out in the hallway. We are going to try to get a few 
more people in. You can tell that the size of the room is only 
so big, but we are going to try to expand a little bit so that 
some of the people who have traveled so far to be here can get 
into the room to be part of the hearing.
    If we cannot, we are also going to ask you to rotate people 
in and out because we want everybody to have a chance to get 
in.
    I want to thank Senator Wellstone for working with Senator 
Kennedy and the entire committee to hold this hearing on low 
wage workers and immigrant workers through the Subcommittee on 
Employment, Safety and Training. I want to thank him very much 
for putting it together, and I want to thank all of the 
witnesses who are testifying. I am particularly proud to 
welcome three New York witnesses and a large number of New 
Yorkers in the audience, as well as a large number of New 
Yorkers out in the hallway who cannot get into the room.
    I want to start by recognizing Thomas Maier, whose 
straightforward reporting has served as a call to action for 
those of us alarmed by the horrendous conditions facing so many 
immigrant workers. I also want to salute Omar Henriquez of the 
New York Committee for Occupational Safety and Health for his 
work on behalf of immigrant workers and Ms. You Di Liao for 
sharing her experience as an injured worker with us.
    As I am very proud to State and as many of you know, New 
York has a long and proud history of extending a warm welcome 
to immigrants from around the world. In fact, immigrants built 
New York, and New York has certainly contributed mightily to 
the building of America.
    Yet too often, immigrant workers are struggling to make 
ends meet under unsafe working conditions. We know that 
immigrants are consistently hired in the lowest-paid 
occupations that demand the longest work hours. The stories and 
statistics that were reported in the Newsday series are just 
heartbreaking. In New York State alone, more than 500 immigrant 
workers have lost their lives in senseless, preventable 
workplace tragedies from 1994 to 1999. In 5 years, 500 deaths 
have occurred.
    As recently as last October in Manhattan, five immigrant 
workers were killed and 10 injured due to the collapse of 
scaffolding at a construction site.
    I want to recognize and thank the Department of Labor for 
taking some initial steps to protect unsafe workplace 
conditions. They knew that we were going to be holding this 
hearing, and I appreciate greatly their responding.
    This is a positive beginning but only a beginning. In the 
coming weeks and months, I believe we should explore ways to 
better track workplace injuries and fatalities and to assure 
that every instance is thoroughly investigated. In New York, I 
plan to continue working to make sure that that does happen in 
our State, and I am particularly concerned about the health 
issues involving the immigrant workers who are involved in the 
cleanup around the World Trade Center.
    So I want to thank you, Senator Wellstone, for holding this 
hearing. I am delighted that Senator Enzi is here with us, and 
I look forward to hearing from all the witnesses and working 
with you. And I thank our colleague from the House of 
Representatives, Representative Gutierrez, for coming across 
the Capitol to be here as our first witness today.
    Before we continue, I would like to submit a prepared 
statement from Senator Kennedy to be included in the record.
    [The prepared statement of Senator Kennedy follows:]

                 PREPARED STATEMENT OF SENATOR KENNEDY

    Immigrant workers are vital to our nation as never before. 
In my home state of Massachusetts and across the country, the 
energy and dedication of immigrant workers has helped to 
reinvigorate communities and served as an engine of economic 
growth. In recognition of the important contributions of 
immigrant workers, we must do more to protect their health and 
safety on the job.
    It is simply unacceptable that fatalities for Latino 
workers increased by more than 11 percent in the year 2000. It 
is not right that more than one-quarter of workers in the 
meatpacking industry, primarily immigrants, experience a 
serious injury or illness on the job. It is outrageous that 
child farmworkers, who make up only 8 percent of working 
minors, account for 40 percent of work-related fatalities among 
minors.
    The workers who toil long hours in the fields each day to 
bring us the food we eat are overwhelmingly immigrant workers. 
The wages they earn are not enough to live on. Yet, the dangers 
they face on the job are enormous. The Environmental Protection 
Agency estimates that as many as 300,000 farmworkers suffer 
pesticide poisoning each year.
    Sadly, our health and safety laws offer little in the way 
of protections to farmworkers. Even the minimal guarantee of 
adequate drinking water and toilet facilities, is only offered 
to workers on larger farms. In agriculture, unlike in other 
occupations, children are allowed to perform hazardous work. 
Farmworkers are not protected by our safety standards when it 
comes to dangerous machinery or the threat of electrocution.
    Immigrant workers face extreme hazards in many other areas 
of work, from construction to meatpacking to retail work. In 
addition, many of the heroes involved in the clean-up of Ground 
Zero were also immigrant workers. According to a recent report 
by the Natural Resources Defense Council, these workers were 
not provided nor required to wear the proper respiratory 
equipment to keep them safe. As late as October, the National 
Institute of Environmental Health Sciences found ``very few 
workers wearing even the most basic equipment.'' Nearly every 
one of the 350 mostly immigrant day laborers who worked at 
ground zero examined by the New York Committee on Safety and 
Health, suffered from respiratory problems.
    Ground Zero workers should have been told about the U.S. 
Geological Survey's findings that the air around Ground Zero 
was as caustic as liquid drain cleaner. These workers stepped 
up for our nation and we in Congress must now strengthen the 
protections for the safety and health of immigrant workers.
    Recently, the Administration proposed new initiatives to 
protect immigrant workers. While I am pleased that the 
Department of Labor will expand the range of bilingual services 
available to workers, I am struck that the Administration is 
slashing the budget for proven immigrant worker safety training 
programs at the same time.
    The Administration's budget cuts the Susan Harwood Training 
Grant program, which has been critical to training immigrant 
workers to protect themselves in my home state and around the 
country. The Administration proposes cutting these vital grants 
by nearly 65 percent. This is no way to show our commitment to 
protecting immigrant workers.
    It has been a year now that America's workers have been 
waiting for the Department of Labor to adopt a new ergonomics 
standard. We must act boldly to protect immigrant workers from 
the nation's leading cause of workplace injury. I look forward 
to hearing from the Secretary of Labor on this issue at the 
Committee's hearing on March 14th.
    It is time to end the double standard that endangers our 
nation's farmworkers. All farmworkers should have access to 
clean drinking water and toilets on the job. Child farmworkers 
should be protected against workplace hazards that we don't 
tolerate for other children and our approach to pesticides must 
put their health first.
    We must also do more to protect immigrant workers from 
unfair retaliation when they come forward to report unsafe 
working conditions. Effective enforcement of our safety and 
health laws depends on workers who bravely speak up, and we 
must insure that these voices are heard.
    The time is long overdue for strengthening the health and 
safety protections for immigrant workers who contribute so much 
to our nation. I look forward to the ideas of today's witnesses 
on the steps we must take to protect these important workers.
    Senator Clinton. Senator Enzi?

                   OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. Thank you, Madam Chairman, and I do 
appreciate the chairman's efforts here to get as many people 
into the room as possible.
    Senator Wellstone. Excuse me, Mike.
    Why don't some of you who are standing in the back come up 
here and take some of these seats? We have seats up here.
    Is that okay with you?
    Senator Clinton. It is fine with me.
    Senator Enzi. It is fine with me.
    Senator Wellstone. We will just do this a little 
differently.
    Senator Enzi. I do want to thank you for calling this 
hearing today. The Occupational Safety and Health Act was 
enacted in 1970 to assure as far as possible every man and 
woman in the Nation safe and healthful working conditions.
    The stated purpose of the OSH Act makes no distinction 
between foreign-born and native-born workers or between low-
wage and high-wage workers. It is neither a worker's country of 
birth or pay grade that triggers the protections of the OSH 
Act.
    However, this hearing will examine the role that these 
factors play in workplace safety and health. As always, our 
inquiry must begin with a review of the data regarding 
occupational safety and health for immigrant workers. As is too 
often the case with workplace safety and health statistics, the 
available data do not provide a complete and accurate picture.
    This hearing focuses on safety and health concerns for 
immigrant workers; however, neither the Bureau of Labor 
Statistics nor the Occupational Safety and Health 
Administration used the term ``immigrant'' for data collection. 
No statistics collected by either BLS or OSHA clearly get at 
the heart of the issue--the role of language and cultural 
barriers in workplace deaths and injuries.
    If language and cultural barriers are at the heart of the 
problem, they are also at the heart of the solution. And I know 
from a previous job where I taught some first aid that it is 
really easy to slip into the practice of thinking that 
everybody will understand and be able to read the documents. I 
discovered that there was a Hispanic oil field crew that looked 
like they knew what was happening, it looked like they were 
reading the documents, but when it came to test time, they did 
not do very well. Once we got some Spanish instruction and 
Spanish manuals, which the Red Cross provides, they did 
marvelously, and they worked together and were able to overcome 
some of the difficulties. But it was an up close and firsthand 
experience with how cultural and language barriers can affect 
safety.
    Secretary Chao recently announced initiatives to improve 
the safety and health of Hispanic workers in this country by 
breaking through those language and cultural barriers.
    These initiatives reflect the commitment voiced by both 
Secretary Chao and Assistant Secretary Henshaw to improve 
workplace safety and health through outreach, education, 
training, and public-private partnerships. Enforcement alone 
cannot ensure the safety and health of this country's work 
force, nor can the Government ensure the safety of all workers 
on its own. The need for compliance assistance and coalitions 
to prevent injuries and death before they occur is particularly 
appropriate with regard to immigrant workers.
    Safety and health training and education should be 
developed and delivered in culturally sensitive and 
linguistically appropriate ways to be effective. Partnering 
with employers and community-based organizations to reach 
immigrant workers is critical.
    We must also bear in mind the unique needs and resources of 
small businesses. I call upon OSHA to ensure that small 
businesses are included in the development and delivery of 
immigrant safety initiatives. Later today, we will hear from 
Bobby Jackson with the National Safety Council. The National 
Safety Council is partnering with Government agencies, the 
private sector, and the Hispanic Latino community-based 
organizations to improve the safety and health of Hispanic 
workers. The National Safety Council activities should serve as 
a model for outreach and training programs to improve workplace 
safety for immigrant workers.
    In light of the importance of outreach and compliance 
assistance to protect immigrant workers--indeed, all workers--
it is with great concern that I note the proposed fiscal year 
2003 budget. Of OSHA's proposed fiscal year 2003 budget of $449 
million, 36 percent is directed to Federal enforcement 
activities, and only 13 percent to compliance assistance. If 
OSHA is to effectively use its resources to significantly 
improve workplace safety and health, funding should be evenly 
allocated between enforcement and compliance assistance 
activities. That is where the prevention is.
    I also note with concern that OSHA training grants have 
been reduced from $11 million for fiscal year 2004 to $4 
million.
    Furthermore, the Migrant and Seasonal Farmworker Training 
Program has been eliminated in the Department of Labor's fiscal 
year 2003's budget.
    These are issues that I will be looking at closely and will 
work with my colleagues and the administration to address those 
concerns.
    Some might suggest that new legislation or increased 
administrative penalties are called for to improve the safety 
and health of immigrant workers. However, I believe that 
refocusing resources and procedures to break through cultural 
and language barriers is instead the key to protecting 
immigrant workers.
    I want to thank all the witnesses for appearing today. I 
particularly want to thank Bobby Jackson for agreeing to appear 
as my witness on the third panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Enzi follows:]

                   PREPARED STATEMENT OF SENATOR ENZI

    Mr. Chairman, thank you for calling this hearing today. The 
Occupational Safety and Health Act was enacted in 1970 to 
``assure so far as possible every man and woman in the Nation 
safe and healthful working conditions.'' This stated purpose of 
the OSH Act makes no distinction between foreign-born and 
native-born workers--or between low wage and high wage workers. 
It is neither a worker's country of birth or pay grade that 
trigger the protections of the OSH Act. However, this hearing 
will examine the role these factors play in workplace safety 
and health. If the risk of workplace injury or death is greater 
for immigrant workers than for other workers, we must ask why 
this is and what should be done about it.
    As always, our inquiry must begin with a review of the data 
regarding occupational safety and health for immigrant workers. 
As is too often the case with workplace safety and health 
statistics, the available data does not provide a complete and 
accurate picture.
    This hearing focuses on safety and health concerns for 
``immigrant'' workers. However, neither the Bureau of Labor 
Statistics (BLS) or the Occupational Safety and Health 
Administration (OSHA) use the term ``immigrant'' for data 
collection. BLS compiles data on the number of workplace 
fatalities for Hispanic/Latino as well as foreign-born workers. 
In 2000, the last year for which data is available, the total 
number of workforce fatalities declined by 2% from the previous 
year. During this same time period, fatalities for Hispanic 
workers increased by 12% and fatalities for foreign-born 
workers increased by 4%.
    These statistics are very troubling. Unfortunately, the 
statistics do not give us a full picture of the problem. The 
data for Hispanic or Latino workers includes those who are 
foreign-born as well as native-born. The term ``foreign-born'' 
workers includes children born to U.S. citizens while overseas, 
who, presumably, do not face the same language and cultural 
barriers that other immigrants do. Furthermore, since BLS does 
not collect overall data on the birthplace of workers, BLS does 
not have a fatality rate for foreign-born workers. In addition, 
the data for occupational injuries of immigrant workers is much 
sparser than for fatalities.
    No statistics collected by either BLS or OSHA clearly get 
at the heart of the issue--the role of language and cultural 
barriers in workplace deaths and injuries. If language and 
cultural barriers are at the heart of the problem, they are 
also at the heart of the solution.
    Secretary Chao recently announced initiatives to improve 
the safety and health of Hispanic workers in this country by 
breaking through these language and cultural barriers. I am 
looking forward to hearing Assistant Secretary Henshaw discuss 
these initiatives in greater detail. These initiatives reflect 
the commitment voiced by both Secretary Chao and Assistant 
Secretary Henshaw to improve workplace safety and health 
through outreach, education, training and public-private 
partnerships.
    Enforcement alone cannot ensure the safety and health of 
this country's workforce. Nor can the government ensure the 
safety of all workers on its own. We must focus our efforts on 
preventing injuries and deaths from occurring in the workplace. 
To do so, the government must tap into the resources of the 
private sector and of non-governmental organizations who are 
committed to improving workplace safety and health.
    The need for compliance assistance and coalitions to 
prevent injuries and deaths before they occur is particularly 
appropriate with regard to immigrant workers. Safety and health 
training and education should be developed and delivered in 
culturally sensitive and linguistically appropriate ways to be 
effective. Partnering with employers and community-based 
organizations to reach immigrant workers is critical.
    We must also bear in mind the unique needs and resources of 
small businesses. I call upon OSHA to ensure that small 
businesses are included in the development and delivery of 
immigrant safety initiatives.
    Later today, we will hear from Bobby Jackson with the 
National Safety Council (NSC). The NSC has undertaken a number 
of projects focused on improving the safety and health of 
Hispanic workers in this country. The NSC is the recipient of a 
Fiscal Year 2002 OSHA grant to develop and deliver safety and 
health training to hard-to-reach immigrant, Hispanic workers in 
the highway construction sector at the chapter and community 
level. The NSC is partnering with government agencies, the 
private sector and Hispanic/Latino community-based 
organizations to effectively reach these workers. The NSCs 
activities should serve as a model for outreach and training 
programs to improve workplace safety for immigrant workers.
    In light of the importance of outreach and compliance 
assistance to protect immigrant workers, indeed all workers, it 
is with great concern that I note the proposed Fiscal Year 2003 
budget. Of OSHA's proposed Fiscal Year 2003 budget of $449 
million, 36% is directed to federal enforcement activities, and 
only 13% is for compliance assistance. If OSHA is to 
effectively use its resources to significantly improve 
workplace safety and health, funding should be evenly allocated 
between enforcement and compliance assistance activities.
    I also note with concern that OSHA training grants have 
been reduced from $11 million for Fiscal Year 2002 to $4 
million for Fiscal Year 2003. Furthermore, the Migrant and 
Seasonal Farmworker Training Program has been eliminated in the 
Department of Labor's Fiscal Year 2003 budget. These are issues 
that I will be looking at closely and will work with my 
colleagues and the Administration to address my concerns.
    Some might suggest that new legislation or increased 
administrative penalties are called for to improve the safety 
and health of immigrant workers. However, I believe that 
refocusing resources and procedures to break through cultural 
and language barriers is, instead, the key to protecting 
immigrant workers. Thank you, Mr. Chairman.

                 OPENING STATEMENT OF SENATOR WELLSTONE

    Senator Wellstone. Thank you, Senator Enzi. Senator Enzi is 
a good person to work with. Whether we agree or disagree on the 
issues, he is always civil and always well-prepared to talk 
about the issues.
    Congressman Gutierrez, we are really delighted that you 
could be here.
    I will be very brief and ask unanimous consent that my full 
statement be included in the record.
    Is everybody in the room now? We have such a large number 
of people--do we have more people out there yet? Are we okay? 
Good. I am glad everybody is in the room. We are doing it a 
little differently--we have people everywhere--but it feels 
like a good community meeting to me, and we all thank you for 
coming.
    This hearing continues this Subcommittee on Employment, 
Safety and Training investigation into the challenges facing 
our nation's working poor. Two weeks ago, Senator Clinton 
chaired this subcommittee hearing with me, and it was extremely 
important. Senator Reed came, and we were talking about the 
working poor, Congressman Gutierrez, and the fact that for so 
many people it is extremely difficult when you think about 
affordable housing and child care, much less health care, for 
families to be able to cash flow from month to month. And 
frankly, with so many families making under $10 an hour, much 
less $5.50 or $6 an hour, it is just impossible. What can we do 
to make sure that families can do well? What can we do when 
people are working hard to make sure that the parent or the 
parents and their children do well?
    It was an extremely important hearing, and I think this 
hearing is extremely important as well.
    It is hard to get the precise data, but the reported number 
of fatal injuries has been declining over the past 8 to 10 
years, but for farm workers, there has been an increase in such 
fatalities, and this trend is perhaps most prominent with 
respect to Latino workers but with all the other workers as 
well.
    We are going to hear more detail today about the kinds of 
workplace hazards that these vulnerable workers face--falls 
from heights not protected by guardrails; transportation 
injuries and fatalities because contractors' vehicles do not 
have seats let alone seatbelts; workers with broken bones left 
for hours without medical treatment; workers putting their 
hands in toxic chemicals with no warning of the risks they 
face; day laborers at Ground Zero suffering symptoms of 
respiratory distress that indicate a lack of adequate safety 
and health training and protections at the site; workers 
suffering crippling repetitive stress injuries.
    Let me quote from the very eloquent testimony of one of our 
witnesses today that I think speaks volumes, and I think it 
captures the essence of our inquiry. Quote: ``As workers, 
immigrants have a disproportionate rate of accidents and 
fatalities in the workplace. We are hired to do the most 
undesirable and dangerous jobs at the lowest wages. We often do 
not know what rights we have or what laws protect us, and we 
receive no training in safety and health. Language and cultural 
barriers make it difficult to learn of our rights and 
particularly those who lack immigration status are fearful to 
speak out. We are considered''--and this is the word that 
really gets to me--``disposable and therefore easy to 
exploit.''
    Disposable--I cannot tell you how many times I have heard 
this sentiment expressed. This is truly unacceptable. As 
another one of our witnesses will point out, this is a 
fundamental moral question. When the clothes we wear, the food 
we eat, and the buildings we work in come from the exploitation 
of vulnerable workers, we have some moral choices to make.
    We are going to talk about policies that could make a 
difference. We need better data and better analysis of that 
data to define the problem. We need immigration reform to deal 
with the fundamental vulnerability of these workers. We need 
meaningful outreach and training by community-based 
organizations that have the trust and respect of the workers 
who are most vulnerable. We need stronger enforcement, higher 
penalties as a deterrent to the creation of hazardous 
conditions and inadequate protections, more resources for 
enforcement, and the use of creative new approaches, for 
example, greater reliance on the Fair Labor Standards Act's 
``hot goods'' provisions. And finally, we need stronger 
standards--immediate action on a repetitive stress injury 
standard; stronger child labor protections, updated exposure 
limits, updated hazardous orders for child labor--the list 
unfortunately goes on and on.
    I want to thank the witnesses. I want to thank my 
colleagues for being here. I want to thank all of you for 
attending. This is an extremely important subcommittee hearing, 
and we are very lucky to start out with Congressman Luis 
Gutierrez from the 4th District of Illinois.
    Since 1992, Representative Gutierrez has championed the 
causes of Latino and immigrant communities. As the first Latino 
to be elected to Congress from the Midwest, Mr. Gutierrez has 
sought opportunities to address longstanding needs facing the 
immigrant community in his diverse congressional district, home 
to Chicago's large, established communities of immigrants from 
Eastern Europe and Latin America. He is a passionate and 
effective Congressman.
    Congressman Gutierrez?
    [The prepared statement of Senator Wellstone follows:]

                PREPARED STATEMENT OF SENATOR WELLSTONE

    I would like to call this hearing to order and begin by 
thanking each of the witnesses for joining us today as well as 
the members of the audience. This hearing today continues the 
Subcommittee's investigation into the challenges facing this 
nation's working poor.
    Two weeks ago Senator Clinton joined me in what I thought 
were exceptional hearings that shed light on the basic message 
that many families in this country--too many families--simply 
are not earning enough to make ends meet. It's not that they 
don't want to work, and in fact, most of them are. But it is 
simply a fact of this ``new'' economy that we are in that there 
are a number of jobs that do not, and probably cannot, pay a 
family supporting wage.
    Families, stretched to the breaking point, face untenable 
choices. They can work more than one job, but at what cost to 
their families? They can try and juggle competing costs--the 
rent this month, the electricity next month, a trip to the 
doctor the month after that--but it's ridiculous to suggest 
that families should be forced to choose between heat and food 
or between rent and a trip to the doctor's office when their 
kids are sick as a matter of course.
    Our responsibility as public officials to grapple with 
these issues cannot be clearer. The ``morality'' of an economy 
whose foundation rests on the backs of working families not 
able to earn enough to meet their basic human needs will be 
central to the upcoming debate on TANF and Child Care 
Development Block Grant reauthorization.
    At today's hearing we want to examine more closely a 
particularly troubling aspect of this larger issue: the 
workplace safety and health problems facing immigrant and low 
wage workers. Although accurate data collection on this subject 
is difficult to come by, what we do know is troubling. While 
the reported number of fatal injuries has been declining over 
the past 8 to 10 years, foreign born workers have experienced 
an increase in such fatalities. This trend is perhaps most 
prominent with respect to Hispanic workers. In crop 
agriculture, where workers are predominantly foreign-born, the 
fatality rate is eight times the rate for all workers. Children 
in agriculture appear to be particularly at risk.
    We will hear more detail today about the kinds of workplace 
hazards these vulnerable workers face: falls from heights not 
protected by guard rails; transportation injuries and 
fatalities because contractor's vehicles do not have seats--let 
alone seat belts; workers with broken bones left for hours 
without medical treatment; workers putting their hands in toxic 
chemicals with no warning of the risks they face; day laborers 
at Ground Zero suffering symptoms of respiratory distress that 
indicate a lack of adequate safety and health training and 
protections at the site; workers suffering crippling repetitive 
stress injuries.
    We will want to shed light on these facts--and examine both 
the underlying causes and the policy issues that must be 
addressed. It is imperative that we understand the broader 
structural context in which these injuries and fatalities are 
taking place. Let me quote, if I may from the eloquent 
testimony of one of our witnesses today. I think it captures 
the essence of our inquiry:

        ``As workers, immigrants have a disproportionate rate 
        of accidents and fatalities in the workplace. We are 
        hired to do the most undesirable and dangerous jobs at 
        the lowest wages. We often do not know what rights we 
        have or what laws protect us and we receive no training 
        in safety and health. Language and cultural barriers 
        make it difficult to learn of our rights and 
        particularly those who lack immigration status are 
        fearful to speak out. We are considered disposable and 
        therefore easy to exploit.''

    ``Disposable''--I can't tell you how many times I have 
heard this sentiment expressed. This is truly unacceptable. As 
another of our witnesses will point out--this is a fundamental, 
moral question. When the clothes we wear, the food we eat, the 
buildings we work in come from the exploitation of vulnerable 
workers--we have some moral choices to make.
    We will today talk about the policies that could make a 
difference. We need better data and better analysis of that 
data to clearly define the problem. We need immigration reform 
to deal with the fundamental vulnerability of these workers. We 
need meaningful outreach and training by community-based 
organizations that have the trust and respect of the workers 
who are most vulnerable. We need stronger enforcement: higher 
penalties as a deterrent to the creation of hazardous 
conditions and inadequate protections, more resources for 
enforcement, and the use of creative, new approaches, for 
example, greater reliance on the Fair Labor Standards Act's 
``hot goods'' provisions. And finally, we need stronger 
standards: immediate action on a repetitive stress injury 
standard, stronger child labor protections, updated exposure 
limits, updated ``hazardous orders'' for child labor--the list, 
unfortunately, is long.
    Again, I want to thank the witnesses and the members of the 
audience for being here today. I look forward to the testimony. 
And I look forward to working with you on tackling some of the 
difficult and troubling issues we will be focusing on today.

STATEMENT OF HON. LUIS GUTIERREZ, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Gutierrez. Thank you and good afternoon, Chairman 
Wellstone, Senator Enzi, and Senator Clinton, for whom everyone 
in Illinois has a special place in their hearts.
    I am pleased to speak with you today about an issue of 
great importance to me and the community I serve, as well as to 
a large number of low-wage workers around the Nation, most of 
whom are immigrants to the United States.
    I am here to discuss the many challenges in the areas of 
workplace safety, wages, and benefits which confront the 
category of workers called ``day laborers.'' These are workers 
who seek and secure temporary employment either through 
placement agencies or waiting each day outside factories, 
warehouses, construction sites, even on street corners, often 
taking jobs that others are unwilling to accept. Their day-to-
day role might change. One day, they are pouring concrete for 
the foundation of a building; the next day, they are mopping a 
kitchen floor; the day after that, it is an assembly line, and 
then, maybe picking grapes or oranges or apples.
    But unfortunately for many day laborers, some things remain 
constant--the ongoing struggle for a few dollars' pay, the 
endless fear of debilitating and costly workplace accidents and 
the perpetual fight for dignity.
    Approximately 3 million people work as temporary day 
workers in the United States. Most are blue collar workers, 
although a large number are agricultural workers. The vast 
majority receive low wages, no benefits, and work under unsafe 
conditions. Most day laborers earn less than the minimum wage. 
The average yearly salary is $8,800--a figure which does not 
reflect significant reductions resulting from the cost of 
transportation, meals, and safety equipment, which often must 
be paid out of the worker's own pocket. Additional deductions 
of a far more dubious nature are often reported as well, such 
as workers who are charged for taking a restroom break.
    Taking such costs into account, the National Coalition for 
the Homeless estimates that the average daily take-home pay for 
a day laborer is $28. Please note, Mr. Chairman and members of 
the committee, that that figure is based on a 16-hour rather 
than the standard 8-hour work day.
    For a typical day laborer, the day begins at dawn, as he or 
she gets in line to wait for the day's work assignment, a wait 
which is made much longer as prospective workers are forced to 
ensure the elements while lacking water, food, or a place to 
sit. It is a wait for which the worker will not be compensated. 
Typically, such a wait may eat up to 4 hours or more of time. 
Then, it is another wait for a van to drive them to the work 
location. This is not a free ride, however. The worker will 
likely be stuck with a transportation fee which may amount to 
20 percent of his or her daily pay. Not only is the ride often 
costly, it is often risky and dangerous when workers are at the 
mercy of uninsured and unlicensed, unsafe drivers. Frequently, 
a dozen or more people will be stuffed into the back of an 
overcrowded and unsafe vehicle, placed there by their 
supervisors with far less care than is shown to the cargo, 
equipment, or raw material which the workers will use while on 
the job site.
    As you know, Mr. Chairman, I have introduced legislation in 
the House designed to offer much needed protections to these 
workers. The Day Laborers Fairness and Protection Act, H.R. 
2755, has earned the cosponsorship of 30 House Members and has 
been strongly supported by groups around the country, including 
the National Coalition for the Homeless, the National Training 
and Information Center, the Chicago Coalition, and the Day 
Labor Organizing Project.
    Let me explain a few key provisions of my bill. First, my 
bill requires day labor agencies to pay a wage rate equal to 
the wage rate received by the permanent employees engaged in 
comparable work at the site where the day laborer is sent. 
Without adequate wages and benefits, such workers remain 
trapped in a vicious cycle of poverty, frustration, and fear.
    A steady place to live is often out of reach for such 
workers. Approximately 40 percent of day laborers are homeless. 
My legislation establishes a cap of 3 percent of the total 
daily salary of the worker for transportation expenses.
    The bill also outlines other unscrupulous practices, some 
firms' selfish attempts to reap extra money from their workers. 
After paying meager wages, some companies amazingly stoop to 
charging a fee to the workers for cashing the very paycheck 
they are given. Last year, one firm reaped an additional $7 
million through this despicable practice.
    The bill also assigns liability to agencies and firms for 
injuries occurring while workers are being transported to and 
from a worksite and requires employers to cover health care 
costs resulting from work-related accidents.
    I think you will agree, Mr. Chairman, that the current 
predicament faced by day laborers who must pay their own doctor 
bills after being hurt at work is a literal incarnation of 
adding insult to injury.
    Typically, these workers perform the most difficult, dirty, 
dangerous work. In fact, last week, The New York Times reported 
that ``hundreds of day laborers, often without proper 
instruction or gear,'' are employed cleaning the remains of the 
World Trade Center. A study by Western Illinois University 
found that 39 percent of interviewed workers have suffered a 
work site injury.
    I am hopeful that further data on this point will be made 
available later this year upon completion of a study being 
conducted at my request by the General Accounting Office.
    Such unsafe circumstances coupled with an exploitive wage 
structure frequently create frictions among permanent and 
temporary workers, and within this group, between skilled and 
unskilled workers. Often, temporary workers fill skilled jobs 
at $6 an hour compared to the $20 that it would cost for a 
skilled, trained worker.
    Mr. Chairman, it is bad enough when some unscrupulous 
employers exploit day laborers; it is worse when they are 
treated as pawns to diminish the power of other working men and 
women, quite often of the unions who represent them.
     This is especially sad since both groups share many 
concerns and experiences in common.
    Additional problems may arise from language barriers. The 
room for misunderstanding is quite broad, increasing the 
chances of a mishap. Insufficient training in any language 
contributes to hazards.
    We should demonstrate that this is a nation of laws 
designed to help all individuals, including those who lack 
power, who lack a voice, who speak a language which is not 
English, who may lack a familiarity with the basic wage and 
safety standards that are commonly enjoyed by other workers.
    Mr. Chairman, thank you again for giving me the opportunity 
to share my views with the subcommittee. I am hopeful that you 
and I can build on the successful partnership that we have 
enjoyed in similar areas such as our combined efforts to 
restore legal immigrants access to key public services through 
the Fairness for Immigrants Act that we jointly sponsored in 
the 105th Congress.
    I look forward to working with you now to assist people who 
may earn low wages but who, through their work, have certainly 
earned some measure of protection from the abuse and have 
earned a measure of respect. I think that as a Nation, we 
cannot continue to benefit from the millions and millions of 
immigrants as we eat from the plates that they clean, sleep in 
the hotel rooms that they clean, eat the delicious fruit that 
they pick. Every day, we hand them our most cherished 
possession--our children--so they can raise and nurture those 
children; yet, at the end of the day, they often cannot go home 
to raise and nurture their own children because of the 
exploitive situation.
    I figure if they are good enough to raise our American 
citizens, they are good enough to live in this country with 
some dignity and some respect and be able to raise their own 
children.
    I thank you, Mr. Chairman, and I thank Senator Enzi and 
Senator Clinton for allowing me to speak before your very 
distinguished subcommittee this afternoon.
    Senator Wellstone. Thank you very much, Congressman. 
Congressman, because of the House work, we will excuse you, but 
I think you have sounded the right note for us, and we much 
appreciate your work.
    Mr. Gutierrez. Thank you all very much.
    Senator Wellstone. We are now going to go to our second 
panel. We have many distinguished panelists today.
    We welcome John Henshaw and Dr. Rosemary Sokas. Mr. Henshaw 
is Assistant Secretary for Occupational Safety and Health at 
the United States Department of Labor. Senator Clinton and I 
spoke with Mr. Henshaw at his nomination hearing about the 
topic of immigrant worker safety and health, and he indicated 
his interest in working on these issues with us. Your 
appearance here today, Mr. Henshaw, is much appreciated.
    Last week--and I know that Mr. Henshaw will talk about 
this--the Department of Labor announced initiatives with 
respect to protecting Hispanic workers' safety and health, and 
we look forward to hearing from Mr. Henshaw and others.
    Dr. Sokas is the associate director of science at the 
National Institute for Occupational Safety and Health, which is 
located within the Centers for Disease Control. NIOSH, as the 
only source of Federal research into workplace safety and 
health issues, plays a very critical role in doing the 
research, providing the data and providing the technical 
assistance. Dr. Sokas is a distinguished researcher on 
workplace safety and health, and we welcome her as well.
    We will start with Mr. Henshaw, and if I could, I am going 
to ask unanimous consent that additional testimony be included 
in the record, and this written testimony includes affidavits 
from injured workers, some of whom are actually here today as 
well.
    I also submit a statement from Senator Harkin to be 
included in the record.
    [The prepared statement of Senator Harkin follows:]

                  PREPARED STATEMENT OF SENATOR HARKIN

    Mr. Chairman, I applaud you for convening today's hearing 
on occupational safety and health issues related to immigrant 
workers, including working children. This is a much-needed 
oversight hearing and it comes at a critical time. President 
Bush has submitted a FY 2003 budget to the Congress that 
proposes deep cuts in the already-stretched federal resources 
intended to enforce our nation's laws to protect the 
fundamental rights and safety and health of all America's 
workers regardless of their immigrant status or ethnicity.
    I want to applaud Thomas Maier, in particular, for his 
remarkable investigative reporting that yielded a disturbing 
and compelling series of articles in Newsday last year that 
unmasks the growing exploitation of immigrant workers in 
America. That first-rate piece of journalism provides a 
powerful indictment of the federal government's on-going 
failure to ensure that immigrant workers in America have their 
rights protected and don't have to sacrifice their health, 
safety, and dignity when they come to our country to work and 
build a brighter future.
    As you know, Mr. Chairman, I have introduced comprehensive 
legislation--The Children's Act for Responsible Employment 
(S.869)--to eliminate the double standard in the Fair Labor 
Standards Act which allows children as young as 10 to work much 
longer hours under more hazardous conditions in large-scale 
commercial agriculture than is allowed for minors working in 
non-agricultural jobs. Currently, there are as many as 800,000 
migrant farmworker children working in the fields of corporate 
farms all across America, harvesting the produce that we eat 
every day. Most of these children are immigrants.
    These child laborers are at risk every day. They forfeit 
much of their childhood and are put at a decided disadvantage 
in their schooling. As such, they are perhaps the most 
vulnerable subset of millions of immigrant workers in many 
different lines of work who deserve far greater protection of 
their rights as well as their safety and health on the job. 
Generations of immigrant workers have contributed and continue 
to contribute so much to the bounty and strength of America. 
They deserve far better treatment in the workplace than they 
are receiving and I hope today's hearing will stir us to 
action.
    Mr. Henshaw?

      STATEMENTS OF JOHN HENSHAW, ASSISTANT SECRETARY FOR 
   OCCUPATIONAL SAFETY AND HEALTH, U.S. DEPARTMENT OF LABOR, 
 WASHINGTON, DC; AND ROSEMARY SOKAS, M.D., ASSOCIATE DIRECTOR 
  FOR SCIENCE, NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND 
   HEALTH, CENTERS FOR DISEASE CONTROL AND PREVENTION, U.S. 
      DEPARTMENT OF HEALTH AND HUMAN SERVICES, ATLANTA, GA

    Mr. Henshaw. Good afternoon. Thank you, Mr. Chairman, 
Senator Enzi, and Senator Clinton.
    Thank you for this opportunity to testify about the 
Occupational Safety and Health Administration's effort to 
impact immigrant workers. As you know, Mr. Chairman, the 
Occupational Safety and Health Act of 1970, the OSH Act, 
charges OSHA with the responsibility to protect all working men 
and women in this Nation, regardless of race, ethnic origin or 
immigrant status.
    I understand the subcommittee is concerned about immigrants 
and particularly Hispanic immigrants, who face a greater risk 
of occupational injury and death than other populations. The 
fatality rate among Hispanic or Latino workers troubles 
Secretary Chao deeply, and she is concerned about their rate of 
workplace injury. An immigrant herself, the Secretary is 
determined to tackle this issue head-on and has made outreach 
to immigrant and nonEnglish-speaking workers in the United 
States a priority during her tenure at the Department of Labor.
    To re-emphasize the Department's commitment to immigrant 
and nonEnglish-speaking workers, I joined Secretary Chao in the 
press conference we held last Thursday to present and discuss 
the Department's work. I am proud to announce today that one of 
our new initiatives is a Spanish language website that is now 
available to employers and employees at www.osha.gov.
    Perhaps a good way for me to begin this hearing is to 
clarify the terms that we will be using today. Neither OSHA nor 
the Bureau of Labor Statistics collects data using the term 
``immigrant.'' BLS uses the terms ``Hispanic'' or ``Latino'' 
and ``foreign-born'' workers. The data on foreign-born workers 
includes all those who were born in other countries. The vast 
majority of foreign-born individuals are immigrants. Also 
included in this group are children born to U.S. citizens while 
they were overseas, including children of U.S. military 
personnel.
    The data on Hispanic or Latino workers includes both native 
and foreign-born workers. Therefore, as you can see, these 
categories overlap.
    However, the most recent BLS report on fatalities clearly 
shows that Hispanics or Latinos accounted for a 
disproportionate share of workplace fatalities in 2000. 
Recognizing a few years ago that nonEnglish-speaking workers, 
the largest group of which are Hispanic, may require special 
efforts to protect them, the agency began addressing this issue 
by translating many publications into Spanish.
    More recently and as a result of my confirmation hearing--I 
heard from every member of this committee regarding the 
Hispanic interest--we began to review the issue around Hispanic 
and Latino fatalities. OSHA has developed additional emphasis 
as a result, starting this fall.
    What have we put into place? We have established an 
Hispanic Workers Task Force which was created last September.
    We have created an 800 number accessible to Spanish-
speaking individuals.
    We are initiating a national clearinghouse for training 
programs in Spanish.
    We have created a Spanish language website which I 
announced just a moment ago for employees and employers.
    We are compiling a list of fluent Spanish-speaking 
employees within the Occupational Safety and Health 
Administration which we will continue to build on in the 
Federal OSHA as well as in the State Plan States funded by OSHA 
and our onsite consultation services.
    We are also strengthening our OSHA offices' contacts with 
policy and emergency responders to ensure that OSHA receives 
referrals when an injury is work-related.
    My written testimony includes more details about these and 
other agency initiatives.
    The Secretary and I have established a priority for OSHA 
for strong, fair, and effective enforcement. Except for reports 
of imminent danger, fatality investigations are the agency's 
highest enforcement priority. OSHA's practice is to investigate 
all occupational fatalities except those that are clearly not 
covered by the OSH Act, such as fatalities involving self-
employed individuals and those resulting from working 
conditions regulated by other Federal agencies.
    All employers covered by the OSH Act must report to OSHA 
within 8 hours work-related accidents that result in fatalities 
or hospitalization of three or more employees. We recognize 
that employers who hire undocumented workers may be afraid to 
report workplace deaths due to possible legal repercussions 
from their hiring practices. Therefore, OSHA uses other sources 
to attempt to identify all workplace fatalities, including 
those that employers fail to report. For example, our area 
offices use local radio, TV, and newspaper media reports of 
workplace accidents to learn of fatalities. We also receive 
referrals from local fire departments, police departments, or 
other Federal and State agencies that may be investigating the 
workplace pursuant to other statutes.
    In the past, OSHA regional and field offices have entered 
into agreements with local law enforcement authorities and 
emergency response services for referral of any workplace 
injuries or fatalities to OSHA. As I mentioned earlier, I have 
directed the field offices to renew these arrangements with 
respective local organizations.
    OSHA does not collect any data during enforcement actions 
to indicate either the employee's citizenship status or 
ethnicity. OSHA fatality and other investigations focus on 
workplace safety and health hazards that give rise to the 
accident in question. Although this results in a 
nondiscriminatory enforcement policy--one that protects all 
workers--it does not allow us to track the number and type of 
injuries, illnesses and fatalities suffered by immigrant 
workers.
    However, we propose to change the Accident Investigation 
Summary Form, which is the OSHA 170, to include several 
questions about ethnicity and language capabilities. I believe 
that collecting this data will help us determine if there is a 
nexus between language, cultural barriers, and employee 
injuries. In addition, this information will enable the agency 
to evaluate its outreach programs and determine further program 
outreach needs.
    Fatalities are not the only concern of OSHA. OSHA's 
statutory mandate is to prevent workplace accidents and 
minimize injuries and illnesses before they occur. To leverage 
our resources, we have developed an inspection program that 
targets the most hazardous worksites for investigation and 
inspection. This site-specific program allows OSHA to address 
the nonconstruction industries and workplaces where the highest 
rates of lost work-day cases due to injury and illness occur. 
In many cases, these are the same industries that employ large 
numbers of immigrant workers, such as the meat and poultry 
processing plants.
    Of course, there are still some dangerous worksites that 
are difficult to identify, particularly in the construction 
industry, where many small employers may work on a site for a 
few hours and then move to another location. To identify these 
sites, OSHA is adding construction employers to its site-
specific survey and will upgrade its management information 
system to collect and disseminate additional data on this 
industry.
    OSHA also relies on local emphasis programs or LEPs, as we 
call them, at area and regional levels to target smaller and 
more hazardous industries and employers that may have a large 
immigrant work force. OSHA plans to share all aspects of these 
local emphasis programs with our staff through our new Hispanic 
Task Force formed as part of the Department of Labor's 
initiatives to assist immigrant workers.
    In August of 2001, in response to the Secretary's 
directive, OSHA established a task force to assess its outreach 
to Hispanic workers and reduce the number of deaths among 
Hispanic workers in this country. The task force is actively 
pursuing creative solutions to immigrant worker problems and 
plans to hold a best practice conference by the fall of 2002 so 
that employers can share information about their practices that 
have worked to reduce injuries and illnesses for nonEnglish-
speaking employees. The task force is also establishing a 
national clearinghouse, as I mentioned, to catalogue and 
disseminate all videos, written publications and other training 
materials that have been translated into Spanish.
    The agency has also developed a list of both Federal and 
State OSHA employees who are fluent in Spanish. I plan to 
expand that list to include other languages. OSHA's toll-free 
800 number, as I mentioned, which is used to report emergencies 
to the agency is now available in Spanish. OSHA is also seeking 
to employ staff who speak other languages aside from Spanish.
    Safety and health training grants are another tool that 
OSHA uses to address the unique problems of nonEnglish-speaking 
workers. In its fiscal year 2003 budget----
    Senator Wellstone. Excuse me, Mr. Henshaw. I am going to be 
impolite. You are the Assistant Secretary of Labor for 
Occupational Safety and Health, and I want you to continue, but 
we have a lot of people to hear from today, so I might ask you 
to conclude in a couple of minutes. I know you have a lot to 
report on, and I am sorry to do that, and I am going to try to 
hold everybody to 5 minutes except for the Assistant Secretary, 
because we want to hear from everyone.
    I apologize for that impoliteness.
    Mr. Henshaw. I have 2 minutes.
    Senator Wellstone. You can go more than that, but not too 
much more than that.
    Mr. Henshaw. Thank you, Senator. I appreciate it.
    Workplaces have changed significantly, and are employing an 
increasing number of workers from a myriad of cultures, with 
different languages, literacy, and educational levels. Among 
other issues, our training grants will earmark funds to address 
specific hazards faced by the Hispanic and nonEnglish-speaking 
workers.
    OSHA's outreach in the Hispanic community is not only found 
at the national level but is also being done at an individual 
regional level as well. Several of our OSHA regions have 
developed programs specific to their regional needs. I have 
included details of these programs in my written testimony.
    In addition to our national and regional programs, there 
are 26 States that operate their own occupational safety and 
health programs. Many of them are reaching out to Hispanic and 
foreign-born populations as well.
    On Labor Day, Secretary Chao noted that we could do better 
in protecting Hispanic workers by reaching out and educating 
them and their families about safety and health. Of course, not 
all Latino and Hispanic employees are immigrant workers as 
defined by BLS, but they are the largest single group of 
immigrant employees.
    As Secretary Chao has said, immigrants are the dreamers who 
come to America for a new start and a brighter future. We have 
a responsibility to protect these individuals from on-the-job 
dangers. I can assure you, Mr. Chairman, that OSHA will 
continue to work with you and the subcommittee to enhance our 
programs and use all the tools provided by law to protect 
immigrant workers and all other employees in this Nation.
    Thank you.
    Senator Wellstone. Thank you, Mr. Henshaw. Thank you for 
your work.
    [The prepared statement of Mr. Henshaw follows:]

                 PREPARED STATEMENT OF JOHN L. HENSHAW

    Mr. Chairman, members of the Subcommittee: Thank you for this 
opportunity to testify about the Occupational Safety and Health 
Administration's (OSHA) efforts to protect immigrant workers. As you 
know, Mr. Chairman, the Occupational Safety and Health Act of 1970 (OSH 
Act) charges OSHA with the responsibility to protect all working men 
and women in this Nation.
    I understand the Subcommittee is concerned that immigrants, and 
particularly Hispanic immigrants, face a greater risk of occupational 
injury or death than other populations. The fatality rate among 
Hispanic or Latino workers troubles Secretary Chao deeply and she is 
concerned about their rate of workplace injury. An immigrant herself, 
the Secretary is determined to tackle this issue head-on and has made 
outreach to immigrant and non-English speaking workers in the United 
States a priority during her tenure at the Department of Labor. 
Secretary Chao has directed DOL agencies to make unprecedented efforts 
to ensure that the Department's broad range of employment-related 
services--including workplace and mining health and safety training and 
information, compliance assistance, enforcement of wage and hour laws, 
pension and retirement information, and employment training--reach 
immigrant and non-English speaking workers.
    Perhaps a good way for me to begin this hearing is to clarify the 
terms we will be using today. Neither OSHA nor the Bureau of Labor 
Statistics (BLS) collects data using the term ``immigrant''. BLS uses 
the terms ``Hispanic or Latino'' and ``Foreign-born'' workers. The data 
on foreign-born workers includes all those who were born in other 
countries. The vast majority of foreign-born individuals are 
immigrants. (Also included in this group are children born to U.S. 
citizens while they were overseas, including children of U.S. military 
personnel.) The data on Hispanic or Latino workers includes both 
native- and foreign-born workers. Therefore, as you can see, these 
categories overlap.
    I am very pleased to report that there has been a significant 
improvement in safety and health conditions in America. For example, 
from 1992 to 2000, the overall injury/illness incidence rate dropped by 
31 percent. Furthermore, the number of fatal workplace injuries 
declined by 2% from 1999 to 2000, while overall employment increased 
that year. However, the BLS report on fatalities for the year 2000 
shows that 815 Hispanic or Latino workers, including 494 foreign-born 
Hispanic or Latino workers, died as a result of job-related injuries--
an 11.6% increase from the previous year.
    Hispanics or Latinos accounted for a disproportionate number of 
workplace fatalities in 2000, 13.8 percent, compared with their 
proportion of employment, which was 10.7 percent. This appears to be 
largely due to the fact that Hispanics or Latinos are 
disproportionately employed in the more dangerous industries. For 
example, the construction industry accounts for about 7 percent of all 
employment, but 20 percent of fatalities. Hispanics or Latinos comprise 
almost 15 percent of construction employment, well above their 
representation in the workforce overall.
    Although we have made progress, we believe that a single death is 
one too many, and OSHA will be at the forefront of renewed efforts to 
significantly reduce the number of fatal workplace injuries. This 
Administration will use the entire complement of tools provided by the 
OSH Act to address workplace hazards, including enforcement, training, 
information, and compliance assistance.
    Recognizing that non-English-speaking workers--the largest group of 
which are Hispanic or Latino--may require special efforts to protect 
them, the Agency began addressing this issue a few years ago by 
translating many publications into Spanish. More recently, after 
reviewing data concerning the increasing, Hispanic or Latino 
fatalities, OSHA responded by developing an even stronger emphasis on 
this worker population by:
    <bullet> Establishing an Hispanic Workers Task Force
    <bullet> Creating an 800 number accessible to Spanish-speaking 
individuals
    <bullet> Initiating a national clearinghouse for training programs 
in Spanish (includes videos, written publications and other training 
materials)
    <bullet> Creating a Spanish-language website for employees and 
employers
    <bullet> Compiling a list of fluent Spanish speaking employees in 
Federal OSHA and State Plan States and OSHA-funded, on-site 
consultation agencies (119 Federal, 38 state and 22 consultation)
    <bullet> Strengthening OSHA offices' contacts with police and 
emergency responders to ensure that OSHA receives referrals when an 
injury is work-related
    I will provide details on these and other Agency initiatives in my 
testimony, today.

Fatality Investigation Process

    In FY 2001, Federal OSHA conducted more than 35,000 inspections. 
Approximately three percent of these inspections were fatality 
investigations. Because, as I will explain later, BLS and OSHA collect 
somewhat different demographic data on workplace injuries and 
fatalities, which makes it impossible to determine exactly how many 
OSHA investigations were related to immigrant worker injuries.
    Except for reports of imminent danger, fatality investigations are 
the agency's highest enforcement priority. OSHA's practice is to 
investigate all occupational fatalities except those clearly not 
covered by the OSH Act, such as fatalities involving self-employed 
individuals or those resulting from working conditions regulated by 
another Federal agency. All employers covered by the OSH Act must 
report to OSHA, within eight hours, work-related accidents that result 
in fatalities or hospitalization of three or more employees. We 
recognize that employers who hire undocumented workers may be afraid to 
report workplace deaths due to possible legal repercussions from their 
hiring practices. OSHA, however, issues citations against employers who 
fail to report worker deaths or multiple hospitalizations. In FY 2001, 
Federal OSHA issued 138 citations and proposed $262,525 in penalties 
for employers' failure to report such incidents.
    In responding to immigrant worker deaths the Agency often 
encounters a difficult situation because sometimes workers are afraid 
to speak out about unsafe or unhealthful conditions for fear of being 
deported. OSHA routinely pledges to keep the identity of informants 
confidential. In addition, OSHA informs all workers of their rights 
under the OSH law, including the whistleblower protection provisions 
under section 11(c), which forbids employers from discriminating 
against or discharging workers for making safety and health complaints 
under the OSH Act.
    OSHA uses other sources to attempt to identify all workplace 
fatalities, including those that employers fail to report. For example, 
our area offices use local radio, TV and newspaper media reports of 
workplace accidents to learn of fatalities. We also receive referrals 
from local fire departments, police departments or other Federal and 
state agencies that may be investigating the workplace pursuant to 
other statutes. In the past, OSHA regional and field offices have 
entered into agreements with local law enforcement authorities and 
emergency response services for referral of any workplace injuries or 
fatalities to OSHA. As I mentioned earlier, I have directed the field 
offices to renew these agreements with the respective local 
organizations.
    OSHA does not collect any data during enforcement actions to 
indicate either the employee's citizenship status or ethnicity. OSHA 
fatality and other investigations focus on workplace safety and health 
hazards that gave rise to the accident in question. Although this 
results in a non-discriminatory enforcement policy--one that protects 
all workers--it does not allow us to track data the number and type of 
injuries, illnesses and fatalities suffered by immigrant workers. 
However, we propose to change the Accident Investigation Summary Form 
(OSHA 170) to include several questions about ethnicity and language 
capabilities. I believe collecting this data will help us determine if 
there is a nexus between language, cultural barriers and employee 
injuries. In addition, this information will enable the Agency to 
evaluate its outreach programs and determine future program/outreach 
needs.
    Another issue for immigrant workers is the number of deaths due to 
workplace assaults and acts of violence. It is important to note that 
OSHA is not the primary investigator for assaults and other violent 
acts at the workplace, which resulted in the deaths of 129 Hispanic 
workers in 2000. Because these acts are considered criminal, local law 
enforcement agencies have the primary role in investigating these 
fatalities.
    Even so, the Agency is addressing violence in the workplace by 
issuing guidelines that inform employers of the best practices used to 
safeguard employees and contain suggestions by law enforcement 
personnel on safeguarding the workplace. Many immigrant workers are 
employed in the industries discussed in these guidelines, such as the 
``Guidelines for Preventing Workplace Violence For Health Care 
Workers,'' ``Recommendations for Workplace Violence Prevention Programs 
in Late Night Retail Establishments,'' and an OSHA fact sheet for taxi 
drivers. Our goal is to prevent these tragedies from occurring by 
assisting employers to identify and reduce the risks of workplace 
violence.

Targeted Investigations

    Fatalities are not the only concern for OSHA. OSHA's statutory 
mandate is to prevent workplace accidents and minimize occupational 
inquiries and illnesses. To leverage our resources, we have developed 
an inspection program that targets the most hazardous worksites. For 
many years OSHA relied largely on BLS's annual injury/illness survey 
data to target its inspections. Although these data identified the most 
dangerous industries, they did not allow OSHA to specifically identify 
the most dangerous workplaces. In 1996, to complement its use of BLS 
data, OSHA launched a site-specific targeting program that surveys 
80,000 general industry employers each year and uses the resulting data 
to identify those with higher-than-average lost workday injury and 
illness rates. These high-injury worksites are then targeted for 
inspection. OSHA sends letters to employers with rates that are double 
the national average encouraging them to seek consultation assistance 
to improve their workplace safety and health conditions.
    The site-specific program allows OSHA to address the non-
construction industries and workplaces where the highest rates of lost 
workday cases due to injury and illness occur. In many cases, these are 
the same industries that employ a large number of immigrant workers, 
such as meat and poultry processing plants. OSHA will increase its 
total inspections in FY 2002, conducting more than 36,000 Federal 
inspections and focus enforcement on high-risk jobs.
    Of course, there are still some dangerous worksites that are 
difficult to identify, particularly in the construction industry, where 
many small employers may work on a site for a few hours and then move 
to another location. To identify these sites, OSHA is adding 
construction employers to its site-specific survey and will upgrade its 
management information system to collect and disseminate additional 
data on this industry.
    OSHA also relies on Local Emphasis Programs (LEP) at area and 
regional levels to target smaller more hazardous industries and 
employers that may have a large immigrant workforce. For example, in 
Florida, many Hispanic workers are employed in the construction trades. 
Responding to an increasing number of construction fatalities in South 
Florida, OSHA developed the Construction Accident Reduction Emphasis 
(CARE) program in March 1999. OSHA also implemented local emphasis 
programs in this area, focusing on preventing falls and overhead power 
line accidents. OSHA plans to share all aspects of these local emphasis 
programs with our staff, through its new Hispanic Task Force formed as 
part of the Department of Labor's initiatives to assist immigrant 
workers.

OSHA Initiatives

    In August 2001, in response to the Secretary's directive, OSHA 
established a Task Force to assess its outreach to Hispanic workers and 
reduce the number of deaths among Hispanic workers in this country. 
Headed by OSHA's Regional Administrator in Dallas and comprised of 
representatives from the National office, local OSHA offices, and state 
OSHA programs, the task force is actively pursuing creative solutions 
to the immigrant worker problems.
    We plan to hold a best practices conference by the fall of 2002 so 
employers can share information about those practices that have worked 
to reduce injuries and illnesses for non-English speaking employees. 
The Task Force also is establishing a national clearinghouse to 
catalogue and disseminate for all videos, written publications and 
other training materials that have been translated into Spanish.
    A number of OSHA employees in local offices are bilingual and they 
help Spanish-speaking and other non-English-speaking workers access 
OSHA's outreach resources, complaint and other services. The Agency now 
has a list of both Federal and State OSHA employees who are fluent in 
Spanish. I plan to expand that list to include other languages. OSHA's 
toll-free, 800 number, which is used to report emergencies to the 
agency, is now available in Spanish. OSHA is also seeking to employ 
staff that speaks languages other than Spanish.
    Safety and health training grants are another tool OSHA will use to 
address the unique problems of non-English-speaking workers. In its FY 
2003 budget, the Agency proposes to change the focus of its training 
grant program. Workplaces have changed significantly, and are employing 
an increasing number of workers from a myriad of cultures with 
different languages, literacy and educational levels. OSHA will provide 
grants to non-profit organizations and professional organizations, 
colleges, universities and community colleges as well as faith-based 
and community-based organizations. Grants will enable these groups to 
establish programs to train employees and small business employers in 
selected occupational safety and health topics; programs that can 
continue after the grant has ended. Materials posted on the web will 
have broad applicability and allow for easy access and training at the 
convenience of both employers and employees. Among other issues, our 
training grants will address workplace safety issues specific to 
Hispanic and other non-English speaking workers.
    OSHA's outreach to the Hispanic community is not only found at the 
National level but is also being done in individual regions across the 
nation. Several of OSHA's regions have developed programs specific to 
their regional needs. In Region II, which includes New York and New 
Jersey, OSHA has worked closely with churches and community 
organizations representing immigrants. For example, in Central New 
Jersey, OSHA has worked with the Puerto Rican Congress, attending its 
annual conference and providing literature and information about the 
Agency. Also, in New Jersey, OSHA has participated in an alliance begun 
in 1995 between the Archdiocese of Newark, DOL's Wage and Hour Division 
and Union of Needletrades, Industrial, and Textile Employees (UNITE) to 
address the pay/benefits and health and safety conditions faced by 
workers in the apparel trades. OSHA also contributed material to 
curriculum developed and presented to every middle and high school 
student in the Newark, N.J. Archdiocese.
    In addition to the Local Emphasis Programs that I mentioned 
earlier, we have distributed in Florida a variety of educational tools 
written in Spanish, including a poster depicting the four major 
construction hazards, a packet card explaining the dangers of working 
with overhead power lines, and a pamphlet on ways to eliminate 
excavation hazards. OSHA teamed with Florida's consultation agency, 
which provides free safety and health advice to smaller businesses, to 
offer two ten-hour construction classes in the Fort Lauderdale area. 
OSHA met with various organizations of Hispanic workers to emphasize 
the extremely high number of construction fatalities in southern 
Florida. The results have been impressive. Between 1998 and 2000, the 
number of falls decreased by one-third, and fatalities caused by 
contact with overhead power lines dropped 60% during that period.
    In Fort Worth, OSHA has provided a 10-hour course on construction 
safety, conducted in Spanish, and has developed a movable workplace 
safety billboard in Spanish, which is being displayed throughout the 
area. Our Fort Worth office also worked with the Hispanic Chamber of 
Commerce to coordinate courses in Spanish for a safety seminar. OSHA's 
Houston-North office uses Spanish-speaking compliance officers to 
interpret employee complaints and to interact with Hispanic workers, 
particularly on construction inspections. The Dallas office has worked 
with the Mexican consulate to train Hispanic workers, conducting 8-hour 
seminars on the leading causes of construction fatalities for Hispanic 
contractors and their subcontractors.
    OSHA Region VII has translated the Fall Protection Pocket Guide and 
other safety cards into Spanish and maintains a library of training 
videos in Spanish addressing hazards such as lead exposure, bloodborne 
diseases, and lockout/tagout. OSHA's Region IX in the West maintains an 
800 number complaint and technical assistance line that provides 
information in Spanish, Korean and Tagalog.
    This is a sample of the outreach, education and training programs 
for immigrant workers conducted by Federal OSHA. OSHA's Hispanic Task 
Force is compiling the information on the programs discussed above and 
other programs developed by our regional and area offices so OSHA field 
offices can share information and talk to one another about the best 
way to implement the program and to eliminate barriers to success. This 
sharing eliminates redundancy and enables OSHA's regions to learn from 
one another, and collaborate and coordinate programs for immigrant 
workers while tailoring programs to the specific needs of their 
geographical area. This sharing can only strengthen our work 
nationwide.
    The Hispanic Task Force is also developing a clearinghouse for 
Spanish safety and health training materials developed by others. While 
these materials are not endorsed by the Agency, a list will be 
available to employers on the OSHA Web site. This will help employers 
find materials that will help them train and communicate with their 
Spanish-speaking workers.
    In addition to our national and regional programs, there are 26 
states that operate their own Occupational Safety and Health programs. 
Many of them are reaching out to the Hispanic and foreign-born 
population, too. For example, California, North Carolina, Oregon and 
Washington, have produced materials designed for agricultural workers 
whose primary language is Spanish. Each of these states maintains a 
staff of bilingual employees. New Jersey's on-site consultation program 
has staffers who can provide the service in Spanish.
    On Labor Day, Secretary Chao noted that we could do better in 
protecting Hispanic workers by reaching out and educating them and 
their families about safety and health. Of course, not all Latino and 
Hispanic employees are immigrant workers, but they are the largest 
single group of immigrant employees. As Secretary Chao has said, 
immigrants are the dreamers who come to America for a new start and a 
brighter future. We have a responsibility to protect these individuals 
from on-the-job dangers. I can assure you, Mr. Chairman, OSHA will 
continue to enhance our programs and use all of the tools provided by 
law to protect immigrant workers and all other employees in this 
Nation.

   Response From Mr. Henshaw to Questions Asked by Senator Wellstone
                          U.S. Department of Labor,
                                    Washington, D.C. 20210,
                                                    April 19, 2002.
Hon. Paul D. Wellstone,
U.S. Senate,
Washington, D.C. 20510.
    Dear Mr. Chairman: I am writing in response to the questions you 
have raised since the February 27, 2002 hearing on ``Workplace Safety 
and Health for Immigrant and Low Wage Workers.'' I again wish to 
express my appreciation for being invited to testify before the 
Subcommittee on some of the many ways that the Agency's regional, area, 
and state plan offices are reaching out to protect Hispanic and Latino 
workers, while also increasing compliance assistance for their 
employers.
    Your March 28, 2002 letter contains several different Departmental 
issues and policy matters. Those questions regarding subjects that do 
not fall under the Occupational Safety and Health Administrations 
jurisdiction have been referred to other agencies within the Department 
of Labor, or to other appropriate federal regulatory agencies.
    The following are OSHA's responses to your questions:

    Question 1. Please indicate the status of the Department of Labor's 
Inspector General investigation into the Occupational Safety and Health 
Administration's (OSHA) enforcement efforts with respect to workplace 
fatalities and injuries of foreign-born workers. Were any of the 
fatally injured workers under age 18? Did any of the fatalities occur 
at workplaces employing 10 or fewer workers?
    Answer 1. The Inspector General's (IG) report has not yet been 
completed or forwarded to the Agency. I will be happy to comment upon 
the findings of the report once it is available.
    As I mentioned in my testimony, during a safety or health 
inspection or a fatality/catastrophe investigation, OSHA does not 
collect, or require compliance officers to determine, the ethnicity, 
place of birth, or citizenship status of injured, ill, or deceased 
workers. Certain inspection data about violations of OSHA standards is 
maintained in OSHA's Integrated Management Information System (IMIS) 
database. For instance, federal inspection data includes fatalities of 
workers under the age of 18.
    Also, the database includes total inspections of establishments 
with 10 or fewer employees where a fatality inspection has been 
conducted. But the database does not include information on place of 
birth or ethnicity.

    Question 2. Please indicate the number of whistleblower complaints 
involving foreign-born worker fatalities or injuries OSHA has received 
over the last three years.
    Answer 2. Although your question refers to whistleblower complaints 
related to injuries and fatalities, whistleblower investigations do not 
address injuries or fatalities. Rather the focus of OSHA whistleblower 
investigations is on the discriminatory action taken by the employer 
against a whistleblowing employee. Some examples of discrimination are 
firing, assignment to an undesirable shift, reducing pay or hours, 
denial of benefits such as sick leave or vacation time, or blacklisting 
with other employers, among other actions.
    The Agency is responsible for protecting workers' rights under 
Section 11(c) of the OSH Act of 1970, along with 11 other federal 
whistleblower statutes. OSHA conducts in-depth interviews with each 
complainant to determine the need for an investigation, but does not 
inquire about a persons place of birth, so it is not possible for me to 
report on the number of whistleblower investigations involving foreign-
born workers. If evidence supports a worker's claim of discrimination, 
OSHA's role is to seek the restoration of the worker's job, earnings 
and benefits.

    Question 3. Please indicate the number of investigations OSHA has 
initiated in the last year that involved foreign-born workers.
    Answer 3. As I stated earlier, OSHA health and safety inspections 
do not involve the collection of an employee's race, ethnicity, place 
of birth, or citizenship status. Due to the fact that OSHA does not 
collect such information, I am unable to answer this question.
    However, as you know, one of the initiatives OSHA will be 
implementing in the field soon is a new procedure to collect additional 
information during each fatality and/or catastrophe investigation 
conducted by the Agency. This new procedure is to capture data 
regarding immigrant, foreign-born and Hispanic/Latino worker deaths or 
serious injuries. It will also aid the Agency in determining whether or 
not language barriers contribute to workplace fatalities and serious 
injuries.
    Currently, other useful occupational safety and health data is 
available from the Bureau of Labor Statistics' (BLS) Injuries, 
Illnesses., and Fatalities program as proscribed under 29 CFR Part 
1904--Recording and Reporting Occupational Injuries and Illnesses. See 
http://www.bls.gov/iif/home for details via the Internet. Since 1972, 
BLS annually reports on the number of workplace injuries, illnesses, 
and fatalities through two collection methods: an Annual Survey of 
Occupational Injuries and Illnesses, and starting in 1992, a separate 
Census of Fatal Occupational Injuries (CFOI).

    Question 4. Please indicate the status of the National Institute 
for Occupational Safety and Health study of child labor hazardous 
orders. In particular, please indicate (1) whether this report has been 
submitted to OSHA or the Department, if so, (2) when the report will be 
released, and (3) what actions OSHA plans to take to protect children 
as a result of this report to further protect children working in 
agriculture.
    Answer 4. The National Institute for Occupational Safety and Health 
(NIOSH) is producing this report for the Department's Employment 
Standards Administration (ESA). ESA's Division of Wage and Hour 
administers the wage, hour and child labor provisions of the Fair Labor 
Standards Act, as well as portions of the Migrant and Seasonal 
Agricultural Worker Protection Act. I have referred your specific 
questions about the NIOSH study to ESA for a direct response.
    ESA has not received the final NIOSH report on child labor 
hazardous occupation orders. Certainly once it is finalized, the 
Department will be happy to present a copy to the Subcommittee.
    Upon completion of the study, OSHA will review the recommendations, 
if any, and decide upon a proper course of action.
    Also, related information is available at: http://www.cdc.gov/
niosh/childag/ChildAghome.html. NIOSH leads the National Committee for 
Childhood Agricultural Injury Prevention (NCCAIP), which works on 
developing relevant research, education, policy and other interventions 
aimed at reducing agricultural injuries among children.

    Question 5. During the past few years, scores of farmworkers have 
died and many others have been seriously injured by preventable 
accidents in motor vehicles on their way to and from work in the 
fields. What is OSHA and/or the Department doing to ensure that safe 
vehicles are being used to transport farmworkers, day laborers and 
others? Should safety standards for these vehicles include seats and 
seat belts? Should the farm operators and other employers that rely on 
this transportation system be held responsible for ensuring the safety 
of workers using that transportation? If so, what measures would you 
propose. If not, please explain.
    Answer 5. Because Section 4(b)(1) of the OSH Act limits the Agency 
from regulating ``. . . the working conditions of employees with 
respect to which other Federal agencies, . . . exercise statutory 
authority to prescribe or enforce standards or regulations affecting 
occupational safety or health,'' I am forwarding your request to the 
federal agencies discussed below.
    ESA's Wage and Hour Division is responsible for enforcing 
regulations on the transportation of farmworkers if they have H2A 
visas, or are covered by the Migrant and Seasonal Agricultural Workers 
Protection Act. These regulations include requirements regarding 
vehicle safety; driver training, and the insurance to be carried.
    Additionally, the Department of Transportations (DOT) Federal Motor 
Carrier Safety Administration (FMCSA) has exercised its statutory 
authority in this area by issuing regulations concerning the 
``Transportation of Migrant Workers.'' See 49 CFR Part 398. Therefore, 
to the extent the regulations of FMCSA and ESA cover the transportation 
of workers, OSHA may not conduct enforcement activity. Lastly, some 
states also regulate the transportation of farmworkers or day laborers; 
such laws would be enforced at the state or local level.

    Question 6. Every summer several farmworkers die from heat stroke 
in the field. These deaths are preventable by ensuring that farmworkers 
have available adequate amounts of potable water to drink during work 
in the fields and that workers have some rest breaks in the shade. What 
steps is OSHA and/or the Department taking to ensure compliance with 
the Field Sanitation Standard? Are there other steps that could be 
taken to prevent these deaths and related injuries?
    Answer 6. OSHA no longer has authority to enforce the field 
sanitation standard (29 CFR 1928.110). In 1997 the Department of Labor 
made permanent a transfer of specific enforcement activities between 
the Assistant Secretaries for ESA and OSHA to more effectively and 
efficiently utilize the Department's resources. Secretary's Orders 5-
96, 6-96, and 3-2000 delegated enforcement of the field sanitation 
standard to ESA's Wage and Hour Division. This authority extends to 
nine States operating OSHA-approved State plans. In 14 other States 
operating OSHA-approved State plans, jurisdiction over field sanitation 
was not given to ESA and remains a State responsibility.
    Another limitation on OSHA's involvement with the agriculture 
industry is the congressional appropriations rider that annually 
restricts the Agency from conducting inspections at small farms. This 
restriction also applies to ESA's enforcement of OSHA's field 
sanitation standard. A farming operation is exempt from all OSHA 
activity if it does not currently have--or had in the proceeding 12 
months--an active temporary labor camp, or if it employs 10 or fewer 
employees (excluding family members). This rider prohibits compliance 
assistance, as well as investigations on small farms stemming from 
complaints, reports of imminent danger, or fatalities or 
hospitalization of two or more workers.
    Other than these exceptions (and certain instances where ESA 
enforces the temporary labor camp standard), OSHA enforcement in the 
agriculture industry includes all working conditions covered by its 
agricultural standards (29 CFR Part 1928); the seven general industry 
standards referenced in 29 CFR 1928.21; and the ``General Duty Clause'' 
(Section 5(a)(1) of the OSH Act).
    Heat stress among farm workers is a serious problem that the Agency 
is working to bring attention to through education and outreach. OSHA 
and the Environmental Protection Agency (EPA) jointly issued "A Guide 
to Heat Stress in Agriculture," in 1993; it offers practical, step-by-
step guidance for non-technical managers on how to set up and operate a 
heat stress control program. In 1998 OSHA began distributing a 
laminated heat stress card, which workers and employers can easily 
carry in their pockets. It is available in English and Spanish. 
Additional resources are available from NIOSH, and through OSHA's 
Technical Links Web Page: http://www.osha.gov/SLTC/heatstress.

    Question 7. More than a decade ago, OSHA issued a Hazard 
Communications Standard ensuring that employers educate their workers 
about the chemicals to which they are exposed in the workplace. Since 
then, however, my understanding is that OSHA has not enforced this 
standard with respect to farmworkers' exposure to pesticides in the 
fields. What steps is OSHA and/or the Department taken with respect to 
providing farmworkers adequate information about particular pesticides 
being used, the symptoms of exposure and possible long term effects on 
their health. In particular, please explain OSHA's current enforcement 
strategy with respect to ensuring that farmworkers receive such 
critical information.
    Answer 7. As noted in the answer to Question 5, due to Section 
4(b)(1) of the OSH Act, the Agency is preempted from addressing working 
conditions that other federal agencies regulate. The Environmental 
Protection Agency (EPA) has the primary statutory authority (Federal 
Insecticide, Fungicide, and Rodenticide Act--FIFRA) to regulate the use 
of, and exposure to, pesticides for agricultural workers. Under FIFRA, 
in 1974, EPA issued its final ``Worker Protection Standard for 
Agricultural Pesticides'' (WPS). The WPS required labeling statements 
referencing EPA regulations; specified application restrictions; 
required restricted-entry intervals; required personal protective 
equipment; and required notification to workers of pesticide 
applications. WPS was amended in 1992 to not only expand its coverage 
to employees in forests, nurseries and greenhouses and employees who 
handle pesticides for use in these locations, but added new provisions 
for decontamination, emergency assistance, contact with handlers of 
highly toxic pesticides and pesticide safety training. The requirements 
contained in EPA's WPS closely parallel those contained in OSHA's 
Hazard Communications Standard (HCS). Because OSHA cannot conduct 
enforcement activity over working conditions if another federal agency 
has exercised its statutory authority over those working conditions, 
OSHA is preempted from applying its hazardous communication standard. 
Information about EPA's ``Worker Protection Standard for Agricultural 
Pesticides'' can also be obtained at http://www.epa.gov/pesticides/
safety/workers/workers.htm.
    Finally, I wish to respond to a point that was not raised in your 
March 28th letter, but was raised in the February 27th hearing.
    During the hearing one of the witnesses, Mr. Maier, was asked why 
OSHA reduced penalties in two OMNI Recycling fatality cases in New 
York. He was also asked about the number of immigrant worker fatalities 
that he claimed were not investigated by the Agency. Since I did not 
have the opportunity to address these two important matters at the 
hearing I am writing to respond now. First, I will address the penalty 
reductions at OMNI Recycling of Babylon, Inc.
OSHA Penalty Structure
    Since its inception, the Agency has been required by the provisions 
of Section 17 of the OSH Act to consider four criteria in determining 
the penalty to be proposed for any civil violation of the OSH Act or 
OSHA standards: the gravity of the violation; the size of the employer; 
the employer's good faith; and the employer's previous history of 
violations. The Agency has detailed procedures in place for applying 
these criteria in its Field Inspection Reference Manual (FIRM; OSHA 
Instruction CPL 2.103).
    The primary factor in assigning a proposed penalty is the gravity 
of the violation: the severity of the injury or illness that could 
occur, and the probability of its occurrence. The other criteria (size, 
good faith, and history) are used as factors in reducing the proposed 
penalty in accordance with established Agency guidelines. For example, 
a small business with no history of OSHA violations would receive a 
penalty reduction. The proposed penalty may be further reduced, in 
order to secure prompt abatement of the cited conditions, in formal or 
informal settlements with the employer. OSHA's penalty structure is not 
related to an employer's or employee's ethnicity or citizenship status.
    OSHA issues citations for violations of civil law. Violations are 
classified as willful, serious, repeated, or other-than-serious. A 
fatality, per se, does not necessarily trigger a higher penalty. 
However, if the violation or violations contributed to the cause of the 
fatality and they are classified as willful or serious in nature, OSHA 
may propose a penalty up to the maximum allowed by law ($7,000 for 
serious violations and $70,000 for willful or repeated violations).
    Penalties are assessed only on the basis of the violative 
condition(s), not on whether a fatality or injury resulted from this 
violation. Thus OSHA is legally precluded from attempting to weigh the 
value of a human life with a penalty.
OSHA's Penalty Structure as Applied to OMNI Recycling, Long Island
    Although OMNI Recycling had two fatalities within a two-year time 
frame, the two OSHA fatality investigations should not be compared to 
each other. The conditions and hazards of the second fatality were 
completely unrelated to the first fatality. OSHA citations are based 
strictly on worker exposure to hazards and the employer's actions with 
respect to the hazardous conditions.
    The first OMNI investigation, in March 1998, resulted in 17 serious 
and three other-than-serious violations. Two of these violations were 
possibly related to the fatality. However, since there were no 
witnesses, the relationship of these violations to the fatal accident 
cannot be affirmed. Since OMNI was a small business with less than 60 
employees and had no history of OSHA violations, OSHA assessed 
penalties of $28,250--a reduction from the full penalty. OMNI's 
penalties were further reduced to $20,000 through an informal 
settlement agreement. This penalty reduction followed the guidelines of 
the FIRM.
    The second OMNI fatality investigation, in February 2000, resulted 
in two repeat citations involving hazardous conditions that were 
unrelated to the death, six serious, and four other-than-serious 
violations. One of the serious violations was directly related to the 
death. OSHA assessed total penalties of $19,850. Through an informal 
settlement process OSHA agreed to reduce the fines to $16,000 because 
OMNI agreed to (1) correct all hazards, (2) establish a Safety and 
Health Program at all their worksites, (3) conduct daily inspections at 
their worksites, (4) provide training at all their worksites, and (5) 
contact OSHA's New York consultation services.
    OSHA penalties do not follow the same formulas used by worker's 
compensation or insurance companies to determine death benefits. As I 
stated above, OSHA's penalty structure is based on violations of 
hazardous conditions. Neither legally nor morally can OSHA's penalties 
measure the value of a worker's life. Each worker's death, however, is 
a reminder to us that we must work harder to ensure safe and healthful 
working conditions, and encourage employers to do likewise.
    I hope this clarifies the activity of the two OSHA inspections 
conducted at OMNI Recycling.
Allegations of Uninvestigated Workplace Fatalities
    As you may recall, Mr. Maier claimed that from 1994 to 2000 OSHA 
did not investigate 800 immigrant worker deaths. Without knowing Mr. 
Maier's criteria for comparisons, we are unable to thoroughly address 
these allegations. Mr. Maier stated that computer-assisted reporting 
allowed for comparisons between the BLS and the OSHA databases. 
However, OSHA has been unable to duplicate Mr. Maier's findings. Since 
the Agency does not have ethnicity or citizenship status in the IMIS 
inspections database, it is impossible to determine which of the 
fatalities involved immigrant workers and which did not.
    Because I cannot address the specific cases without further 
information about Mr. Maier's methodology, I will limit my discussion 
to the Agency's overall policies. OSHA's practice is to investigate all 
occupational fatalities of which we are aware, except those clearly not 
covered by the OSH Act, such as:
    <bullet> fatalities involving self-employed individuals, or
    <bullet> those resulting from working conditions regulated by 
another federal agency
    <bullet> fatalities on farms employing ten or fewer workers
    <bullet> cases of motor vehicle accidents where local law 
enforcement authorities have primary enforcement responsibility, and
    <bullet> homicides or suicides where local law enforcement 
authorities have primary enforcement responsibility.
    This is significant when considering that most taxicab drivers are 
self-employed. According to BLS data from 1994 to 2000, there were 200 
foreign-born worker deaths involving taxicabs. Additionally, 173 
foreign-born workplace deaths were due to suicides (self-inflicted 
wounds); another 1,486 were due to homicides; and 683 were caused by 
highway accidents. These are fatalities that OSHA would not generally 
investigate.
    The BLS and OSHA databases provide a great deal of information. 
Notably, neither of them provides information on immigrant worker 
deaths. The BLS category of foreign-born worker fatality comes the 
closest to immigrant worker fatality, but as I mentioned in my 
testimony, foreign-born workers include anyone who was born outside the 
United States, including those born to American military or business 
personnel while they are stationed/assigned in another country.
    Thank you for the opportunity to respond to your questions and to 
clarify a statement made by a witness on a later panel. I hope you find 
this information helpful. I look forward to continuing to work with you 
to improve the safety and health of all our nation's workers. If you 
have further questions, please contact me.
            Sincerely,
                                           John L. Henshaw,
             Assistant Secretary of Occupational Safety and Health.
                                 ______
                                 
    Senator Wellstone. Dr. Sokas?
    Dr. Sokas. Thank you, Mr. Chairman and Senators Enzi and 
Clinton, for the opportunity to be here. I will talk fast and 
will not use slides so we can get through this in 5 minutes. I 
do have written information that has been submitted.
    Occupational injuries and fatalities are tragic but 
preventable, as you know. Sixteen workers in the United States 
will die today and every day from traumatic injury, and these 
deaths are not evenly distributed across the work force. The 
risk of death for a farm worker is more than 30 times that of a 
clerical employee. The risk of death for a taxicab driver is 
more than 40 times as high and for a construction laborer, 47 
times as high.
    As a group, foreign-born workers differ in terms of where 
they are in the workplace; although there are exceptions for 
highly-skilled workers, nevertheless on the whole, they are in 
the high-risk, low-wage sectors of the work force.
    I want to focus on a few higher-risk sectors. Almost one-
quarter of agricultural workers in the United States are 
foreign-born. Many farm workers who are in temporary or part-
year employment may feel intimidated about reporting health 
problems for fear of reprisal and are unfamiliar with their 
rights as workers.
    In response to these concerns, in 1997, NIOSH used lay 
health workers as advisors and questionnaire administrators in 
a project to raise awareness of workplace safety issues. We 
documented the prevalence of musculoskeletal disorders, skin 
irritation, eye injuries, field sanitation issues, and 
potential pesticide exposure. NIOSH has widely disseminated 
these results and continues to support intramural and 
extramural projects in these areas.
    In 1998, we began a collaboration with the Department of 
Labor collecting large-scale data on the health and injury 
experience of crop farm workers through the National 
Agricultural Workers Survey. It is the only national survey 
that has documented the living and working conditions of 
immigrant workers. About 7,000 interviews have been completed 
on the health and injury sections, and data analysis is under 
way.
    We also fund a number of extramural projects, including a 
study of the effectiveness of peer health workers in promoting 
the use of safety glasses, a program that uses English as a 
second language classes to teach teen farm workers about 
workplace safety, a project examining child farm labor in the 
Hmong population of Minnesota, and others. We also provide 
support to the migrant farm worker STREAM forums, which help 
researchers, workers and advocates break down barriers to 
develop cooperation and trust.
    Turning to construction, as you heard, 23 percent of fatal 
occupational injuries to foreign-born workers occur in this 
industry, disproportionately falling on Hispanic workers. NIOSH 
has a number of projects aimed at preventing injuries and 
fatalities in this high-risk group and works with universities 
and key partners such as the Center to Protect Workers' Rights 
to coordinate research, evaluate the effectiveness of 
interventions and disseminate those that emerge as best 
practices, with an emphasis on the Spanish-speaking work force.
    Looking at yet another segment of the immigrant work force, 
many immigrant workers are employed by small businesses and in 
the service sector. NIOSH is actively working to prevent 
injuries and workplace violence in these settings.
    To address workplace violence, we are evaluating the 
effectiveness of various prevention strategies such as the use 
of shields and digital cameras to reduce robbery-related 
injuries, assaults, and homicides to taxicab drivers. In 
Houston, for example, where photographs of those who assault 
drivers are published in the newspaper, crime against taxicab 
drivers appears to be declining.
    NIOSH is assessing the effectiveness of various State and 
municipality-based approaches to workplace violence prevention 
for taxicab drivers as well as for convenience store clerks, 
health care workers, and other workers at high risk.
    In addition to the higher-risk, lower-wage nature of the 
work, as you know, limited English proficiency contributes to 
workplace injuries and fatalities. The U.S. Chemical Safety and 
Hazard Investigation Board identified language barriers in 
worker training as a key factor in 1998 explosion in Nevada 
that killed four immigrant workers and injured another six. In 
response to these findings, the State of Nevada revised its 
Occupational Safety and Health Act to require that safety 
training be conducted and made available in a language and 
format that is understandable to each employee.
    Through our Fatality Assessment and Control Evaluation, or 
FACE, program, NIOSH and 15 States funded by NIOSH conduct 
evaluations of workplace fatalities to identify potential risk 
factors and develop recommendations to prevent future incidents 
of fatal injury.
    A number of evaluations have involved immigrant workers, 
including the case of a 22-year-old Hispanic laborer who fell 
41 feet to his death on this second day on the job. In this and 
other cases, NIOSH-funded investigators have recommended that 
workers who do not understand English receive safety 
instruction in a language they understand.
    This past fall, we unveiled our NIOSH Spanish website, 
NIOSH en Espanol, which provides links to additional Spanish 
language resources. Our other efforts to address low- English-
literate workers include creating graphic representation of 
hazards and the development with the International Labor 
Organization of an occupational safety and health curriculum.
    In addition, we have worked and are working with the 
National Academy of Sciences to really evaluate communication 
effectiveness strategy for disseminating information to 
Spanish-speaking workers.
    I will cut to the chase. We have many research needs. The 
stakeholder-driven National Occupational Research Agenda 
identified 21 priority areas, one of which is special 
populations at risk, which focuses on the contribution of 
occupational factors to health disparities in low-income and 
immigrant worker populations. We are also looking at the impact 
of contingent and part-time work and on fatal injuries and 
other areas in this research agenda. We have partnered with 
other Federal agencies to support research in these areas but 
would really emphasize that there are many remaining challenges 
and opportunities in this arena, particularly for health 
education research. We also need to develop better tracking 
methods, as you have heard. We need to develop information in 
additional languages beyond Spanish and improve prevention, 
outreach and intervention strategies.
    In summary, we hope to continue this work. We recognize 
that it is only a beginning.
    Thank you.
    [The prepared statement of Dr. Sokas follows:]

           PREPARED STATEMENT OF ROSEMARY SOKAS, M.D., M.O.H.

    Mr. Chairman and members of the Subcommittee, on behalf of the 
National Institute for Occupational Safety and Health (NIOSH), I am 
pleased to provide this testimony addressing the health and safety of 
immigrant workers.
    NIOSH is an institute within the Centers for Disease Control and 
Prevention (CDC), a part of the Department of Health and Human 
Services. CDC's mission is to promote health and quality of life by 
preventing and controlling disease, injury and disability. NIOSH is 
responsible for conducting research, providing technical assistance, 
and making recommendations for the prevention of work-related illness 
and injury.
    Immigrant workers always have played a vital role in our nation's 
success story because of their important contributions to our 
institutions, our commerce, and our society. Today's immigrants 
continue to come to our shores with great hopes, ready to work hard to 
make better lives for themselves and their families. They will continue 
to be an important part of our country's future. NIOSH is working to 
address the needs of immigrant workers through targeted efforts to 
reduce illness and injury in high-hazard sectors of the workforce and 
increase appropriate language materials available to workers, 
employers, clinicians, occupational safety professionals, and faith-
based and other non-profit institutions who work with immigrant 
populations. My testimony today will address the current state of our 
knowledge regarding the safety and health of immigrant workers and 
summarize the activities under way at NIOSH to learn more about 
immigrant worker safety and to reach out to workers and employers 
through prevention, intervention, and information dissemination.

Background

    Occupational injuries and illnesses are tragic yet preventable 
occurrences. Sixteen workers will die today and every day from 
traumatic injury in the United States. Every locality with a working 
population of 100,000 will experience four work-related deaths each 
year, but these deaths will not be distributed evenly across the work-
force. The risk of death for a farm worker is more than 31 times that 
of a clerical employee; the risk of death for a taxicab driver is 42 
times as high; for a construction laborer, 47 times as high; and for a 
timber cutter, the risk is more than 240 times as high. Overall, the 
industries with the highest occupational mortality rates are mining, 
agriculture, and construction; the leading overall causes of death are 
highway incidents and falls. In addition to these fatalities, an 
estimated 136 Americans die daily from the chronic effects of 
occupational disease, and 9,000 sustain disabling injuries. Again, 
these outcomes are not evenly distributed across the workforce.

Immigrant Worker Demographics

    To a great extent, the United States remains a nation of 
immigrants. According to the 2000 Current Population Survey (CPS) 
conducted by the U.S. Census Bureau for the Bureau of Labor Statistics, 
Department of Labor, one in every five Americans is an immigrant or the 
child of an immigrant. These figures include 16.5 million foreign-born 
workers. Latin America (Mexico, Caribbean, Central America, and South 
America) is the region of birth for over half of foreign-born workers, 
followed by Asia, Europe, Africa, and Canada.
    Although foreign-born workers are diverse and include highly 
educated individuals with sought-after technical skills and strong 
family support, many foreign-born workers are from poorer, more 
disadvantaged societies, have recently endured disasters, or have 
arrived from war-torn countries.
    As a group, foreign-born workers differ from U.S.-born workers in 
occupation and rates of injuries and fatalities. On the whole, foreign-
born workers are less likely to be employed in managerial and 
professional specialty, technical, sales, and administrative support 
occupations (45.6% of foreign-born workers versus 61.5% of U.S.-born 
workers). At the same time, they are more likely to be employed in the 
higher-risk and lower-wage sectors of the workforce.
    Nineteen percent of all foreign-born workers are employed in 
service occupations (private household, personal, cleaning and building 
protective service, food service, and health service), versus 13% of 
all U.S.-born workers. Of foreign-born workers in service occupations, 
62% were born in Latin America.
    Nineteen percent of all foreign-born workers are employed as 
operators, fabricators, and laborers (machine operators, assemblers, 
and inspectors; transportation and other material moving; handlers, 
equipment cleaners, helpers; construction laborers), versus 13% of all 
U.S.-born workers. These workers are also primarily from Latin America.
    And foreign-born workers are twice as likely to be employed in 
farming, forestry, and fishing as U.S.-born workers. Of the foreign-
born farm worker population, 90% are from Latin America.
    According to the Bureau of Labor Statistics Census of Fatal 
Occupational Injuries (CFOI) surveillance system, between 1992 and 
1998, 25% of work-related deaths of foreign-born workers occurred in 
retail operations (many resulting from crime-related homicides). The 
industry with the second highest number of foreign-born worker 
fatalities was construction (17%), followed by transportation and 
public utilities (15%).
    The employment data we have may not provide a complete picture of 
the immigrant worker population. Recent or undocumented workers are 
likely to have been excluded from data collections since they may not 
have stable residences or may live in unofficial residences such as 
garages and backyard structures, or in shelters.
    Furthermore, limited English proficiency may contribute directly to 
workplace fatalities. For example, the U.S. Chemical Safety and Hazard 
Investigation Board identified language barriers in worker training as 
a key factor in a January 7, 1998, explosion at a chemical company in 
Mustang, Nevada, that killed four immigrant workers and injured another 
six. In response to these findings, the State of Nevada revised the 
Nevada Occupational Safety and Health Act to include the following 
requirement: ``The written safety program and all training programs 
required pursuant to this section must be conducted and made available 
in a language and format that is understandable to each employee.''

Foreign-Born Agriculture Workers

    There were 101 fatal injuries to foreign-born workers in the 
agriculture industry in the U.S. in 2000, comprising 16% of all 
occupational fatalities in agriculture. In 1990, with guidance from 
Congress, NIOSH established the National Program in Agricultural Safety 
and Health to address the severe health and safety hazards in 
agriculture and to protect and enhance the health and safety of farm 
operators, workers, and families. The program now includes funding for 
ten Centers across the country for agricultural disease and injury 
research, education, and prevention, as well as the National Children's 
Center for Rural and Agricultural Health and Safety.
    In an effort to improve surveillance of farm worker safety and 
health, in 1995, NIOSH convened an expert work group consisting of 
public policy experts, farm worker representatives, and occupational 
health professionals. Although many of the findings and recommendations 
of the working group were specific to the occupational exposures of 
farm workers, they also addressed some issues generic to immigrant 
workers, especially recent immigrants. One of the key findings of the 
group was that many farm workers are employed in temporary, part-year 
employment and may feel intimidated about reporting health problems for 
fear of reprisals. These concerns are compounded when farm workers are 
undocumented immigrants. Also, immigrant farm workers may have 
different cultural beliefs that can influence their understanding of 
health risks, disease causation and treatment options. Another finding 
of the workgroup was that immigrants may be unfamiliar with their 
rights as workers including: health care coverage, lost work time 
payments available through workers' compensation, and their right to 
make complaints to OSHA or other government agencies when they 
encounter unsafe working conditions. The work group recommended forming 
research teams that include community members who are knowledgeable 
about local customs and concerns and have the trust of the community. 
For example, they recommended the use of ``promotores'' or lay 
community health workers to provide better outreach and communication 
with the worker community.
    In 1997, based on the recommendations of the work group, NIOSH 
designed a pilot surveillance project which used lay health workers as 
advisors and as questionnaire administrators. The survey populations 
were in large part Mexican or Mexican-American so the obvious advantage 
was knowledge of language, especially local language variations. Other 
advantages included access to the community, knowledge of the local 
area, and a stake in the success of the project. The project raised 
awareness of the importance of occupational health and safety within 
the farm worker communities and documented the prevalence of 
musculoskeletal disorders, skin and eye irritation, field sanitation, 
and potential pesticide exposure. In addition, the results from this 
study have been disseminated to workers and other interested parties 
through collaborating organizations, at migrant health forums, at state 
meetings, and at general public health conferences.
    To increase our understanding of the immigrant agricultural worker 
population, NIOSH began a collaboration with the Department of Labor in 
1998 to collect large-scale data on the health and injury experience of 
hired crop farm workers through the National Agricultural Workers 
Survey (NAWS). NAWS data collected in fiscal 1999-2000 reveal that 85 
percent of hired crop farm workers were foreign-born. The NAWS takes 
into account the seasonality and distribution of agricultural work done 
in the U.S. An employment-based survey, in which workers are found and 
sampled at their work sites, the NAWS is recognized for its ability to 
locate immigrant workers who may otherwise be missed in household 
surveys due to their mobility and/or nonstandard housing arrangements. 
It is the only national study that has documented the living and 
working conditions of immigrant workers. About 7000 interviews have 
been completed on the health and injury sections, and data analysis is 
underway.
    Current NIOSH-funded research and education projects targeted at 
immigrant farm workers include: (1) annual Migrant Farmworker Stream 
Forums which help researchers, workers, and advocates break down 
barriers to develop cooperation and trust; (2) teaching teen farm 
workers about workplace safety through school-based ESL (English as a 
Second Language) classes; (3) maintaining the National Agricultural 
Safety Database; (4) using peer educators to train high school 
students; (5) a health education project using theater as a medium, 
thereby addressing literacy limitations; and (6) examining child farm 
labor in the Hmong population in Minnesota.

Construction Worker-Related Initiatives

    According to the CFOI, in 2000, 23% of fatal occupational injuries 
to foreign-born workers occurred to construction laborers and workers 
in construction trades (i.e. brick masons, carpenters, drywall 
installers, electricians, painters, roofers, structural metal workers). 
While the number of Hispanics working in construction in the U.S. 
increased 19.8% between 1996 and 1.997, the fatality rate among these 
workers increased 40.7% (CFOI, 1998).
    NIOSH has a number of projects aimed at preventing injuries and 
fatalities to construction workers, a high-risk industry for 
immigrants. For example, NIOSH is doing a study on drywall work, the 
construction occupation that has the highest percentage of Hispanic 
workers. NIOSH participated in 2000, along with other Federal agencies 
and the National Safety Council, in organizing and participating in the 
``Hispanic Forum on a Safe and Healthy Environment'' which discussed a 
range of safety and health topics including issues relevant to 
construction safety. NIOSH also works with universities and key 
partners such as the Center to Protect Workers' Rights to coordinate 
research, evaluate the effectiveness of interventions, and disseminate 
those that emerge as best practices. Two current projects address: (1) 
evaluation of CPS data describing Hispanic construction workers with 
the objective of guiding development of initiatives targeting this 
group and very low-income construction workers in general, and (2) 
safety culture of Hispanic workers in construction.
    NIOSH also targets the immigrant population for health education. 
For silicosis, a fatal disease which was identified in rock drillers 
and other construction workers, NIOSH developed a silicosis survey in 
Spanish and evaluated the effectiveness of targeting a silicosis 
prevention message to Hispanic construction workers. We have now 
developed a Spanish translation of silicosis education materials. Other 
construction-related education materials available in Spanish cover 
topics such as sandblasting, operation of wood chippers, electrocutions 
and falls during tree trimmings, working in hot environments, and work-
related hearing loss. The Electronic Library for Construction 
Occupational Safety and Health (eLCOSH), funded by NIOSH, provides 
English and Spanish education materials relevant to construction. The 
materials are available on the Internet for distribution by trainers 
and health educators.

Safety Promotion, Hazard Evaluation, and Workplace Violence Prevention

    Many immigrant workers are employed in the service sector and small 
businesses. NIOSH is actively working to disseminate information to 
prevent injuries and workplace violence in these industries. In 2000, 
24% of fatal occupational injuries to foreign-born workers were due to 
homicides. The majority of foreign-born homicide victims were tending a 
retail establishment; ten percent were in vehicular and transportation 
operations.
    To address workplace violence, NIOSH is evaluating the 
effectiveness of various prevention strategies. NIOSH researchers are 
assessing crime prevention strategies for taxicabs, such as bullet-
resistant partitions, panic buttons, satellite-based tracking devices, 
and driver training, in reducing robbery-related injuries, assaults, 
and homicides to taxicab drivers. NIOSH is also assessing the 
effectiveness of various state-based approaches to workplace violence 
prevention, including state-specific occupational safety and health 
regulations, as well as other regulatory activities that might enhance 
workplace violence prevention.
    The results of much of our research is communicated on our web 
site. For example, the new NIOSH Spanish-language web site, ``NIOSH en 
Espanol,'' includes materials addressing topics such as workplace 
stress and prevention of homicide in the workplace.
    For nonfatal injuries, NIOSH has also funded a range of projects 
relevant to immigrant workers, including research on home health care 
aides and poultry workers. We currently have a health hazard evaluation 
document available on dry cleaning chemical hazards translated into 
Korean for Korean operators and employees of dry cleaning 
establishments and hope to translate more materials into more languages 
in the future. The NIOSH Health Hazard Evaluation Program is available 
to employers and to workers and their representatives and provides 
safety and health evaluation and recommendations at no cost to the 
employer.
    Through NIOSH's Fatality Assessment and Control Evaluation (FACE) 
Program, NIOSH, and state-based evaluators in 15 states funded by 
NIOSH, conduct evaluations of workplace fatalities using an 
epidemiologic model to identify potential risk factors and develop 
recommendations to reduce the risk of fatal injury. Since the FACE 
program was initiated, NIOSH and its state partners have conducted a 
number of evaluations of the deaths of immigrant workers. Examples 
include a machinist who was pinned between parts of metal materials 
handling equipment and a 22-year-old laborer who fell 41 feet to his 
death from a roof under construction. Language barriers were identified 
in each of these two instances. NIOSH-funded evaluators recommended 
that supervisors ensure that workers who do not understand English are 
offered safety instructions in a language they do understand.

Information Dissemination

    NIOSH has developed many innovative methods of communicating 
occupational health and safety information to immigrant workers. 
Immigrant workers who have Limited English Proficiency (LEP) are 
susceptible to failures of communication with their employers and co-
workers which can lead to work-related injuries and fatalities. NIOSH 
is working to accurately enumerate the number of LEP workers in the 
U.S. by occupation and high-risk industries, e.g., construction, 
agriculture, and mining. Using this information, NIOSH will be better 
able to develop new methods to communicate injury risk and prevention 
information to LEP workers.
    NIOSH recently published a document entitled ``Simple Solutions: 
Ergonomics For Farm Workers.'' Backaches and pain in the shoulders, 
arms, and hands are the most common symptoms that farm workers report. 
The ``tip sheets'' in this booklet show how to make or order 
inexpensive new tools or to modify existing ones to reduce the risk of 
pain.
    Current efforts to address low-English-literate workers include 
development of graphic representation 'of hazards and the development, 
with the International Labor Organization, of an occupational safety 
and health curriculum which may benefit immigrant workers. Also, NIOSH 
is partnering with international organizations to fund a web site which 
provides International Chemical Safety Cards (ICSC) in 13 languages. 
The cards contain summaries of chemical safety information for use at 
the ``shop floor'' level in factories and other workplaces.
    We are working with the National Academy of Sciences to host a 
workshop to develop a Spanish-language dissemination strategy. 
Currently, in addition to consulting our Spanish-language web site, 
Spanish-speaking workers can call the NIOSH 800 number (800-356-4674) 
and access Spanish speakers.

NIOSH Extramural Research

    In 1996, NIOSH and hundreds of its stakeholders launched the 
National Occupational Research Agenda (NORA), a framework for setting 
priorities in occupational safety and health research. One of the 
priority research areas identified was Special Populations at Risk. One 
focus of the NORA Special Populations at Risk team is the contribution 
of occupational factors to health disparities in low-income 
populations, including the immigrant worker population.
    Research into the immigrant worker population poses many 
challenges, including: language/cultural barriers, greater job 
mobility, over-representation in temporary work situations, over-
representation in small industries, and employers less likely to want 
to participate in occupational health research. The goal of the NORA 
Special Populations team is to identify gaps in research and make 
recommendations for new types of survey instruments to be developed. 
Issues of concern include validating questionnaires for multi-cultural, 
low-literacy, non-English speaking populations and developing questions 
that have universal application across a wide range of occupations and 
exposure situations.
    Additional NORA priority areas that address the specific needs of 
immigrant workers include the Organization of Work Team, which has 
focused attention on contingent and part-time work; the Traumatic 
Injuries Team, focused on fatal injuries, and the Intervention 
Effectiveness Team, which has developed guidelines for taking off-the-
shelf materials and evaluating their efficacy in workplaces. Alone as 
well as in partnership with the National Institutes of Health, the 
Environmental Protection Agency and others, NIOSH has funded research 
projects to evaluate teen farm worker education and specific health and 
safety interventions, state-based pesticide illness tracking, the use 
of community health centers to track minority occupational health 
outcomes, control technologies to reduce electrocutions, and a variety 
of innovative programs to track and prevent injury and illness among 
high-risk, low-wage and LEP workers.

Opportunities for Improving Immigrant Worker Health and Safety

    There are many opportunities for research and health education 
activities that target the immigrant worker population.
    Data collections involving immigrant workers can be improved. 
Researchers should take into account not only cultural and language 
barriers, but also factors such as job insecurity, high job mobility, 
temporary employment, and informal employment such as day labor and 
domestic and childcare work. Interventions must better address needs 
and concerns of small employers, and workplace health and safety 
recommendations should be appropriate to small businesses where 
immigrant workers are often employed. In general, occupational health 
research should incorporate multi-disciplinary approaches that include 
disciplines such as engineering, economics, sociology, anthropology, 
and political science.
    Community-based programs for immigrant workers could include an 
occupational safety and health component which would address the 
social/political challenges low-wage immigrant workers face, including 
lack of transportation and access to social services, inadequate 
housing, and exploitation due to their unfamiliarity with U.S. culture 
and institutions. Special efforts should be made to educate immigrant 
workers about U.S. regulations and compensation programs and take into 
account concerns of undocumented immigrants.

Conclusion

    In summary, NIOSH is making progress in working to address the 
needs of immigrant workers. The activities mentioned herein are only 
the beginning of our efforts to conduct research into immigrant worker 
safety and health, track injuries and illnesses, and communicate 
workplace health and safety issues to immigrant workers. Many 
challenges specific to immigrant workers have been identified and 
innovative prevention strategies have been developed. Increased 
understanding of the experience and concerns of immigrant workers will 
help us better tailor education and intervention programs to the needs 
of this diverse population. NIOSH is dedicated to continuing this work 
to further protect the health and safety of the immigrant worker 
population.
    I will be glad to answer any questions you may have.

    Senator Wellstone. Thank you, Dr. Sokas. You can take a 
breath now.
    [Laughter.]
    I am just absolutely amazed that you were able to do that.
    Mr. Henshaw. I am going to take lessons from her.
    Senator Wellstone. No, no, no, not at all. Really, Mr. 
Henshaw, I was embarrassed even saying that to you, because you 
are in such a key position, and we really thank you for being 
here.
    I think what we are going to do--Senator Enzi made a good 
suggestion which is that we will probably submit written 
questions to you as well, and each of us will take 5 minutes. I 
know what happens. Lots of people come to testify, and then a 
vote comes up, and no one comes later on, and people have to 
leave, and it is not fair. So we are going to restrict 
ourselves to 5 minutes each and then will submit written 
questions. And if you can give fairly brief answers, then we 
can ask more questions of you, too.
    First, Mr. Henshaw--and I do not like to do this to you, 
but you know this question is coming, and it has to do with 
repetitive stress injuries--the Department has still not 
announced what it is going to do. Since this rule or standard 
was overturned last March, an estimated 1,648,080 workers have 
suffered repetitive stress injuries. Every 18 seconds, a worker 
suffers a repetitive stress injury in the workplace. That 
represents 5,000 injured workers every day in the United States 
of America.
    Can you shed any light on when we are going to see some 
action, because as you know, we were promised by the Secretary 
last March that there would be a comprehensive approach that 
you all would be taking, and we have not seen anything yet.
    Mr. Henshaw. Mr. Chairman, I think you know my background. 
I have been in this business for 26 years, and I know that 
importance of safety and health, and I know the fact that 
ergonomic-related injuries or injuries that are associated with 
repetitive stress and awkward postures are real and disabling 
injuries. They need to be addressed; they are important, and 
they are a high priority for us.
    You also know that we have been working since I was 
confirmed in August. We have held forums to gather more 
information, relevant information, and we have been looking at 
that information. As the Secretary announced, as a result of 9-
11, our focus has been drawn toward those issues dealing with 
the attacks of September 11 as well as anthrax and homeland 
security.
    So we are in the process of reviewing all that information 
and determining what our comprehensive approach is, and it will 
be coming out soon.
    Senator Wellstone. Well, first of all, I do not want to 
beat up on you. You came here today, and I appreciate who you 
are and the work that you do. I would say that if you could 
just communicate this to the Secretary because we have been 
waiting a long time, and your response is the response that we 
have been getting every time we ask the question. And we have 
been asking the question ever since last March. So that, for 
whatever it is worth, I think those of us who feel strongly 
about this issue and want to see this comprehensive approach, 
if you will, the proof is in the pudding, and we are just not 
getting any results from you. So please tell the Secretary that 
we are becoming impatient and we want to see some action. A lot 
of people are experiencing disabling injuries in the workplace. 
Enough said.
    I absolutely appreciate the work you are doing with 
Hispanic workers and some of the actions that you have taken, 
and I thank you for giving us that report today. There are lots 
of other workers, obviously, from immigrant communities who 
need the additional assistance and support. That is why I do 
not understand the Department's efforts to eliminate the Susan 
Harwood Institutional Competency Grants. As you well know, 
these go to a lot of the non-government organizations that 
provide a lot of training to people in workplace safety that is 
culturally sensitive, that is done in native languages. So I do 
not quite understand why the Department is now trying to 
eliminate this program. Can you shed some light on this?
    Mr. Henshaw. As you know, through the appropriations and 
the restoration, we have $11.2 million for this year for the 
Susan Harwood grants, and we will be making the decisions on 
the applications and criteria for that grant process very soon, 
for the 2002 budget. And obviously, the criteria are going to 
include nonEnglish-speaking, hard-to-reach populations, just as 
in 2001.
    The request for 2003 is for $4 million for the grant 
program. All of the individuals who applied in 2000, 2001, and 
2002 can apply for the grant money in 2003. So we are not 
excluding anybody from that process. What we are trying to 
focus on is reaching out and accomplishing--for that $4 million 
that we have in our budget, we want to absolutely maximize and 
optimize those funds to reach the populations that need to be 
reached. So that is what we are going to focus on in 2003, is 
to optimize and completely leverage that money to the extent we 
possibly can, reaching out to as many people as we possibly can 
with that $4 million. And all of the applicants who applied in 
2001 and 2002 will be eligible in 2003.
    Senator Wellstone. I do not understand. You are going to 
make a cut from $11 million to $4 million for a program where 
the data shows that grantees have trained over 80 percent more 
workers than planned for in the first year. Why are you cutting 
a program that is effective in doing the very outreach and 
training that we need in order to protect workers? Why are you 
cutting this program?
    Mr. Henshaw. Mr. Chairman, you know that obviously, we are 
operating under a wartime budget and recovering from a 
recession, and we had to make some serious choices as to where 
to put our money. And as you know, we are maintaining a strong, 
fair, and effective enforcement policy, and we are going to 
continue with that, in fact, increasing our enforcement efforts 
and increasing our inspections by 1,300 more inspections in 
2003. We are also increasing our efforts in compliance 
assistance, as Senator Enzi mentioned, where we really believe 
we will get a bigger bang for the buck. We will continue to do 
that. We have $4,000 for grant money. What we will do is devise 
a process and award grants to those where we can get the 
biggest bang for the buck and reach as many employees as we 
can, using new technologies and new approaches that will allow 
us to reach more people.
    Senator Wellstone. Well, I have got to live up to my 
agreement on this, and Dr. Sokas, I will have questions for you 
as well. I see cutting this, I see cutting the enforcement 
budget as well, and you are telling me, ``Well, you know, we 
have a war before us.'' But with all due respect--and again, 
Mike, I promise you, I am not going to get on my soapbox on 
this--but I can look at the tax cuts, I can look at the ways in 
which there is not going to be revenue, and there are 
tradeoffs, and the only thing I can tell you is that given a 
lot of the testimony that we are going to hear today, it does 
not do a lot of people who are disabled and in tremendous pain 
and cannot support their families or lose their lives because 
of their injuries a lot of good to see that we are making cuts 
in the very programs that are there for their protection.
    I just want to express my dismay. I think this is a 
profound mistake. It is not you. I think you are very committed 
to this work. But I just think we need the resources.
    Senator Enzi?
    Senator Enzi. Thank you, Mr. Chairman.
    I want to thank both of you for your testimony, and I did 
learn a lot by reading through it. One of the biggest 
surprises, though, Dr. Sokas, was your statistics on the 
relative number of injuries compared to secretarial services; 
and I did not know that being a cab driver was more hazardous 
than being a farm worker. I thought farms had more injuries 
than almost anything else, but I saw that timber had 240 times 
compared to 31 times, cabbies had 41 times compared to 31 
times.
    I will ask a question in a minute, but before I ask the 
question, I did want to comment on the progress that OSHA is 
making. I appreciate their Spanish website and the fact that 
they are hiring Spanish-speaking employees to help and are now 
going into some other languages.
    I want to congratulate you on your interaction with police, 
fire, and emergency people. Finding the injuries in some of 
these segments is very difficult, and they are underreported, 
and I think that that is an important data collection point.
    I am pleased with the new information collection that you 
are going to be doing in some additional categories, and I have 
always been pleased when there was targeting of businesses with 
accidents. Of course, the only way you can target them is to 
come up with good data, and both of you get to work with the 
good data.
    The question that I have for both of you is that I am 
concerned about small businesses not having the capability to 
adequately assess immigrant workers' skills and experience 
levels, and I am concerned with ensuring that small businesses 
are included in the development and delivery of immigrant 
worker safety initiatives. I think that small business probably 
employs a lot of the day workers, and as I mentioned, we do not 
have good statistics on how many of those are immigrant 
workers.
    Could you comment on this and give me some ideas as to how 
that can be accomplished and how you can ensure that that will 
happen?
    Mr. Henshaw?
    Mr. Henshaw. Yes, Senator Enzi. Small businesses, as you 
know, have to be a key focus of ours. That is where the 
majority of employees work, and certainly the Hispanic 
population and the immigrant population.
    The website is available for employees and employers, so 
the employers can go to the website. Many employers are 
Spanish-speaking themselves, and some know very little English. 
We want to reach out to those employers.
    Two weeks ago, I met with the Hispanic Contractors of 
America, a relatively small organization that deals with small 
contractors, getting to the contractors and the employers to 
make sure they understand their responsibility to train 
employees. And the training is not just to speak the words, not 
just to speak in Spanish and provide the material, but actually 
implicit in our requirements is to make sure that those 
employees understand what those issues are and how the law 
protects them and what is safe and what is not and the 
standards that employers and employees must abide by.
    So we are reaching out to the contractors and reaching out 
to the employees and reaching out to the small businesses where 
most of these employees are employed.
    Senator Enzi. Dr. Sokas?
    Dr. Sokas. Yes, thank you. I did want to point out that 
those were deaths, and some of the severe injury rates would be 
different, and also that among self-employed individuals, the 
death rate is actually three times what it is for the work 
force as a whole. So that in fact small businesses are 
critically important and very difficult to reach. And as 
Senator Wellstone mentioned, we are a part of the Centers for 
Disease Control in Health and Human Services, and we are trying 
to figure out ways to approach that through community-based 
organizations and State-based public health departments to 
really provide information for small businesses.
    For example, at the NORA Symposium we had last year, the 
award winners were a group from Oregon that worked with the 
State public health association, several different small 
business employee associations, including restaurant workers, 
and the local United Food and Commercial Workers Union, to 
address specific problems that occur with small businesses and 
ways to address them effectively, and they had marked success 
in reducing dermatitis.
    So we absolutely agree that that is a priority.
    Senator Enzi. Thank you. I will have some follow-up 
questions on that, and I will put those in writing, but I do 
want to comment that besides having the special language safety 
training, there are some problems on the job when there is a 
mix of languages so that adequate warning cannot be shared or 
comments about the work site cannot be communicated properly. 
Accidents can come out of that, and that is an area that I do 
not even know how to concentrate on, but I hope you will have 
some suggestions on, too.
    Thank you, Mr. Chairman.
    Senator Wellstone. Senator Clinton?
    Senator Clinton. Thank you very much, Mr. Chairman.
    I think Senator Enzi has just described every workplace in 
New York, because there is hardly a one that does not have, if 
not totally different languages, different dialects and 
different regional uses of the same language that make it 
difficult for communication to be easily accomplished.
    Thank you both for being here, and Mr. Henshaw, thank you 
for your commitment to working with us on these issues. I think 
our bottom line is that we believe there needs to be increased 
enforcement of Federal labor protections governing health and 
safety discrimination and wage and hour laws because of the 
reports that we have received concerning the particular issues 
that confront day laborers and immigrant workers.
    One of the ideas that has been promoted is to increase the 
penalties associated with nonreporting to make them severe 
enough so that businesses do report and also to use them as a 
way of supplementing the funds available to provide additional 
training, supervision and oversight.
    Could you tell us whether you would support increasing the 
penalties for businesses that fail to report fatalities and 
injuries to OSHA?
    Mr. Henshaw. I would certainly be willing to work with you 
as we address the penalty structure. We have a penalty 
structure that was, as you know, modified a few years ago. That 
penalty structure has served us well. Obviously, things change, 
and if that is appropriate, we could work on those issues.
    Just to let you know, we did find 138 occasions last year 
where people did not report fatalities, and that totalled over 
$200,000 in penalties. So we are actively pursuing the 
nonreporting and will continue to do that.
    Senator Clinton. And what about the investigative function 
of OSHA? In the Newsday series that we will hear more about in 
a few minutes, a thorough analysis of the labor records in New 
York found that, for example, 161 immigrants died in retail 
jobs over the 6-year period of their study, yet OSHA never 
investigated 143 of those deaths.
    So part of what we are hoping to achieve through this 
hearing and through our cooperative efforts is to increase not 
only reporting but also investigation. And I think that perhaps 
one of the ways we can address that is to increase the funds 
available, as Senator Wellstone was saying, that you have to 
work with as you attempt to meet these obligations.
    Second, I was pleased to hear in your testimony that you 
are adding construction employers to your site-specific 
studies. Could you tell us whether OSHA has plans or is 
currently investigating other industries with high numbers of 
low-wage immigrant workers, such as the retail industry and the 
garment industry?
    Mr. Henshaw. Yes. That is part of our data collection 
initiative. As you may or may not know, we sent out last year 
our survey on 8,000 establishments, including some retail, and 
we are including 16,000 facilities for construction, small 
construction companies. So we will be adding that to our survey 
this year, and that will be part of our site-specific 
targeting.
    But keep in mind that over 50 percent of our inspections 
are construction sites, and generally, those sites average 
fewer than 41 employees. So we are focusing on the small ones 
during our normal inspection process, including our site-
specifics, and we will be adding that next year to our data 
collection.
    Senator Clinton. How about the retail and garment 
industries?
    Mr. Henshaw. Some of the retail, certainly the areas where 
there is high Hispanic population. I will need to go back and 
look and get back to you about exactly what retail facilities 
and which ZIP codes we are going to be including in the survey 
next year. I will be glad to do that.
    Senator Clinton. I would appreciate that.
    I would also hope that the Department of Labor would 
conduct research on subcontracting in the informal economy. We 
have a lot of trouble getting good statistics on what is called 
``contingent work,'' yet we know that contingent workers are 
part of the change in the 21st century work force. I think, Mr. 
Chairman, that just as we had to in the 20th century develop 
work rules for the 20th century work force, we need 21st 
century work rules, and part of what I think we have to focus 
on is this whole area of contingency work, and certainly 
immigrant workers are a big part of that.
    Dr. Sokas, I appreciate greatly you being here and the work 
that you are doing and the attention you are paying to these 
issues. Could you tell us when you expect your special 
population team to come out with their findings regarding the 
gaps in research on immigrant workers, and do you have a rough 
cost estimate of what a comprehensive study of immigrant 
workers would cost?
    Dr. Sokas. They are two separate questions. The Special 
Populations At Risk Team, probably best guesstimate by the end 
of the calendar year, will have something together that is 
useful that will go out to people, and there are team members 
working on that actively.
    I do not think we have really put together specific 
suggestions to the point where we could put a cost estimate on 
it. I would suggest that the targeting of research dollars in 
collaboration, for example, with NIH for looking at community 
clinics as a source of information and some of this other 
activity is ongoing, and we have managed to leverage some 
funding there. I would really have to get back with you on cost 
estimates.
    Senator Clinton. Thank you.
    Senator Wellstone. Thank you very much.
    Let me thank both Mr. Henshaw and Dr. Sokas so much for 
coming. We much appreciate your time.
    Before I bring up the next panel, by the way, there are 
some additional seats--as long as you leave just a few up 
here--if some of you want to sit up here, if anybody is having 
a tough time standing in the back, there are a couple more 
chairs up here.
    Thank you both so much. It is much appreciated.
    Let me now call the final panel. I will introduce each of 
the panelists, and we thank all of you for coming.
    You Di Liao is a garment industry worker. She emigrated to 
America from a province in Southern China where she had been a 
farmer. For more than 10 years, she worked in a garment 
sweatshop in New York. She was injured on the job in the summer 
of 1997 and was unable to continue working. She is still 
waiting to receive her worker's compensation benefits. Ms. Liao 
is representing the It's About Time Campaign for Workers' 
Health and Safety, which is sponsored by the Chinese Staff and 
Workers' Association, the National Mobilization Against 
Sweatshops, and Worker's Awaaz.
    Arturo Rodriguez is president of United Farm Workers. This 
year, United Farm Workers celebrates its 40th year in the 
country. Mr. Rodriguez is an exceptional leader, carrying on 
the vision of Cesar Chavez for gaining dignity, respect, decent 
wages and working conditions for millions of farm worker 
families in this country.
    Tom Maier is a remarkable reporter for Newsday who has 
authored an exceptional and I think chilling series on the 
plight of immigrant workers in our country. His series detailed 
the serious and devastating workplace safety and health 
problems faced by these very vulnerable workers. We have asked 
him here today to share with us the key findings from his 
journalistic research.
    Bobby Jackson is vice president for national programs for 
the National Safety Council. The National Safety Council was 
founded in 1913 and was chartered by the U.S. Congress. We 
thank you, Mr. Jackson, for your fine work.
    And finally, Omar Henriquez, with the New York Committee on 
Occupational Safety and Health, where he is coordinator of the 
Immigrant and Youth Program. NYCOSH is a private, nonprofit, 
union-based health and safety organization located in 
Manhattan.
    Senator Clinton, if you want to say more about any of the 
panelists, you are welcome to.
    Senator Clinton. No. You did a great job.
    Senator Wellstone. Thank you.
    You Di Liao, we will start with you.

 STATEMENTS OF YOU DI LIAO, GARMENT INDUSTRY WORKER, NEW YORK, 
NY, ACCOMPANIED BY JOANNE LUM; ARTURO S. RODRIGUEZ, KEENE, CA, 
PRESIDENT, UNITED FARM WORKERS OF AMERICA, AFL-CIO; TOM MAIER, 
MELVILLE, NY, REPORTER, NEWSDAY; BOBBY JACKSON, VICE PRESIDENT 
FOR NATIONAL PROGRAMS, NATIONAL SAFETY COUNCIL, WASHINGTON, DC; 
 AND OMAR HENRIQUEZ, COORDINATOR, YOUTH AND IMMIGRANT PROJECT, 
NEW YORK COMMITTEE ON OCCUPATIONAL SAFETY AND HEALTH, NEW YORK, 
                               NY

    Ms. Lum. My name is Joanne Lum. I have been asked by the 
witness, Ms. Liao, to serve today as an advisor to her because 
her occupational injury to her head caused her to have problems 
with concentration and memory. So today, she is going to speak 
from her personal experience as an injured worker, but she 
would also like to refer you to her written testimony submitted 
earlier this week.
    She and I would be happy to respond to any questions that 
you have. We would also like to thank Senator Clinton for 
giving us this opportunity to be heard today.
    Ms. Liao. [Through interpreter.] My name is Mrs. You Di 
Liao. I am here today to represent the It's About Time Campaign 
for Workers' Health and Safety, which is sponsored by the 
Chinese Staff and Workers' Association, National Mobilization 
Against Sweatshops and Workers' Awaaz.
    I am also here to represent all the workers in this country 
who, like myself, are stripped of our health and our dignity 
day by day. I am here to assert our demands.
    Although I am a garment worker, I represent workers from 
all different industries and backgrounds. I have been working 
in the garment industry for most of the time that I have been 
in this country. I have worked as a garment hanger in garment 
factories for nearly 10 years now.
    Usually, I worked 6 to 7 days a week, and I worked at least 
14 hours a day when I was working in the garment factory. My 
boss put extreme pressure on me to finish my orders quickly, 
and this caused me to undergo extreme stress.
    On July 4, 1997, when I was working, I was told to perform 
a very heavy load of garments, and I was going to lift this bag 
of garments, and I suddenly fell, collapsed, and hit the floor. 
I suffered serious injuries over my entire body, and I was 
immediately rushed to the hospital. When I left the hospital, I 
had no arm to work with and no leg to walk on.
    After being discharged from the hospital, I realized that I 
was permanently disabled, I could no longer work, and I could 
no longer take care of myself. This is when I applied for 
worker compensation benefits.
    I am just one of hundreds of injured workers in New York 
State and one of millions of injured workers across the 
country. It has been 4 years now, and I have not received one 
penny from the workers' compensation board.
    The United States is a country that prides itself on human 
rights, but if other workers continue to work these long hours 
like I did, they will also be stripped of their dignity and 
health and will eventually become injured. Working people in 
our country are slowly dying.
    When we are injured, we must wait 4, 8, or even 12 years 
for our cases to be resolved by the workers' compensation 
board. Meanwhile, we have nothing to live on; our families fall 
apart. And when we do receive benefits, our payments are as low 
as $40 a week.
    How can we live on $40 a week? Nobody can. We are treated 
like garbage. In America, there is no Federal or State law that 
prohibits mandatory overtime or delays of the workers' 
compensation board. Isn't this a violation of our human rights? 
It is a violation of international law under the NAFTA labor 
side companion agreement; yet the Government has done nothing 
to enforce this.
    So, last October, a delegation of injured workers including 
myself traveled to Mexico to file charges against the New York 
State Workers' Compensation Board for violations of those 
health and safety provisions under the labor side agreement 
under NAFTA. So far, the Federal Government has done nothing in 
response. Why is this so?
    We hope today that the subcommittee and the Senate will 
take immediate action. Most importantly, we call on you to 
introduce a Federal law that prohibits mandatory overtime. And 
we also demand a law that prohibits delays in workers' 
compensation, which is destroying so many of our lives.
    We ask you to implement the Federal Government's commitment 
by developing a program that enforces the workers' health and 
safety rights provisions that are guaranteed under NAFTA and 
its labor side agreement.
    I can no longer wait. Of course, injured workers can no 
longer wait. If you care about preventing further workplace 
injuries and deaths, please act now to protect our human 
rights.
    Thank you very much.
    Senator Wellstone. Thank you, Ms. Liao. I think that your 
Senator from New York is very, very committed to these issues. 
We are not holding this hearing just for symbolic reasons, and 
we intend to do everything we can to make a difference, to make 
a positive difference in the lives of so many hardworking 
people.
    [The prepared statement of Ms. Liao follows:]

                   PREPARED STATEMENT OF YOU DI LIAO

    My name is Mrs. You Di Liao. I am here today to represent the It's 
About TIME! Campaign for Workers' Health and Safety, which is sponsored 
by the Chinese Staff & Workers' Association, National Mobilization 
Against SweatShops and Workers' Awaaz. I am also here to represent all 
the workers in this country who, like myself, are stripped of our 
health and our dignity day by day. For more than ten years, I worked in 
a garment sweatshop. From sunrise to well after sunset, I hung garments 
in a unionized factory. Each week I worked 6-7 days a week, 14 hours a 
day, like many thousands of garment workers. These crushing hours put 
me under intense stress. On July 4, 1997, while reaching for plastic 
garment bags, I collapsed and hit the floor. I then suffered a stroke, 
and was hospitalized for 40 days. When I left the hospital, I had no 
arm to work with and no leg to walk on.
    I am only one of hundreds of thousands of injured workers in New 
York State and the millions of injured workers across the country. If 
you are not injured now and you're working long hours, it's just a 
matter of time before you develop serious health problems or injuries. 
How could it be that in the United States it is legal for bosses to 
force us to work these overtime hours and fire us if we dare to refuse? 
In a country that prides itself on its human-rights record, countless 
working people are being killed slowly. It's not enough to look at 
deaths on the job or the lack of bilingual education on health and 
safety. What about the majority of us--people who are robbed of our 
health little by little, day in and day out, until there is nothing 
left of us?
    When we are injured, we must wait four, eight, or even 12 years for 
our cases to be resolved by the New York State Workers' Compensation 
Board. This is true in many other states. Meanwhile, we have nothing to 
live on. Our families fall apart. Because of our successful efforts to 
reform the Workers' Compensation Board, injured workers have received 
some benefits. But when we do receive Workers' Comp benefits, our 
payments are as low as $40 a week. Who can live on $40 a week? Some of 
us have no choice but to go back to work in pain. Others of us turn to 
public assistance. Some of us become homeless. We are treated like 
garbage.
    Yet no state or federal law declares that these delays and long 
work hours to be violations of our human rights. However, they do 
violate international law under the NAFTA agreement, which President 
Clinton signed in 1993. As you know, the NAFTA labor-side companion 
agreement lists 11 labor principles. One principle requires that the 
signatory governments take actions necessary to prevent occupational 
accidents and diseases. Another principle requires adequate 
compensation for work-related injuries and illnesses. In signing NAFTA, 
our Federal government committed itself to taking a role to address 
workplace injuries. Last October, a delegation of injured workers, 
including myself, traveled to Mexico to file a petition charging the 
New York State Workers' Compensation Board for violations of the health 
and safety provisions under the labor side-agreement of NAFTA. But so 
far, the U.S. National Administrative Office has done nothing in 
response.
    We call on this subcommittee and the Senate as a whole to take 
immediate action to address the long work hours and the delays in 
Workers' Compensation benefits that are destroying the lives of working 
people across this country. We ask that you commission a report by the 
General Accounting Office looking into the extent and the cause of 
delays in the New York State Workers' Compensation Board. We urge that 
you demand an explanation from the U.S. National Administrative Office 
about why it has not responded to our NAFTA petition, and what it plans 
to do. We ask you to develop a program to implement the Federal 
government's commitment, in its signing of NAFTA and its labor-side 
agreement, to ensuring fair and timely compensation to injured workers. 
And last, we call on you to introduce a federal law that prohibits 
mandatory overtime.
    We cannot wait any longer. Our lives are at stake. We urge the 
Senate to take leadership in protecting and promoting the human rights 
of working people in this country. To maintain our health, our families 
and our homes when we are injured, we must have immediate and just 
compensation. And to ensure that more workers do not become injured and 
worked to the bone, we must have control over the hours that we work. 
All of those here with me today--and thousands of others who could not 
be here--are here because we are sick and tired of being sick and 
tired. We want a fighting chance at a life of good health and dignity. 
We hope you will join us in this endeavor.

    Senator Wellstone. Mr. Rodriguez?
    Mr. Rodriguez. Thank you very much, Chairman Wellstone and 
Senator Clinton. It is an honor to be here with this 
distinguished panel, and I really acknowledge the courage of 
Ms. Liao to come here before the committee today and talk about 
her own experiences.
    This year, United Farm Workers, as you mentioned, Chairman 
Wellstone, will celebrate its 40th anniversary. Cesar Chavez 
had a vision for gaining dignity, respect, and decent wages and 
working conditions, and the United Farm Workers believes that 
the future for farm workers could be brighter by working 
cooperatively with advocacy groups, Government, and employers.
    Today I am here to discuss ways to improve the occupational 
safety and health of migrant and seasonal farm workers and 
immigrant workers.
    This hearing is very relevant for farm workers. About 80 
percent of farm workers are immigrants. Farm workers face 
serious and often unnecessary risks of injury and illness on 
the job.
    There are an estimated 1.6 to 1.8 million farm workers in 
the United States excluding their family members. Most farm 
workers have incomes below the poverty level, very limited 
education, limited English language proficiency, and inadequate 
knowledge of Government safety standards that are intended to 
protect them. The fact that they are immigrants limits the 
ability of many farm workers to make demands on their employers 
for safer workplaces or to ask the Government to enforce the 
safety and health protections that do exist.
    Agriculture ranks, as has already been mentioned, as one of 
the three most dangerous occupations in the United States. 
There are many kinds of risks--fractures due to falls, eye 
injuries from chemicals and machinery, cuts and lacerations 
from knives, heat stroke, cancer, birth defects, and 
neurological damage. These occupational hazards, combined with 
inadequate housing, poor nutrition, and poverty, diminish the 
health status of farm workers and their families.
    Let me mention a few specific concerns. Last year, the 
American Journal of Industrial Medicine published an important 
study evaluating the incidence of cancer in the membership of 
the UFW and examining sites of high rates of cancer among our 
membership. The study revealed that farm workers had a 59 
percent higher risk of leukemia than other Hispanics living in 
the State of California and a 69 percent higher risk of stomach 
cancer; uterine cancers in females were also elevated, as was 
brain cancer for both males and females. Leukemia and brain 
cancer are highly associated with exposure to toxic pesticides. 
These cancers are occupational illnesses that can and should be 
prevented.
    Methyl bromide is a widely used toxic pesticide that has 
been deemed to be so hazardous to the environment that the 
Federal Government and other nations have required that its use 
be terminated by the year 2006. Some pesticide users have 
announced that they intend to replace methyl bromide with 
another carcinogenic pesticide called Telone. We have strong 
concerns about the health risks of Telone, and we ask that you 
continue to investigate that.
    In recent years, California farm workers have been run 
over, seriously injured, or even killed by the so-called 
driverless tractors, which are used during harvest periods to 
pull flatbed trailers in the fields. A moving farm vehicle 
without a person to guide it is inherently dangerous. Such 
practices must be ended.
    We have several suggestions for improving the safety and 
health of farm workers. Federal law on safety and health 
regarding agricultural workers is far weaker than it is for 
other occupations. Such discrimination should cease.
    For most working people, it is expected that there are 
sanitary facilities on the job, including an operating toilet, 
potable drinking water and handwashing facilities. However, 
under Federal law, employers of 10 or fewer employees need not 
provide farm workers with toilets, handwashing facilities, or 
drinking water.
    The denial of such basic amenities is not just an affront 
to dignity but a serious public health issues. Women are 
particularly affected by urinary and parasitic infections from 
the unavailability of sanitary facilities.
    The denial of drinking water has resulted in preventable 
deaths in the fields from heat stroke. In other jobs, we expect 
such things to be provided. In California, farm workers are 
entitled to sanitary facilities, and they should be as a matter 
of Federal law.
    The Food Quality Protection Act of 1996 seeks to protect 
people from harmful health effects from pesticides on food, in 
water, or used in homes or gardens. But in determining which 
pesticides are dangerous to health, the risks to workers are 
ignored. The concern over consumers is appropriate, but the 
direct risk of harm to farm workers from occupational exposure 
needs to be acknowledged by legislative action.
    Enforcement of occupational safety and health protections 
is inadequate. There are insufficient resources for 
investigations, and when violations are found, the penalties 
assessed are often too low. Employers get the message that they 
can flout the law. Law-abiding companies are subjected to 
unfair competition from those that are trying to cut labor 
costs. Enforcement is particularly difficult where farm 
operators used farm labor contractors to recruit, supervise or 
transport workers. Farm operators must accept the 
responsibility for preventing injuries and illnesses in their 
fields.
    The protections for whistleblowers against employer 
retaliation are poorly enforced. California has also recently 
taken the lead by requiring that farm workers be transported in 
vehicles that do have seatbelts and are certified as safe by 
the California highway patrol. However, this just took place 
last year. This law was passed in the wake of several terrible 
accidents, including one in which 13 workers were killed this 
past year. Federal law and the laws of other States are not as 
protective.
    Many States discriminate against farm workers in worker 
compensation laws by denying farm workers the same coverage and 
benefits for work-related injuries and illnesses that other 
occupations are granted. In such States, employers have little 
incentive to make work safer.
    We must educate workers and employers about workplace 
hazards. Let me just mention one particular failure in this 
regard. Over a decade ago, OSHA issued the Hazard Communication 
Standard. Unfortunately, OSHA has interpreted this requirement 
to exclude farm workers with regard to agricultural pesticides. 
The right to know about pesticides needs to be and should be 
extended to farm workers.
    UFW is working with companies to improve their productivity 
while making work safer. For example, we are cooperating with 
the engineers at the University of California at Davis and 
agricultural employers to devise modern methods of harvesting 
mushrooms. This cooperative venture will reduce injuries, lower 
worker compensation insurance costs, and increase productivity.
    These and other cooperative efforts are win-win 
propositions.
    About one-half of farm workers in the fields are 
undocumented. Undocumented farm workers are often too afraid to 
report injuries and illnesses. This fear of coming forward also 
prevents workers from getting the medical care and the 
disability benefits that they need for their families to 
survive. One solution is to offer such undocumented workers the 
chance to become immigrants and citizens.
    We must as a society recognize the true cost in human life 
of the occupational safety and health risks experienced by 
migrant and seasonal farm workers and immigrant workers in 
general. The UFW is dedicated to helping the agricultural 
industry become a sustainable, safe, healthy and prosperous 
work environment.
    Again I want to thank you, Mr. Chairman and Senator Clinton 
for giving us this opportunity today. As you mentioned a little 
earlier, we are considered disposal Americans, and it is time 
that we come out of the shadows, it is time that we are allowed 
as farm workers and as immigrants to live and to escape from 
the shadows of America and enjoy the fruits of our labor.
    Thank you very much.
    Senator Wellstone. Thank you, President Rodriguez.
    [The prepared statement of Mr. Rodriguez follows:]

               PREPARED STATEMENT OF ARTURO S. RODRIGUEZ

                            I. INTRODUCTION

    Mr. Chairman and Senators, thank you for the opportunity to appear 
before you today. I am Arturo Rodriguez. I am President of the United 
Farm Workers of America, AFL-CIO. This year the United Farm Workers 
will celebrate its fortieth year as an organization. It's primary goal 
is to provide advocacy for farmworkers in this country. Cesar Chavez 
had a vision for gaining dignity, respect and decent wages and working 
conditions through dignified, non-violent methods and the United Farm 
Workers was the mechanism by which he hoped to achieve these goals. 
Cesar Chavez, like the current leadership of the United Farm Workers, 
always believed that the future for farmworkers could be brighter if 
the union could work with other advocacy organizations, government and 
employers to reach common ground. Today I am here to discuss ways to 
reach common ground to improve the occupational safety and health of 
migrant and seasonal farmworkers.

                       II. STATUS OF FARMWORKERS

    The hearing is very relevant for farmworkers. About 80% of 
farmworkers are immigrants, and most of those who are not immigrants 
are children of immigrants. Farmworkers face serious and often 
unnecessary risks of injury and illness on the job. Let me briefly 
outline for you some of the salient facts about farmworkers and their 
occupational safety and health.

A. Farmworkers Generally

    There are an estimated 1.6 to 1.8 million farmworkers in the United 
States, excluding their family members. In California, which has the 
number one agricultural economy in the country, it is argued that there 
are between 350,000 and 1.2 million farmworkers. The National 
Agricultural Workers Survey recently found that 61% of farmworkers had 
below poverty incomes.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Labor, Office of the Assistant Secretary for 
Policy, Findings from the National Agricultural Workers Survey: A 
Demographic and Employment Profile of U.S. Farmworkers (March 2000), at 
p. 39, available online at <http://www.dol.gov/asp/programs/agworker/
report<INF>-</INF>8.pdf>.
---------------------------------------------------------------------------
    It is relevant in discussing how to improve worker safety and 
health to note that most farmworkers have very limited education, 
limited English language proficiency, and limited knowledge of 
government safety standards that are intended to protect them.
    The fact that they are immigrants limits the ability of many 
farmworkers to make demands on their employers for safer workplaces or 
to ask the government to enforce the safety and health protections that 
do exist.

B. Occupational Safety and Health of Farmworkers

    Agriculture ranks as one of the three most dangerous occupations in 
the United States.\2\ There are many kinds of risks: musculoskeletal, 
skin, heat stroke, cancers, birth defects, neurological damage. 
Occupational hazards (like pesticides), inadequate housing, poor 
nutrition, and poverty combine to diminish the health status of 
farmworkers and their families.\3\
---------------------------------------------------------------------------
    \2\ National Migrant Resource Program, Inc., Migrant and Seasonal 
Farmworker Health Objectives for the Year 2000 at 10 (1990).
    \3\ See, e.g., National Advisory Council on Migrant Health, Under 
the Weather: Farmworker Health (1993); California Rural Legal 
Assistance Foundation, Hunger in the Heartland (1991).
---------------------------------------------------------------------------
    In the period 1980-1994, the combined category of agriculture, 
forestry and fishing experienced a fatality rate of 20.5 deaths per 
100,000 workers, which was second only to mining.\4\
---------------------------------------------------------------------------
    \4\ Centers for Disease Control and Prevention, ``Fatal 
Occupational Injuries--United States, 1980-1994,'' Morbidity and 
Mortality Weekly Review, Vol. 47, No. 18 (April 24, 1998).
---------------------------------------------------------------------------
    Moreover, in 20 states, the agricultural category topped the list 
with the highest rate of work-related deaths and in 11 states the 
agriculture category had the largest number of work-related deaths. 
Motor vehicles (including tractors) and machinery were the leading 
causes of agricultural fatalities. State statistics show similar 
trends: in 1990, 41% of the occupational fatalities suffered by Florida 
farmworkers were caused by transportation-related accidents.\5\
---------------------------------------------------------------------------
    \5\ Becker, W.J., An Analysis of Agricultural Accidents in 
Florida--1990, Agricultural Engineering Department, Special Series, 
Report SS-AGE-25, Gainesville, FL, University of Florida (1991).
---------------------------------------------------------------------------
    Working conditions on farms and in nurseries, greenhouses and 
packing sheds also put farmworkers at high risk for non-fatal injuries 
including musculoskeletal, repetitive motion, and traumatic injuries.
    Crop production agriculture has a non-fatal injury rate of 8.5 
cases per 100 workers, with 3.2 cases per 100 workers involving lost 
work time.\6\ A National Institute for Occupation Safety and Health 
(NIOSH) study of workers' compensation records from 1985 to 1987 
reveals that sprain and strain injuries account for 37.2% of all claims 
filed by agricultural workers. Many of these injuries could be 
prevented.
---------------------------------------------------------------------------
    \6\ National Safety Council, Accident Facts (1998 ed.).
---------------------------------------------------------------------------
    Farmworkers also suffer from fractures due to falls, eye injuries 
from chemicals and debris ejected by machinery, cuts and lacerations 
from knives and machetes, and a host of crush, contusion, and 
amputation injuries associated with the use of heavy equipment among 
other things.\7\
---------------------------------------------------------------------------
    \7\ Demers P., Rosenstock L., ``Occupational Injuries and Illnesses 
among Washington State Agricultural Workers,'' American Journal of 
Public Health 81(12):1656-1658 (1991).
---------------------------------------------------------------------------
    Let me mention a few specific concerns.
    Cancer Study--Last year, the American Journal of Industrial 
Medicine published an important study evaluating the incidence of 
cancer in the membership of the United Farm Workers of America and 
examining sites of high rates of cancer.\8\ By reviewing the union's 
medical and pension benefit plan roster with the files of the 
California Cancer Registry, the study revealed that these farmworkers 
had a 59% higher risk of leukemia (cancer of the blood) than other 
Hispanics living in California and a 69% higher risk for stomach 
cancer. Uterine cancers in females were also elevated, as was brain 
cancer for both males and females. The study also found that certain 
cancers were diagnosed at a later stage among farmworkers than among 
the general population. This makes it more difficult to effectively 
treat the disease.
---------------------------------------------------------------------------
    \8\ Paul K. Mills and Sandy Kwong, ``Cancer Incidence in the United 
Farmworkers of America (UFW), 1987-1997,'' American Journal of 
Industrial Medicine 40:596-603 (2001).
---------------------------------------------------------------------------
    The authors, Dr. Paul Mills and Sandy Kwong, M.P.H., concluded that 
these findings among California farmworkers are in general agreement 
with findings from other studies which have concentrated on farm owners 
and operators. Leukemia and brain cancer are highly associated with 
exposure to toxic pesticides.
    These cancers are occupational illnesses that can and should be 
prevented.
    The Use of the Pesticide Methyl Bromide and Telone--Methyl bromide 
is a widely used toxic pesticide that has been deemed to be so 
hazardous to the environment that the federal government and other 
nations have required that its use be terminated by the year 2006. Some 
pesticide users have announced that they intend to replace methyl 
bromide with another carcinogenic pesticide called Telone. We have 
strong concerns about the direct impact on workers that Telone causes.
    ``Driverless Tractors''--There are some particularly serious risks 
of injury and illness caused by employer practices that need to be 
changed. One example involves so-called ``Driverless Tractors.''
    In recent years, California farm workers have been run over, 
seriously injured or even killed by so called ``driverless tractors,'' 
which are used to pull flatbed trailers in the fields during the 
harvest. The tractor runs driverless in deep field furrows and 
generally at a rate slow enough so that workers picking along side it 
can place harvested produce into crates or boxes on the rig. A moving 
farm vehicle without a person to guide it is inherently dangerous. Such 
practices must be ended.

Conclusion

    Senators, as you know, for someone who works with his or hands and 
back, a serious physical injury can ruin the worker's life and the 
economic future of the worker's family.
 iii. how can we prevent injuries and illnesses in agriculture and how 
   can we improve the health of farmworkers and their family members?
    We have several suggestions for improving the safety and health of 
farmworkers.

A. We Must Change The Laws That Discriminate Against Farmworkers

1. Federal Law
    Federal law on safety and health regarding agricultural workers is 
far weaker than it is for other occupations. Let me cite just a few 
examples.
    OSHA Field Sanitation Standard--For most working people, it is 
expected that there are sanitary facilities on the job, including an 
operating toilet, potable drinking water, and handwashing facilities. 
However, farmworkers do not have the same protection as other 
employees.
    The Occupational Safety and Health Administration issued a field 
sanitation standard in the late 1980's, requiring toilets, drinking 
water and hand-washing facilities. However, under federal law, 
employers of 10 or fewer employees need not provide farmworkers with 
toilets, handwashing facilities or drinking water. The denial of such 
basic amenities is not just an affront to dignity, but a serious public 
health issue. Women are particularly affected by urinary infections and 
parasitic infections from the unavailability of sanitary facilities. 
The denial of drinking water has resulted in preventable deaths in the 
fields from heat strokes. In other jobs, we expect such things to be 
provided. In California, farmworkers are entitled to sanitary 
facilities and they should be as a matter of federal law.
    The 1996's Food Quality Protection Act Protections Fail 
Farmworkers--The Food Quality Protection Act of 1996 seeks to protect 
people from harmful health effects from pesticides on food, in water or 
used in homes or gardens. But in determining which pesticides are 
dangerous to health, the risks to workers are ignored. The concern over 
consumers is appropriate, because infants and children especially can 
be affected by the minute residues of pesticides on food. But the 
direct risk of harm to farmworkers from occupational exposure needs to 
be acknowledged by legislative action.
    Department of Labor Hazardous Work Orders--The U.S. Department of 
Labor is responsible for issuing ``hazardous work orders'' which 
restrict children from performing certain tasks. In agriculture, the 
hazardous work orders allow children to do jobs, such as climbing on 
tall ladders, that cannot be done by children in other occupations. 
There is no justification for such discrimination against farmworkers. 
Our farmworker children need protection.
    Labor Law Enforcement--Enforcement of occupational safety and 
health protections is inadequate. There are insufficient numbers of 
investigations, inadequate resources for investigations, and when 
violations are found, the penalties assessed are too low. All of these 
factors mean that employers get the message that they can flout the 
law. Law-abiding companies are then subjected to unfair competition 
from those who are trying to cut labor costs.
    Enforcement is particularly difficult where farm labor contractors 
are used. Farm operators often claim that they do not employ any 
farmworkers and therefore are not responsible for the safety and health 
of the workers, or for their workers' compensation coverage. They claim 
that farm labor contractors are the sole employer of the workers. This 
is a common problem for workers who are recent immigrants, many of whom 
work for farm labor contractors who cannot or will not comply with 
labor laws. We must find ways to encourage farm operators to accept 
responsibility for preventing injuries and illnesses in their fields.
    Farmworkers are also prevented from exercising their rights for 
fear of losing their jobs. With wages for farmworkers so low, the loss 
of a job can raise a question of survival for the farmworker and his or 
her family member. Nor is this fear of retaliation unfounded. 
Unfortunately, farmworkers get fired when they seek medical care for a 
work-related injury or request protective equipment, let alone complain 
to a government agency. Currently, the pesticide law does not have any 
anti-retaliation protection and the protection that is available under 
OSHA is too limited.\9\
---------------------------------------------------------------------------
    \9\ The California Agricultural Labor Relations Act contains some 
protections when workers engage in concerted activity to improve safety 
and health on the job, but most states lack that protection and there 
are many obstacles to enforcement of the ALRA's protections.
---------------------------------------------------------------------------
    The fear of retaliation is especially of concern with regard to 
immigrant workers. As newcomers to this country, without adequate 
knowledge of our legal system, and without the same legal protection 
granted to U.S. citizens, immigrants often cannot or will not attempt 
to enforce the law.
2. State Laws
    In California, we have secured a number of protections that prevent 
unnecessary risks to farmworkers and family members. Some of our 
requirements regarding the use of pesticides offer greater protections 
to farmworkers, farmers and residents of agricultural communities than 
under federal law. Unfortunately, enforcement of these protections has 
not always been adequate.
    Short-Handled Hoe and Hand-Weeding: Unnecessary Back-Breaking 
Work--Our California laws are far from perfect.
    Some years ago California and about 5 other states outlawed the use 
of the back breaking ``short-handled hoe'' because it caused so many 
injuries and was unnecessary despite claims of reduced productivity in 
the absence of it. The decline in the use of the short-handled hoe in 
California from 1965 to 1970 led to a 34% reduction in strain and 
sprain injuries in that state.
    Recently, we have had growers insist that workers use their hands 
to weed the fields; that is they can't use a hoe at all. Such a 
requirement imposes severe harm on workers and is unnecessary. It also 
imposes severe costs on society at large by disabling relatively young 
workers and shortening their careers. We are working on state 
legislation to fix this loophole.
    Safe Transportation--California has also recently taken the lead by 
requiring that farmworkers be transported in vehicles that have seat 
belts and are certified as safe by the California Highway Patrol. This 
law was passed in the wake of several terrible accidents, including one 
in which 13 workers were killed. But when California farmworkers are 
transported outside the state, they are subject to federal law--which 
still doesn't require seatbelts or even seats--and many farmworkers 
around the country continue to die on our highways as a result.
    Many Other States' Laws Discriminate Against Farmworker--Many 
states discriminate against farmworkers in labor protections without 
any valid justification. For example, workers compensation laws often 
deny farmworkers the same coverage and benefits for work-related 
injuries and illnesses that other occupations are granted. Yet 
farmworkers need such coverage and benefits as much, if not more than 
other workers. Rarely, except in union shops, do farmworkers receive 
health insurance as a benefit on the job. The lack of workers' 
compensation coverage often precludes farmworkers from affording 
medical care. Such workers either do not get health care or else, if 
they do go to the hospital for treatment, then the taxpayers are forced 
to absorb the medical costs that workers' compensation insurance could 
cover. In addition, where agricultural employers are completely or 
partially exempt from workers compensation coverage, these employers 
have a reduced economic incentive to create a safe work place.
3. International Safety Standards
    As we increasingly globalize the economy, some international labor 
standards have been developed. In 2001, the International Labor 
Organization, a United Nations agency to which the United States 
belongs, overwhelmingly approved a new set of standards called the 
Convention on Safety and Health in Agriculture. While the U.S. already 
complies with some of the Convention's standards, it contains a number 
of suggestions that would help the United States improve its record on 
safety and health for farmworkers. It should be followed and it should 
be ratified by the Congress.\10\
---------------------------------------------------------------------------
    \10\ The text of the Convention, Number 184 (2001), is available on 
the website of the International Labor Organization (www.ilo.org) (see 
``International Labor Standards'') and at <http://ilolex.ilo.ch: 1567/
english/convdisp2.htm>.
---------------------------------------------------------------------------

B. We Must Educate Workers and Employers About Their Rights and 
                    Responsibilities and About How to Make Workplaces 
                    Safer

    Farmworkers often lack adequate information about safety and health 
on the job. Let me mention just one particular failure in this regard.
    The Right to Know--Over a decade ago, OSHA issued regulations 
requiring employers to educate their workers about the chemical hazards 
in their workplaces. This is called the Hazard Communication Standard. 
Unfortunately, OSHA has interpreted this requirement as excluding 
farmworkers with regard to agricultural pesticides. This exclusion 
prevents farmworkers from learning that certain pesticides cause 
cancer, birth defects, sterility and neurological damage. If the 
``right to know'' protection were extended to agricultural pesticides, 
both farmworkers and their employers would gain critically important 
knowledge. A greater appreciation of risks and costs of using these 
products, undoubtedly lead employers to choose safer products and 
practices.

C. Our Public Policies Must Promote Greater Cooperation Between 
                    Employers and Their Workers to Reduce Preventable 
                    Injuries and Illnesses

    We as a union recognize the need to communicate with employers. 
Although farmworkers are excluded from the National Labor Relations 
Act, in California we have the Agricultural Labor Relations Act, which, 
though imperfect, encourages conflict resolution through negotiation 
between representatives of businesses and workers.
    We are working with unionized companies to improve their 
productivity while making work safer.
    For example, the United Farm Workers is cooperating with engineers 
at the University of California at Davis, a major agricultural 
institution, and agricultural employers to devise safer and more 
productive methods to improve the harvesting of mushrooms. This 
cooperative venture will soon change the way mushrooms are harvested to 
reduce injuries, lower workers compensation insurance costs and 
increase yields.
    The union is also working with growers to arrange for low-interest 
financing to purchase new equipment that will also reduce injuries and 
make the mushroom growers more productive. These and other cooperative 
efforts are ``win-win'' propositions for workers and employers.

D. Legalization of the Undocumented Farmworkers

    Any effort to improve safety and health for workers and reduce the 
negative impact on society that comes from high injury rates must be 
accompanied by legalization of undocumented immigrants. About one-half 
of farmworkers in the fields are undocumented and about one-half 
possess lawful immigration status or U.S. citizenship. Working, in the 
shadows, undocumented farmworkers are often too afraid to report 
injuries and illnesses. This reluctance to come forward prevents us 
from knowing about their injuries and illnesses and interferes with our 
ability to create effective responses. This fear of coming forward also 
prevents workers from getting the medical care and the disability 
benefits they need for their families to survive.

Conclusion

    We must as a society recognize the true cost, in human life, of the 
occupational safety and health risks experienced by migrant and 
seasonal farmworkers.
    We must also recognize that preventing illnesses and injuries at 
work saves us all money. Safety does not cost. Safety pays. Through a 
combination of public education, better laws, more effective 
enforcement and cooperation among workers, employers and government, we 
can and must make agricultural work safer.
    The United Farm Workers is dedicated to helping the agricultural 
industry become a sustainable, safe, healthy and prosperous work 
environment. Thank you for the opportunity to appear before you today.

    Senator Wellstone. Mr. Maier?
    Mr. Maier. Thank you, Mr. Chairman, Senator Clinton, and 
other members of the committee, for your invitation to testify 
today about the findings of Newsday's recent series concerning 
the health and safety problems faced by immigrant workers 
around this Nation.
    At the outset, I would like to make it clear that as a 
journalist, I am here today appearing not as an advocate nor to 
espouse any cause or solution. At your request, I am here 
simply to outline the findings of our investigation as they 
pertain to this growing national issue.
    Immigrant workers come to America from dozens of countries, 
speak many different languages, and take jobs that nobody else 
wants. America's immigrant workers are the lowest paid and the 
least protected. When Newsday set out to tell their story last 
year, we discovered that they are also the most vulnerable.
    Our 10-month investigation revealed that New York suffers 
the Nation's highest rate of immigrant workers killed on the 
job; that victims and their survivors wait years for 
compensation; and that hundreds of immigrant worker deaths 
nationwide were never investigated by the Government.
    Here are several of our specific findings. First, more than 
half of America's roughly 4,200 immigrant worker fatalities 
from the years that we studied, 1994 to 1999, were concentrated 
in four gateway States--California, Texas, Florida, and New 
York--the traditional ports of entry for immigrants seeking 
opportunities. Nationally, Hispanics accounted for 54 percent 
of all immigrant deaths during this period--part of what many 
health experts told us has become a ``disposable'' work force 
in America's economy.
    Second, in New York and nearly every large State where 
immigrants flocked in the 1990's, foreign-born workers were 
much more likely to die on the job than those born in America, 
even taking into account their significant presence in the work 
force.
    Third, nationally, one of every three immigrants killed on 
the job died as a result of homicide or some other form of 
workplace violence--more than twice the rate for native-born 
workers--and nowhere do immigrant workers die from violent 
crime in greater numbers than in New York City, where 61 
percent of foreign-born workers killed on the job died because 
of workplace violence. Experts we talked to said that many of 
these deaths could be prevented if workers who drive livery 
cabs or work behind retail counters were protected by basic 
safety measures.
    Fourth, the United States Immigration and Naturalization 
Service, which is responsible for preventing immigrants from 
being hired illegally, punishes only a small percentage of 
American firms who employ undocumented workers, even when these 
workplaces have a history of injury or death. Because of their 
illegal status in this country, many undocumented workers are 
vulnerable to abuse, fearing that they will be deported if they 
complain about unsafe and unhealthy job conditions.
    Fifth, hundreds of immigrant deaths go uninvestigated by 
OSHA, the main regulator of workplace safety. An analysis of 
Federal labor records shows that the agency fails to 
concentrate its resources on most of the industries and States 
in which immigrants are dying in substantial numbers.
    Finally, in New York, families of foreign-born workers 
killed or injured are ill-equipped to deal with the maze of 
regulations and delays which can last for months and sometimes 
years in getting workers' compensation benefits mandated by 
State law. Even when clear evidence of serious or fatal injury 
exists, relatives can wait years to be compensated for burial 
costs and to receive other death benefits.
    I would like to submit a copy of our series as part of 
today's testimony. I would also like to point out that Federal 
data released after the series' initial publication last summer 
has confirmed Newsday's original findings. In New York, the 
number of immigrants killed on the job soared to a record high 
in 2000--nearly 40 percent of all workplace deaths--and 
continued as a severe problem across the Nation.
    Our investigation ranged from telling the stories of 
immigrant workers who perished in unsafe workplaces to 
unearthing Government data on the deaths of foreign-born 
workers to visiting the families and gravesites of workers who 
journeyed from places like El Salvador to New York.
    We began this reporting by interviewing day laborers 
congregating on the streets of New York and Long Island. As the 
U.S. Census confirmed last year, the boom economy of the 1990's 
served as a magnet to attract millions of workers from around 
the world to fill low-paid jobs throughout the Nation. They 
encountered a lack of housing, health care, and cultural 
support, along with outright hostility, including the well-
publicized case of two Mexican day laborers plucked off the 
streets of Farmingville, Long Island, and beaten in a hate 
crime incident in September 2000.
    It was against this backdrop that Newsday learned about the 
various circumstances surrounding the deaths of several 
workers, particularly two young men from El Salvador, Fredi 
Canales and Gabriel Nunez, killed less than 2 years apart in 
the same garbage recycling plant on Long Island.
    With extensive reporting, we were able to document that 
Fredi Canales was hired at the garbage plant when he was 16 and 
was killed a few days after his 17th birthday after falling 
nearly 20 feet from atop a sorting machine. Gabriel Nunez died 
after falling into an uncovered, unmarked manhole while earning 
$5 an hour sorting rubbish outside the plant.
    We focused initially on the lives and deaths of these two 
young men, but as we went along in our reporting, we found many 
similar stories of death, injury, and hardship among dozens of 
immigrant workers and their relatives.
    More than a century after crusading journalists first 
exposed the exploitation of America's immigrant workers, we 
believe this series has helped expose critical issues of health 
and safety for a new generation of immigrants. As Dr. Howard 
Frumkin of Emory University's Rollins School of Public Health 
told us in an interview: ``It is a deeply moral issue for the 
country. The clothes we wear, the food we eat often comes from 
the exploitation of immigrant workers.''
    Thank you for your attention.
    Senator Wellstone. Thank you.
    [The prepared statement of Mr. Maier follows:]

                   PREPARED STATEMENT OF THOMAS MAIER

    Thank you, Mr. Chairman, for your invitation to testify today about 
the findings of Newsday's recent series concerning the health and 
safety problems faced by immigrant workers around this nation.
    At the outset, I'd like to make it clear that, as a journalist, I 
am not here today appearing as an advocate, nor to espouse any cause or 
solution. At your request, I'm here to outline the findings of our 
investigation as they pertain to this growing national issue.
    Newsday is one of America's largest newspapers, providing news and 
information to Long Island and New York City. As one of the key ports 
of entry for thousands of immigrants, the continuing influence of the 
foreign-born on our society is an issue of vital importance to our 
readers and the communities we cover.
    Immigrant workers come to America from dozens of countries, speak 
many different languages and take jobs nobody else wants. America's 
immigrant workers are the lowest paid and the least protected. When 
Newsday set out to tell their story last year, we discovered that they 
are also the most vulnerable.
    Our 10-month investigation revealed that New York suffers the 
nation's highest rate of immigrant workers killed on the job; that 
victims and their survivors wait years for compensation; and that 
hundreds of immigrant worker deaths nationwide were never investigated 
by the government.
    Here are several of our specific findings:
    1. More than half of America's roughly 4,200 immigrant worker 
fatalities from 1994 to 1999 were concentrated in four ``gateway'' 
states--California, Texas, Florida and New York, the traditional ports 
of entry for immigrants seeking opportunities. Nationally, Hispanics 
accounted for 54 percent of all immigrant deaths during this period; 
part of what many health experts warn has become a ``disposable'' 
workforce in America's economy.
    2. In New York, and nearly every large state where immigrants 
flocked in the 1990s, foreign-born workers were much more likely to die 
on the job than those born in America, even taking into account their 
significant presence in the workforce. Immigrant workers in New York 
were one-third more likely to die than their native-born counterparts.
    3. Nationally, one of every three immigrants killed on the job died 
as a result of homicide or some other form of workplace violence--more 
than twice the rate for native-born workers. And nowhere do immigrant 
workers die from violent crime in greater numbers than in New York 
City, where 61 percent of foreign-born workers killed on the job died 
because of workplace violence. Experts we talked to said many of these 
deaths could be prevented if workers who drive livery cabs or work 
behind retail counters were protected by basic safety measures.
    4. The U.S. Immigration and Naturalization Service, which is 
responsible for preventing immigrants from being hired illegally, 
punishes only a small percentage of American firms who employ 
undocumented workers, even when these workplaces have a history of 
injury or death. Because of their illegal status in this country, many 
undocumented workers are vulnerable to abuse, fearing they will be 
deported if they complain about unsafe and unhealthy job conditions.
    5. Hundreds of immigrant deaths go uninvestigated by the U.S. 
Occupational Safety and Health Administration, the main regulator of 
workplace safety. An analysis of federal labor records shows that the 
agency fails to concentrate its resources on most of the industries and 
states in which immigrants are dying in substantial numbers.
    6. In New York, families of foreign-born workers killed or injured 
are ill-equipped to deal with the maze of regulations and delays, which 
can last for months--sometimes years--in getting workers' compensation 
benefits mandated by state law. Even when clear evidence of serious or 
fatal injury exists, relatives can wait years to be compensated for 
burial costs and to receive other death benefits.
    I'd like to submit a copy of the series, ``Death on the Job,'' as 
part of today's testimony. I also want to point out that federal data 
released after the series' initial publication confirmed Newsday's 
overall findings. In New York, the number of immigrants killed on the 
job soared to a record high in 2000--nearly 40 percent of all workplace 
deaths--and continued as a severe problem across the nation, 
particularly in Texas, California and Florida.
    Our investigation ranged from telling the stories of immigrant 
workers who perished in unsafe workplaces, to unearthing government 
data on the deaths of foreign-born workers, to visiting the families 
and gravesites of workers who journeyed from El Salvador to America. We 
found and confronted owners of unsafe workplaces and public officials 
who failed to protect the workers and compensate their survivors.
    We began this reporting by interviewing day laborers congregating 
on the streets of New York and Long Island. As the U.S. Census 
confirmed last year, the boom economy of the 1990s served as a magnet 
to attract millions of workers from around the world to fill low-paid 
jobs throughout the nation. They encountered a lack of housing, health 
care, and cultural support, along with outright hostility including the 
well-publicized case of two Mexican day laborers plucked off the 
streets of Farmingville, Long Island, and beaten in a hate-crime 
incident in September, 2000.
    Against this backdrop, Newsday began exploring a government 
database compiled by the Labor Department that tracks the national 
origin of workers who die on the job. We also learned of the 
circumstances surrounding the deaths of two young men from El 
Salvador--Fredi Canales and Gabriel Nunez--killed less than two years 
apart, in the same garbage recycling plant on Long Island. Their deaths 
had nearly gone unnoticed by the media and the government.
    With extensive reporting, we were able to document that Fredi 
Canales was hired at the garbage plant when be was 16 and killed a few 
days after his 17th birthday after falling nearly 20 feet from atop a 
sorting machine. Gabriel Nunez died after falling into an uncovered, 
unmarked manhole while earning $5-an-hour job sorting rubbish outside 
the plant. We focused initially on the lives and death of these two 
young men, but as we went along in our reporting, we found many similar 
stories of death, injury and hardship among dozens of immigrant workers 
and their relatives.
    More than a century after crusading journalists first exposed the 
exploitation of America's immigrant workers, we believe this series has 
helped expose critical issues of health and safety for a new generation 
of immigrants. As Dr. Howard Frumkin of Emory University's Rollins 
School of Public Health told us in an interview, ``This is a deeply 
moral issue for the country . . . the clothes we wear, the food we eat, 
often comes from the exploitation of immigrant workers.'' Thank you for 
your attention.

    Senator Wellstone. You are just superb panelists; all the 
testimony has been just superb.
    Mr. Jackson, thank you.
    Mr. Jackson. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and Senator Clinton, thank you for 
sitting through it. I would like to express my appreciation to 
Senator Enzi for inviting the National Safety Council to 
participate in this hearing.
    Senator Wellstone. We appreciate you being here; and he is 
going to try to get back. He is at a Senate Foreign Relations 
Committee meeting that is taking place at the same time; 
otherwise he would be here.
    Mr. Jackson. Thank you.
    My name is Bobby Jackson, and I am vice president for 
national programs for the National Safety Council. I am going 
to summarize my statement, but I would like my full statement 
submitted to the record if I could, sir.
    Senator Wellstone. Without objection.
    Mr. Jackson. The National Safety Council is the only safety 
organization in America that is chartered by the United States 
Congress. We are charged with the responsibility of preventing 
human suffering and economic losses arising from preventable 
causes. The National Safety Council is a not-for-profit, 
nonGovernment organization that was founded about 99 years ago. 
Since that time, the Council has been instrumental in saving 
lives of Americans in the workplace, on our Nation's highways, 
as well as in our homes and our communities.
    I do not need to tell you, and I certainly do not need to 
tell the folks in this audience, that over 5,200 men and women 
were killed in the workplace last year, and over 4 million 
suffered disabling injuries. As others have testified today, 
Hispanic and immigrant workers were disproportionately 
represented in those statistics.
    The Council has a long history and an outstanding record of 
working with the underserved community, particularly with the 
Hispanic community. My remarks today will focus on what we and 
our 50 local chapters have learned from our work and what we 
believe needs to be done to better serve the immigrant 
community in the future.
    First, the Council's involvement in the Hispanic work force 
community has led to the development of several beneficial 
projects. First of all, we conducted a comprehensive Hispanic 
Forum that brings together community-based organizations from 
across the country to address concerns and seek solutions to 
safety and health in the environment and environmental 
problems. We also develop and disseminate, as many of you know, 
Spanish language safety posters, booklets, videos, training 
programs, all of which are designed with the help of the 
Hispanic community. They are for employers who have Hispanic 
employees, and they deliver concise, effective safety and 
health information to their workers. These materials address 
many issues relative to occupational safety and health.
    As another project, the National Safety Council has led 
workshops for Hispanic community-based organizations and farm 
worker groups to address strategies to prevent lead poisoning 
and asthma, which are major health problems in these workplaces 
and communities. And under a recent grant from the Department 
of Labor, the Council has developed training materials 
specifically for Hispanic workers in the highway construction 
sector.
    The lessons learned by the Council are many, and I would 
like to comment on a couple of those. First, we have learned 
that it is not enough to simply translate materials that were 
developed for English-speaking workers to Spanish, because many 
immigrant workers have literacy barriers that extend to their 
own language. For this group of workers, verbal training and 
on-the-job demonstrations of safe work procedures are needed.
    We also learned that small and medium-sized employers often 
do not have the training or the knowledge to assess their 
workers' skill level and their experience level. For these 
employers, simple checklists designed to evaluate the working 
level of the employee are both helpful and appropriate.
    We have also learned that the effectiveness of training and 
outreach materials depends heavily on the involvement of the 
members of the targeted minority in all stages of development 
and delivery of those programs. Bringing members of that 
community into the process ensures that the materials developed 
will be sensitive to issues of literacy and culture.
    We also learned that partnering with groups and 
organizations with strong ties to the community is essential to 
the success and the credibility of any outreach effort targeted 
population.
    Unfortunately, we have also learned that except for a few 
isolated incidences, no organization appears to have 
systematically addressed the growing issue of workplace safety 
and health for the nonEnglish and nonSpanish-speaking immigrant 
community. We are hopeful in the Council that the lessons 
learned from the Hispanic programs will establish a solid 
foundation for immigrant initiatives.
    The number of deaths, injuries, and illnesses among the 
immigrant worker population demand that a coordinated national 
effort be launched to address the problems. The strategy 
adopted to carry out this effort must be designed to conserve 
resources by eliminating overlapping and duplication and to 
ensure program effectiveness. In addition, performance measures 
need to be built into the initiative at the outset.
    The National Safety Council believes that reliance on 
public-private partnerships offer the best, if not the only, 
hope of achieving meaningful reductions in the number of lives 
lost and disabling injuries among workers. An excellent example 
of this is our highly successful public-private partnership 
with the Council's Hispanic Forum, which I mentioned earlier. 
This event was held 2 years ago and was cosponsored by the U.S. 
Environmental Protection Agency, the Pan-American Health 
Organization, and the National Alliance on Hispanic Health. 
Scholarships were provided to members of the Hispanic community 
to come to the forum and learn about problems facing Hispanic 
workers and their families. Attendees were able to form new 
partnerships, and they were able to develop a model plan of 
action to address the problems that were identified.
    We are going to conduct another Hispanic Forum this 
October, and we expect even greater interest and participation, 
and we certainly expect a successful venue.
    Public-private partnerships are uniquely positioned to 
develop the infrastructure to develop safety and health 
products and services to workers and their communities, as well 
as small and medium-sized employers.
    The Council's nationally-recognized Hispanic Forum and 
other training and outreach programs for the vulnerable 
populations will continue to play a leading role in this 
national imperative. We look forward to continuing to 
contribute to this mission.
    We appreciate the opportunity to present this information 
today, and we will be happy to answer any questions at the end 
of the panel.
    Thank you, sir.
    Senator Wellstone. Thank you, Mr. Jackson. Thank you very 
much.
    [The prepared statement of Mr. Jackson follows:]

                  PREPARED STATEMENT OF BOBBY JACKSON

    Thank you Mr. Chairman and good afternoon. My name is Bobby 
Jackson. I am the Vice President for National Programs of the National 
Safety Council. The National Safety Council (NSC) is pleased to provide 
testimony to the Committee on this important issue.
    Founded in 1913, and chartered by the U.S. Congress, the NSC is a 
not-for-profit, public service organization dedicated to making the 
United States a safer nation, safer in our workplaces, safer on our 
roadways and safer in our homes and communities. Our mission is to 
educate and influence society to adopt safety, health and environmental 
policies, practices and procedures that prevent and mitigate human 
suffering and economic losses arising from preventable causes. NSC is 
very concerned about the safety and health of all persons, and, in 
particular, has devoted significant attention to the safety and health 
issues of underserved populations.
    The National Safety Council believes that reducing injuries and 
deaths, both on and off the job, is one of America's most pressing 
challenges. NSC faces that challenge through partnerships with 
corporations and other institutions, public awareness campaigns, 
sponsoring volunteer activities, and much more. The National Safety 
Council provides information, products and services through a variety 
of initiatives to address America's safety and health issues.
    Last year, over 5,000 workers were killed on the job. Another 3.9 
million suffered disabling injuries. This cost our economy more than 
$122 billion. The cost in human terms is, of course, not measurable. 
The National Safety Council was founded in 1913 by representatives of 
leading, industrial companies. Its purpose was to address occupational 
safety issues. It has since expanded into highway safety and home and 
community safety, but our heritage is in occupational safety and 
health.
    NSC has long been a leader in occupational safety and health 
training that covers a variety of topics for all employer and employee 
levels. Training options include nationally recognized classroom 
programs, convenient packaged training, and, most recently, online 
programs. Safety and health training programs for business, industry 
and government assist employers and employees in complying with OSHA 
and other regulations and convey best practices for specific industries 
and job tasks. Many of these training programs are delivered to local 
employers, employee groups and community based organizations through 
local NSC chapters. A number of these programs are available in 
Spanish.
    Although private- and public-sector organizations purchase NSC 
training programs, services and publications, the NSC also relies upon 
public-private partnerships to help fulfill its mission, particularly 
in providing services for vulnerable and underserved populations. 
Outreach activities, many of which address the needs of minority and 
underserved communities, include:
    <bullet> In an excellent example of a public-private partnership, 
the NSC cosponsored the Hispanic Forum on a Safe and Healthy 
Environment. This Forum was co-sponsored by the U.S. Environmental 
Protection Agency (EPA), the Pan American Health Organization (PAHO), 
and the National Alliance for Hispanic Health. It provided scholarships 
for members of community based organizations to attend the Forum to 
address the pressing occupational safety, health, and environmental 
issues and challenges facing the Hispanic community in the United 
States. Attendees from around the country were able to form new 
partnerships and develop a model plan of action to address these 
problems.
    <bullet> The NSC has developed a series of Spanish safety posters, 
booklets, videos, and training materials to provide Hispanic employers 
with the foundation for effective safety and health programs. These 
materials communicate a concise safety and health message that is 
perfect for new hires or for providing basic safety orientation. The 
materials include:

        Principles of Occupational Safety and Health
        Coaching the Lift Truck Operator
        Defensive Driving Guide
        First Aid/CPR Training Materials
        The Ultimate Driving Challenge
        Lifting and Carrying
        Safety Awareness

    <bullet> Under a grant from the Department of Labor, the NSC has 
developed and is beginning to deliver safety and health training to 
hard-to-reach immigrant Hispanic workers in the highway construction 
sector. The original material, which was developed in English, was 
developed under a partnership between the NSC and the American Road and 
Transportation Builders Association (ARTBA).
    <bullet> The National Safety Council is also involved in the 
Hispanic community in a number of public health and environmental 
issues. These range from lead poisoning to general air pollution to 
indoor air quality to asthma and seat belt use. The NSC has gained 
considerable experience in this community as a result of these efforts.
    The economic security of the U.S. is dependent on a productive, 
well trained and skilled workforce. Immigrants occupy an increasingly 
large portion of the U.S. workforce. The NSC has devoted significant 
resources to activities in the Hispanic community. Some of the factors 
influencing that decision include:
    <bullet> The Hispanic population in the U.S. rose 58% over the past 
decade.
    <bullet> Hispanics make up about 12 percent of the population.
    <bullet> Nearly 1 of every 4 Americans will be Hispanic by the year 
2050.
    <bullet> Many Hispanics work in lower-skilled and lower-paid 
sectors.
    <bullet> Hispanics make up 10% of the workforce but account for 12% 
of work fatalities.
    <bullet> From 1999 to 2000, construction fatalities for Hispanic 
workers increased 24%.
    <bullet> Since 1992, fatal injuries for Hispanic workers have 
steadily increased.
    Most immigrants come to the United States in search of opportunity 
to earn an income to benefit their families in their native countries. 
Frequently, when immigrants enter the United States, they are virtually 
``on their own,'' with little or no organized support and assistance 
available to them.
    The first cultural barrier many immigrant workers face is that most 
do not understand English. This lack of English literacy limits the job 
opportunities available to immigrants, which serves as a barrier that 
prevents them from rising out of poverty or near poverty conditions. 
Workers who are disadvantaged by limited education in their own 
language usually get by with instructions and job-related information 
from their peers, who usually know only a little English. Therefore, 
most of the information they receive is second hand and has usually 
been tempered by another immigrant with limited understanding of the 
instructions and information.
    Cultural factors compound the difficulties when immigrants enter 
the work force. When workers are unable to fully understand the 
requirements of their job because of language or cultural limits or 
lack the technical skills needed to perform tasks or operate machinery, 
mistakes are likely to occur. Many of these workplace mistakes result 
in serious workplace injuries and illnesses.
Lessons Learned From Previous Efforts
    Having worked in the Hispanic community, the NSC has learned a 
number of things that may be useful for immigrants in general:
    1. Simply translating safety and health material into a native 
language is not sufficient. Often immigrants are not literate in their 
own language.
    2. Literal translations often fail to take into consideration 
cultural issues.
    3. Small and medium-sized employers often don't have the capability 
to adequately assess immigrant workers' skill and experience levels.
    4. It is important to involve people who are members of the 
targeted minority audience in every stage of the development of 
education and outreach materials and activities.
    5. There is a demand among Hispanic community-based organizations 
and other mainstream institutions for more user-friendly, culturally-
sensitive, and linguistically-appropriate information for health 
educators and promoters.
    6. Partnering with groups and organizations with existing ties to 
the target community is very beneficial in developing programs and 
research.
    7. Through its initiatives to educate the Latino community about 
lead poisoning and other public health and environmental matters, the 
NSC learned that a Spanish language campaign built from scratch was 
critical. Words, messages and images that are appropriate for 
Caucasians or African-Americans will not necessarily convey the same 
meaning or be acceptable to Latino audiences. Literal translation does 
not work well.
What Is Needed
    The National Safety Council believes that a great deal is required 
to address the health and safety needs of immigrant workers. Systems, 
processes, materials, tools, and training programs are needed to help 
employers assess the job skills of immigrant workers and educate those 
with limited English proficiency and low-levels of literacy. We need to 
find ways to address this complex challenge with little or no overlap 
and duplication of effort.
    1. Determine, on a sector-by-sector basis, the common risks and 
hazards, injury/illness data, and needs of immigrant workers, 
especially those with limited English proficiency and a low-level of 
literacy.
    2. Develop occupational safety and health management systems and 
Spanish-language programmatic materials, with special attention to 
those workers with limited English proficiency and a low-level of 
literacy.
    3. Establish a delivery system, which could include NSC Chapters 
and community colleges.
    4. Establish an infrastructure for the delivery of technical 
services to small businesses and community-based organizations.
    5. Create technology-based learning and job tools and delivery 
infrastructure (NSC Chapters, community colleges, trade schools, and 
high schools, etc.) to standardize training and evaluation.
    6. NSC also believes that research is needed to determine various 
aspects of the issue.
    There is no lack of data on the occupational mortality experience 
of the Hispanic immigrant workforce. The Bureau of Labor Statistics, 
NIOSH, and OSHA can identify objectively the priority occupational 
safety and health problems affecting these workers. What is not 
adequately understood are the cultural barriers, language inhibitors, 
and the workers' own views, knowledge, and attitude toward the safety 
and health risks in their working environment. This latter information 
is critical in understanding the current awareness level and the 
potential behavior change motivators needed.
    The National Safety Council believes that a major national effort 
is needed to address the significant problems associated with the 
health and safety of immigrant workers. This effort requires a national 
strategy that eliminates overlap and duplication and relies on 
coalitions and partnerships, involving government, non-governmental, 
and private-sector organizations.
    This effort will require an infrastructure to deliver the products 
and services to workers, communities, and community-based organizations 
in a culturally sensitive way that recognizes the literacy and skill 
levels of immigrants. Also needed will be a focus on expanding the 
capacity of community-based organizations to provide occupational 
safety, health, and environmental stewardship services to Hispanics. 
Forums to measure the progress of these efforts, document successes, 
and conduct follow-up activities--such as those provided by the NSC's 
Hispanic Forum--should be an important aspect of this national 
imperative. Thank you for the opportunity to present this testimony.

    Senator Wellstone. We will finish, last but not least, with 
Mr. Henriquez, and then start with Senator Clinton's questions 
to the panelists.
    Thank you, Mr. Henriquez.
    Mr. Henriquez. Thank you, Mr. Chairman, Senator Clinton, 
fellow brothers and sisters from the labor movement, and my 
fellow immigrant workers.
    I am Omar Henriquez, the coordinator of the Youth and 
Immigrant Project of the New York Committee for Occupational 
Safety and Health, NYCOSH.
    I would just like to say that I am going to speak slowly 
because I want to be sensitive to the interpreter, if I could.
    NYCOSH is part of the National COSH Network, a network of 
22 similar nonprofit safety and health training and advocacy 
organizations located in 17 States.
    While it is an honor to have this opportunity to testify, 
the conditions that bring me here are nothing to be proud of. 
There is nothing honorable in immigrant workers having to 
sacrifice their lives in record numbers while they contribute 
to the economic well-being of this great Nation. Nor can we be 
proud of depriving this colossal work force of the most basic 
safety and health protections granted to every other worker in 
America.
    We are hired to do the most undesirable and dangerous jobs 
at the lowest wages. We often do not know what rights we have 
or what law protects us, and we receive no training in safety 
and health. Language and cultural barriers make it difficult to 
learn of our rights, and particularly those who lack 
immigration status are fearful to speak out. We are considered 
``disposable'' and therefore easy to exploit.
    Immigrant workers, though supplying needed resources to 
keep America growing, are not granted the most basic rights 
that other workers enjoy. Nowhere is this more evident than in 
the occupational safety and health of immigrant workers.
    NYCOSH has a great deal of direct experience with the lack 
of safety and health protections for immigrant workers. Most 
recently, NYCOSH has collaborated with two other nonprofit 
organizations to operate a mobile medical unit which offers 
free medical examinations, training, and respiratory protection 
to the thousands of nonunionized, overwhelmingly immigrant 
workers who have been hired to clean up dust and debris in the 
buildings surrounding the World Trade Center.
    Ninety-nine percent of the day laborers who have been 
examined have symptoms of exposure to dust that is irritating 
to the respiratory system. Identifying such a large number of 
workers with respiratory distress is a very strong indication 
that the day laborers are receiving no safety and health 
training and that the OSHA regulations and enforcement intended 
to protect them are inadequate.
    As you know, the Susan Harwood Training Grant program was 
put in place by Congress and the U.S. Department of Labor to 
ensure that sufficient resources be devoted to providing safety 
and health training to immigrants and other vulnerable workers. 
Congress has provided full funding for the third year of this 
5-year program, but OSHA is planning to cancel this program 
after year two, terminating programs that have a proven record 
of educating and training these vulnerable workers. With funds 
provided by the Susan Harwood Training Grant, the National COSH 
Network has trained over 6,000 vulnerable workers in 15 months, 
accomplishing over 200 percent of our training goals.
    We were not only able to train this vulnerable and 
underserved population in a personal and humane manner, but in 
addition, our average efforts were able to forge alliances and 
working relationships with numerous immigrant organizations in 
our areas. These relationships produced, for example, a first-
time meeting between OSHA and immigrant organizations in Long 
Island. But most important, by working with immigrant 
organizations that already have the trust of immigrant workers, 
we were able to assist a local organization to file an OSHA 
complaint on behalf of an immigrant worker who had been exposed 
to toxic chemicals in his workplace. This case resulted in OSHA 
issuing the company multiple serious violations, fines, and 
ordering it to change its unlawful practices.
    Since I was part of this effort, I can tell you with 
absolute confidence that no amount of written material, web-
based education, toll-free hotlines, or partnerships such as 
those being proposed will replace the hands-on training that we 
deliver under this grant.
    I make the following recommendations on behalf of the COSH 
group. We are opposed to any effort, however well-intended, 
that excludes a significant number of immigrant workers. OSHA's 
initiatives for Hispanic workers are commendable and necessary; 
however, these initiatives do not include other immigrant 
groups that are also a part of the labor force. A Spanish 
language hotline and web page are useful only to those who 
speak and read Spanish, but not to hundreds of thousands of 
other workers from Russia, China, Korea, Vietnam, Haiti, and 
dozens of other countries to whom we will have very little 
access. And for those with limited literacy and for the 
majority who do not have access to the Internet, the web page 
will not be useful.
    Under the training grants that we now have--but which we 
will lose if Congress adopts the President's proposed Labor 
Department budget--we had the flexibility to train immigrant 
workers in their native languages at a level that was 
appropriate and in a style that was most effective for the 
learning process.
    Second, OSHA must hire enforcement officials who are fluent 
in languages other than English and come from immigrant 
communities. OSHA cannot protect immigrant workers if they 
cannot communicate with them.
    Third, OSHA must increase its efforts to effectively 
enforce the requirement that employers report workplace 
fatalities within 8 hours. How can OSHA properly investigate 
fatalities that it never learns about, or learns about days or 
weeks after they occur?
    Fourth and finally, OSHA must impose meaningful fines that 
serve as a strong deterrent to violators. For example, after 
investigating the death of an immigrant worker in the vicinity 
of the World Trade Center, OSHA reduced its initial $4,000 fine 
to only $100--a mere slap on the wrist for a violation that 
strikes at the heart of OSHA's ability to protect workers.
    For many years, NYCOSH has questioned the effectiveness of 
training nonunion workers about their rights under the OSH Act, 
because in far too many cases, attempts by nonunion workers to 
exercise those rights have led to their being fired. Now we are 
beginning to make progress on this important front, but without 
strong enforcement, stringent standards, and education for all 
workers, OSHA will be more like a lapdog than a watchdog.
    Thank you very much.
    [The prepared statement of Mr. Henriquez follows:]

                  PREPARED STATEMENT OF OMAR HENRIQUEZ

    Mr. Chairman, and members of the Committee: I am Omar Henriquez, 
the coordinator of Youth and Immigrant Project of the New York 
Committee for Occupational Safety and Health (NYCOSH).
    NYCOSH is a private, non-profit, union-based health and safety 
organization located in Manhattan. Over 200 local unions in the 
metropolitan area are members of NYCOSH, as are several hundred 
individual workplace health and safety activists, health care 
professionals, and workers' compensation attorneys. NYCOSH has been 
providing technical assistance and comprehensive training in 
occupational safety and health to unions, employers, government 
agencies, and community organizations for over twenty years.
    NYCOSH is part of the National COSH Network, a national network of 
22 similar non-profit safety and health training and advocacy 
organizations, located in 17 states,
    While it is an honor to have this opportunity to testify, the 
conditions that bring me here are nothing to be proud of. There is 
nothing honorable in immigrant workers having to sacrifice their lives 
in record numbers while they contribute to the economic well-being of 
this great nation. Nor can we be proud of depriving this colossal 
workforce of the most basic safety and health protections granted to 
every other worker in America.
    It is estimated that between twenty-eight and thirty million 
immigrants live in the United States, slightly more than 10.4% of the 
U.S. population.\1\ Ninety percent of these are of working age.\2\ In 
the large immigrant states, three out of every four tailors, cooks, and 
textile workers are immigrants.\3\ And nationally, the majority of taxi 
drivers, garment, agricultural and domestic workers are immigrants.\4\
---------------------------------------------------------------------------
    \1\ Urban Institute, Tabulations of 1990 Census and March 1999 
Current Population Survey.
    \2\ Current Population Survey, March 2000.
    \3\ Findings from the National Agricultural Workers Survey, 
Research Report No.8, 13 U.S. Dept. of Labor.
    \4\ Id.
---------------------------------------------------------------------------
    As workers, immigrants have a disproportionate rate of accidents 
and fatalities in the workplace. We are hired to do the most 
undesirable and dangerous jobs at the lowest wages. We often do not 
know what rights we have or what laws protect us and we receive no 
training in safety and health. Language and cultural barriers make it 
difficult to learn of our rights and particularly those who lack 
immigration status are fearful to speak out. We are considered 
disposable and therefore easy to exploit.
    Immigrant workers, though supplying needed resources to keep 
America growing, are not granted the most basic rights that other 
workers enjoy. Nowhere is this more evident than in the occupational 
safety and health of immigrant workers. For instance, Latino workers, 
who comprise 11 percent of the U.S. labor force, experienced 14 percent 
of the fatal occupational injuries in 2000, up from 11.4 percent in 
1994-1999.\5\ According to the U.S. Bureau of Labor Statistics 
nationwide in the year 2000, 849 foreign-born workers were killed on 
the job, of these 494 or 58 percent were of Latino origin.
---------------------------------------------------------------------------
    \5\ Newsday, Thomas Maier report Death on the Job July/2001.
---------------------------------------------------------------------------
    NYCOSH has a great deal of direct experience with the lack of 
safety and health protections for immigrant workers. Most recently, 
NYCOSH has collaborated with two other non-profit organizations to 
operate a mobile medical unit, which provides free medical 
examinations, training and respiratory protection to the thousands of 
non-unionized, overwhelmingly immigrant workers who have been hired to 
clean up dust and debris in businesses, and apartments and institutions 
that are located adjacent to the World Trade Center.
    The mobile medical unit began operations on January 14. Since then, 
physicians who specialize in occupational medicine have examined 
approximately 350 non-unionized day laborers--the vast majority of them 
immigrants--who have been employed in the clean-up effort near tile 
World Trade Center. Virtually every worker who we have examined (more 
than 99 percent) has symptoms of exposure to dust that is irritating to 
the respiratory system. Of course, we know that workers who have not 
experienced any health problems are not likely to come to our unit for 
an examination, but identifying such a large number of workers with 
respiratory distress is a very strong indication that the day laborers 
are receiving no safety and health training, or training that is 
inadequate, that the OSHA regulations intended to protect them are 
inadequate, and the enforcement of those regulations is inadequate.
    We are very pleased that OSHA has recently decided to declare lower 
Manhattan to be a Local Emphasis Program site, and thereby step up its 
inspection activity in the area, but we would like to emphasize that 
OSHA's decision to do so results in a large part from the results of 
outreach that NYCOSH has done that was funded by this year's Susan 
Harwood Training Grant.
    As you know, the Susan Harwood Training Grant program was put in 
place by Congress and the U.S. Department of Labor to insure that 
sufficient resources be devoted to providing essential safety and 
health training to workers who have an exceptionally great need for it, 
including immigrant workers and other vulnerable workers.
    But in his latest budget request for OSHA, President Bush has 
proposed reductions in the very programs that have a proven record of 
educating and training these vulnerable workers from $11.2 million to 
only $4.0 million. The President's budget proposes to eliminate OSHA's 
very successful Susan Harwood Training Grant program.
    With funds provided by a Susan Harwood Training Grant, the National 
COSH Network has trained over 6,000 vulnerable workers in 15 months, 
accomplishing over 200 percent of our training goals. Since I was a 
part of this effort, I can tell you with absolute confidence, that no 
amount of written material, web-based education, toll-free hotlines or 
partnerships, such as those being proposed, are going to replace the 
hands-on training that we deliver under this grant.
    We were not only able to train this vulnerable and underserved 
population in a personal and humane manner, but in addition, our 
outreach efforts were able to forge alliances and working relationships 
with numerous immigrant organizations in our areas. These 
relationships, for example, produced a first time meeting between OSHA 
and immigrant organizations in Long Island, (See Newsday article.) But 
most importantly, by working with immigrant organizations that already 
have the trust of immigrant workers, we were able to assist the 
organization We Make the Road by Walking in Brooklyn, to file an OSHA 
complaint on behalf of an immigrant worker who had been exposed to 
toxic chemicals in his workplace. This case resulted in OSHA issuing 
the company multiple, serious violations, fining it thousand of dollars 
and ordering it to change it's unlawful practices. (See attached 
letter.)
    We are pleased that Secretary Chao and OSHA have acknowledged that 
there is a special need to protect immigrant workers. And, while OSHA's 
initiatives to protect Hispanic workers are commendable and necessary, 
these initiatives do not accommodate or include other immigrant groups 
that are also a part of the labor force. A Spanish language hotline and 
web page are useful only to those who speak and read Spanish. However, 
for those who speak other languages these services will not help. And 
for those with limited literacy, and for the majority that do not have 
access to the Internet, the web page will not be useful. Under the 
training grants that we now have, but which we will lose if Congress 
adopts the President's proposed Labor Department budget, we had the 
flexibility to train immigrant workers in their native languages at a 
level that was appropriate and in a style that was the most effective 
for the learning process. We have translated multilingual materials, 
thanks to organized labor. We are opposed to any effort, however well-
intended, that excludes a significant number of the workers that need 
the information.
    New York and in many cities throughout our country, there is an 
enormous need for more OSHA enforcement officials who are fluent in 
languages other than English. The protection afforded to workers by the 
Occupational Safety and Health Act is particularly important to the 
most vulnerable members of the workforce, including those who do not 
speak English. OSHA cannot adequately protect those workers if it 
cannot communicate with them. OSHA has an affirmative obligation to 
hire enough bilingual compliance officers and translators in order to 
order to insure that all workers enjoy the protection of the OSH Act.
    Thanks to the Susan Harwood Grant to the National COSH Network, we 
have recently been able to reach out to tens of thousands of workers to 
which we had previously had very little access. But there are many 
hundreds of thousands of other workers, immigrants from Russia, China, 
Korea, Vietnam, Haiti and dozens of other countries that we still have 
very little access to. To far too great an extent, OSHA is in the same 
predicament.
    OSHA must increase its efforts to effectively enforce the 
requirement that employers report workplace fatalities within eight 
hours. How can OSHA properly investigate fatalities that it never 
learns about, or learns about days or weeks after they occur? Just last 
month OSHA learned of the death of an immigrant worker doing clean-up 
work in the vicinity of the World Trade Center. When OSHA investigated 
and confirmed the fatality, it proposed to fine the employer $4000, a 
sum that might have the effect of deterring another employer from a 
similar violation. But then OSHA agreed to reduce the fine to $100, a 
mere slap on the wrist for a violation that strikes at the heart of 
OSHA's ability to protect workers.
    Last year, on the average, OSHA fined employers that failed to make 
timely reports of fatalities more than $1,250 for each violation. Those 
penalties could have been substantially higher, but even a $1,250 fine 
is far better than a $100 fine. It is troubling, however, that OSHA 
issued a total of 143 citations for failure to report a fatality last 
year, a number that is much lower than the total number of fatalities 
that were not reported to OSHA.
    For many years, NYCOSH has questioned the effectiveness of training 
non-union workers about their rights under the Occupational Safety and 
Health Act, because, in far too many cases, an attempt by a non-union 
worker to exercise those rights has been tantamount to asking to be 
fired. Now we are beginning to make progress on this important front, 
but without strong enforcement, stringent standards and education for 
workers, OSHA will be more like a lapdog than a watchdog. Thank you for 
this opportunity to make our views known.

    Senator Wellstone. Thank you very much, Mr. Henriquez. That 
was very powerful.
    Senator Clinton?
    Senator Clinton. Thank you.
    I want to thank all of the witnesses. I am especially proud 
that three of the witnesses are from New York, and I am very 
pleased that they could be here to express not only their 
observations and experiences but really, those of thousands and 
thousands of people whom you represent.
    And I want to thank Mr. Henriquez for a very effective 
statement. We will take each of your recommendations and work, 
using those as a basis for the action that we believe should be 
taken. I agree with you completely that the proposed budget 
would not continue to support the kind of comprehensive 
approach that you have found to be successful.
    I also applaud you for the work that you have done with 
respect to the World Trade Center. It is especially troubling 
that we have anyone who has been exposed to any kind of bad air 
quality or particulate matter that has caused asthma and 
respiratory disorders, but I know that I have worked with the 
fire department and the police department and some of the 
hospitals about how we are going to care for the people who 
were in the immediate vicinity of the World Trade Center on 
September 11 and who have continued to work there.
    But what has been mentioned by you wish respect to NYCOSH's 
experience are the undocumented workers, the day laborers, who 
did not volunteer, did not know what they were getting into, 
were not given adequate advice and protection.
    I understand that you are operating a mobile medical unit 
for these workers, and I thank you for that. As you know, I 
held a hearing on the air quality issues on February 11, and I 
spoke about the problems of the undocumented workers with Dr. 
Levin from Mount Sinai. One thing that I hope we can work on 
together is how we can do a better job to establish a registry 
or a health tracking system and provide the treatment that 
immigrant workers need. Perhaps we can have a follow-up with 
you on that and really make a good effort with your 
extraordinary interventions to make sure it is not just what we 
do today but how we try to follow these people in the future.
    So I look forward to any suggestions you might have about 
that, Mr. Henriquez.
    Mr. Henriquez. I will be more than happy, and I look 
forward to doing that.
    Senator Clinton. Thank you very much.
    Mr. Jackson, I really appreciate your being here and the 
work that the National Safety Council does. It sounds as though 
your approach is more like what Mr. Henriquez has recommended, 
that it is more focused on the cultural and linguistic 
differences. Yes, the majority of the workers who are 
undocumented in our country or who are immigrant day laborers 
are Hispanic, but they are not the only group. We have, as Mr. 
Henriquez very well stated, people from many other countries. 
We also have immigrants from Central America who do not speak 
Spanish very well. They come with a different language. So we 
have some very specific challenges, and it sounds as though 
that is the approach that you take in the Council. Is that 
correct, Mr. Jackson?
    Mr. Jackson. Yes, Senator. One of the experiences that we 
have in working specifically with the Hispanic community is 
learning that to be successful in developing any kind of safety 
and health training program, or any other for that matter, is 
to utilize the strengths of the community to develop those 
programs. And as I said in my statement, outreach to the 
nonprofits and nongovernment organizations is what we attempt 
to do when we are developing the programs.
    Yes, you are absolutely right about other languages coming 
out of South America, for example, Portuguese in Brazil. My 
experience many years ago as a safety professional at a mine in 
Arizona was that I was quite surprised when I learned that 
while Spanish was the tongue of the work force and the tongue 
in the home, and speaking Spanish was predominant in the work 
force, when I talked to them and asked if it would be better to 
have the safety programs in Spanish, they said yes; and when I 
asked if it would be better to have the safety training 
materials in Spanish, they said, ``No. We do not read 
Spanish.'' And that was the preponderance of the work force 
there.
    So yes, there are many variables that we have to deal with.
    Senator Clinton. And as gratified as I am with the 
Department of Labor's new emphasis on Hispanic workers, I think 
we have to expand and deepen that, and I will look to experts 
like Mr. Jackson and Mr. Henriquez to make sure that we get the 
best possible recommendations to pass on to DOL and for any 
legislation that we propose. That is essentially one of the 
challenges that I have learned that we face in this area.
    I want to thank Mr. Maier again for his extraordinarily 
powerful reporting. I am amazed, reading your series, at what 
kind of access you had; the fact that you were able to overcome 
what I am sure were barriers and discomfort among employers and 
employees to discuss the problems. Do you have any suggestions 
for us as we attempt to get a better understanding of the 
overall issues that we face?
    Mr. Maier. Senator Clinton, as you undoubtedly realize, as 
a journalist, it is really not my place to suggest measures. 
That is for people like yourself.
    The difficulties that we had were myriad, from literally 
being thrown out of workplaces when we asked employers about 
the conditions. I guess one of the most poignant aspects of the 
whole story was just talking to some of the families, the 
people who are left trying to deal with the rest of their 
lives. Dealing with the loss of a loved one was very, very 
difficult.
    Newsday is a paper that has the resources and the time to 
make that effort, and I am just very proud that they committed 
Newsday as an institution to exploring it as thoroughly as we 
could go.
    Senator Clinton. I am, too, and I commend Newsday as well 
as your own journalistic efforts. The only regret I have is 
that we are still discovering and writing about these issues.
    The first hearing I ever worked on was in 1970, when Walter 
Mondale held a hearing to look into the conditions of farm 
workers 10 years after the ``Harvest of Shame.'' I think Mr. 
Rodriguez remembers that. It was a real eye-opener and a very 
painful experience to get the testimony of so many farm workers 
from Florida to California, especially in light of what had 
been a devastating indictment in the portrayal of the way that 
farm workers were treated in the 1960 special by Edward R. 
Murrow, ``Harvest of Shame.'' And there we were 10 years later, 
and conditions had not improved that much. And now here we are, 
32 years later, and we are still dealing with the same issues. 
So I think it is a real wake-up call, because it is not 
something that we should just shrug our shoulders over and say 
that is the way it is.
    Of course, one of the principal reasons why any improvement 
has been made, particularly in California, is because of the 
United Farm Workers. The UFW, under very good leadership over a 
number of years, has made a difference in the lives of farm 
workers. I wish we could see the same kinds of reforms 
nationwide that have been pioneered in California.
    But I wanted to salute Mr. Rodriguez on behalf of all the 
farm workers for 40 years for very effective advocacy and 
reform.
    I am particularly interested in the changes that California 
has brought about legally in the last several years, and I 
would hope to get more information from you about that, and we 
will submit some written questions. I think those are good 
examples of what could be done nationally. Certainly the 
environment in California is one that has been difficult, but 
the changes that have occurred have not undermined the 
agricultural sector in California, and I think we can learn a 
lot from what you have done.
    The second area I want to ask you to expand on a little bit 
is that I am very interested in the link between the 
environment and health, and no one is a better source of 
knowledge about that than our farm workers because of their 
exposure to pesticides. The high cancer right that you cited in 
your testimony--do you have additional information that you can 
provide us that we can use, not only for the purposes of this 
hearing, but also for other work that we are doing in regard to 
the environment and health?
    Mr. Rodriguez. First of all, Senator Clinton, we would be 
more than happy to share with you whatever we have been able to 
accomplish, although as you have mentioned, it is very meager 
in comparison with what the real issues and real problems are.
    Specifically with regard to pesticides and use of 
pesticides, there have been a number of cancer clusters that we 
have been able to find and locate there, especially after Cesar 
Chavez did his fast in 1988. In particular, there was the 
discovery of a cancer cluster in McFarland, CA in the San 
Joaquin Valley, in Earlimart, CA, and Fowler, CA, where the 
childhood cancer rate was extremely beyond what it was on a 
national basis. We have always thought there was a direct 
connection between those childhood cancer rates and the 
environment, because they were all surrounded by agricultural 
fields, whether it be table grapes, tree fruit, or cotton. 
However, it was never possible to actually demonstrate that or 
prove that in a scientific study.
    But we were very encouraged by Dr. Paul Mills' study that 
was completed last year and has come out. As a result of all 
the work that we have done throughout the years, in 1987, I 
believe, it was finally legislated that there be a cancer 
registry set up in the State of California. It was through that 
that Dr. Paul Mills developed this study and utilized our data 
to find out and determine what the effects and impacts were of 
farm workers working out in the environment and the rates of 
cancer. So those astounding findings came out at that 
particular time.
    We are working with Dr. Paul Mills to continue that effort, 
to expand it. We are looking for other ways to get other 
materials so that not only can we document this, but we can 
demonstrate to the agricultural community as well as to the 
community at large, particularly to the legislators, the need 
for continuing to work to ban a number of different, currently 
carcinogenic and teratogenic pesticides that are being used in 
agriculture.
    So we look forward to continuing to work with you and with 
others certainly in terms of dealing with it not only on a 
statewide basis but hopefully on a very national scope, 
protecting farm workers and protecting the environment as well 
and, most importantly, protecting consumers, because we are of 
the belief that it not only impacts the farm worker who comes 
in direct contact with these pesticides and chemicals, but it 
certainly does have an impact on the consuming population 
within our Nation as well.
    Senator Clinton. I agree with you 100 percent, and next 
week, I will be chairing a hearing about a health tracking 
proposal that I have been working on with Senator Harry Reid 
and others so that we can begin to track these cancer clusters, 
these asthma clusters, these outbreaks that we can correlate 
with environmental impacts.
    I held a hearing on Long Island last summer about the high 
rate of breast cancer on Long Island. We know that there are 
reasons. We cannot yet pinpoint all of them, but we are 
beginning to make progress, and I believe we should put some 
significant resources into tracking chronic disease the way we 
track infectious disease. And that has a direct impact on the 
workers who are represented here, who are often the ones most 
exposed to toxic chemicals, to pesticides, to other unsafe 
conditions.
    So I think that this is a big piece of it, and I thank you 
for mentioning it in your testimony today.
    Finally, Ms. Liao, thank you so much for being here this 
afternoon and for telling us your story. I am going to take 
your suggestions very seriously, and I will do two things. I 
will write a letter to the Governor, because of course, the 
State runs the workers' compensation system, and I will have my 
office call the workers' compensation officials to find out if 
there is any way that we can expedite your particular case. I 
think it is disgraceful that you have waited all these years, 
and we will see what we can do to try to help.
    And certainly I know that many people are in your position. 
As we heard from the testimony of others, the worker's comp 
system does not respond as quickly as it needs to given the 
difficulties that people face when they have been injured.
    Second, I will ask for the GAO to conduct a study that 
looks at the shortcomings of our State workers' compensation 
systems when it comes to undocumented workers, immigrant 
workers, day laborers, so that if there are changes that we can 
recommend, we will have that information.
    I thank you for bringing both of those issues to our 
attention and for traveling to be part of this important 
hearing. Thank you very much, Ms. Liao.
    Thank you, Mr. Chairman.
    Senator Wellstone. Let me thank all of you as well. I am 
going to be relatively brief, because everyone has been here 
for a long time.
    Ms. Liao, I also thank you for your testimony. You said at 
one point in your written testimony that you were ``sick and 
tired of being sick and tired.'' Those were the words of Fanny 
Lou Haemer many years ago, and it puts you in a great tradition 
of courageous women fighting for economic justice. As a United 
States Senator and chair of this subcommittee, it is an honor 
to have you here today.
    President Rodriguez, as I understand it, in California and 
some other States, the short-handled hoe has been outlawed just 
because of the effect on the back; it is just back-breaking to 
do the work. Now I understand that some employers are insisting 
that rather than using a regular hoe, the farm workers should 
just stoop over and pull the weeds by hand.
    Are you familiar with this? Is this the case? I have had 
this note handed to me, and I am looking at it, thinking this 
cannot be true. Is this true?
    Mr. Rodriguez. Unfortunately, Senator Wellstone, it is 
true, and very briefly, I just want to describe it. This was 
something that was utilized throughout the early part of the 
last century and all the way up to 1974.
    The agricultural community obligated us as farm workers to 
use a hoe that was about a foot long, and their rationale had 
always been that that was the only way that we could accurately 
remove weeds that were growing between lettuce plants or cotton 
plants in a field, and we had to be close to the ground to be 
able to do that.
    Consequently, as a result of that, there were extremely 
high rates of back injuries and other kinds of injuries that 
were incurred by farm workers because of the use of that short-
handled hoe.
    Finally, in 1974, we were able to ban its use via the work 
of Cesar Chavez and Dolores Huerta and our organization. But 
now, for whatever reason, 26 years later, the agricultural 
community is coming back and saying, well, if you cannot use 
the hoe, maybe you can use a knife or your hands to pull out 
the weeds. They are reverting back to the same or worse system 
now than was implemented back in the thirties and forties and 
fifties and sixties.
    We are totally awed at the ability of these folks to come 
before the legislature in California and in other States and 
actually try to rationalize why we as farm workers, as migrant 
workers, as pickers of fruits and vegetables would revert back 
to a system that has proven serious damage to individuals 
throughout the agricultural and farm worker community.
    So that unfortunately, it is an attempt being made by the 
agricultural industry right now. We are fighting it in the 
State of California, and we are also fighting it in other 
States like Texas, Arizona, here on the East Coast, North 
Carolina, Florida, to prevent that type of work being done 
where, again, farm workers would have to remove weeds via their 
hands or via a knife to pull them out of the dirt.
    Senator Wellstone. Farm workers removing weeds by hand or 
by knife in the year 2002 is just unbelievable.
    Mr. Maier, on the Omni Recycling case in Long Island, NY--
they were the subject of an OSHA investigation following the 
death of Fredi Canales, who was a garbage picker from El 
Salvador--during the investigation, OSHA discovered many safety 
violations. In total, there were 16 serious safety violations. 
In response, OSHA fined Omni Recycling $28,250. However, that 
fine was reduced to $20,000 with the provision that Omni would 
fix all the serious safety violations.
    The following year, 20-year-old Gabriel Nunez, also an 
employee of Omni Recycling, died tragically on the job. OSHA 
once again investigated the working conditions at Omni and 
again found serious violations. This time, OSHA only fined Omni 
$16,000.
    So my question is why would OSHA fine Omni Recycling $4,000 
less for the second violation, especially considering that Omni 
Recycling never corrected the violations from the previous 
year. Can you shed any light on that?
    Mr. Maier. Not a great deal, simply because one of the 
reasons why we chose that circumstance was for precisely the 
reason that you get at with your question. When we tried to say 
what example we were aware of in the New York metropolitan 
area--and frankly, there were a number of them; there was a 
case in Brooklyn where a worker drowned in cement when the 
building collapsed, there was recently a scaffolding collapse 
where five immigrant workers died and 14 were injured--but for 
our purposes, in many ways, this particular example illustrate 
so many themes including what you are getting at, what appear 
to be very low OSHA fines and a policy that certainly we felt 
deserved a lot of attention.
    Senator Wellstone. Well, these fines do not seem to be 
either an adequate form of punishment or a deterrent.
    Let me ask you one other question. On what do you base your 
conclusion that immigrant deaths go uninvestigated by OSHA?
    Mr. Maier. Essentially, we took a database from the Bureau 
of Labor Statistics, their Census of Occupational Fatalities--
and one of the great powers of journalism these days is the 
ability of computer-assisted reporting to take large chunks of 
data and to examine it--so we essentially took a list of the 
Bureau of Labor Statistics fatalities and we compared them with 
a number of OSHA investigation in not only the same years but 
in the same categories. And then, by the simple deduction of 
looking at, say, if there were 150 deaths, how many actual OSHA 
investigations occurred, that is where we found that over 800 
deaths nationwide were not investigated by the Government. Even 
though BLS had reported those as immigrant workplace deaths, 
OSHA never investigated them.
    Senator Wellstone. Eight hundred deaths nationwide not 
investigated by the Government.
    Mr. Maier. Yes. This was over the 6 years that we examined.
    Senator Wellstone. That is damning.
    Let me finish by asking Mr. Jackson and Mr. Henriquez--and 
I feel, Mr. Henriquez, that you should give the final word. I 
hope you do not think it was plagiarizing; it was your 
testimony that I used at the beginning because I thought it was 
so powerful about ``disposable''----
    Mr. Henriquez. As a matter of fact, I was very honored.
    Senator Wellstone. Thank you.
    Let me ask both of you as we come to the conclusion of the 
hearing, in terms of courses of action, what would each of you 
list as your top two or three priorities?
    Mr. Jackson. Let me go ahead if Mr. Henriquez is going to 
have the last word--and I do not think there is any plagiarism 
in this town, anyway.
    One thing that we say in our testimony is there needs to be 
a national program to look at the entire problem, and that is 
across agencies. That includes OSHA, MSHA, the Department of 
Labor's Employment and Training Administration, NIOSH, CDC--all 
of these agencies--to come together and look at what can be 
done in a broader scale. And then, as I say in my testimony, 
there must be outreach in public-private partnership to see if 
we cannot address some of these problems as we do in the 
Hispanic Forum that we put together to address these problems.
    So I think there are several levels that have to be 
initiated, but first, it has to be on a national scale.
    Mr. Henriquez. What we have been doing--and I started it in 
NYCOSH as a pilot program--is to outreach to immigrant 
communities that already work with immigrants and train them 
first, because we found that most immigrant organizations do 
work with immigrants but do not have a knowledge of safety and 
health. So we provide the training to them, in partnerships, as 
a bridge to reach the workers.
    I tend to think that when we say penalties for not 
reporting deaths, we assume that there are deaths. What I would 
like to see is a reduction of fatalities. So of course, I 
advocate for higher penalties, but that is after the fact. One 
worker dead is too many, but I think that the continuation of 
the programs that we have been working with is an effective 
way, and also to be reminded that Latino workers--although we 
have the highest rate of fatalities--are not the entire 
universe of the labor force. We must be considerate and 
sensitive to other workers--Chinese workers in New York have a 
great need to be provided with safety training--and again, it 
is training that is done in a personal and humane way. You go 
to the communities, and you provide that service.
    Senator Wellstone. Senator Clinton?
    Senator Clinton. Let me thank you all again for coming. I 
know that there are many people here from New York, and what I 
am hoping is that when the chairman officially ends the 
hearing, I would like to come down and meet as many of you as I 
can. I was hoping to do that later, but there are so many of 
you that I cannot get all of you into my office, so I will just 
do it here, and that way, I will get to see everybody, and you 
may be able to get out of here and on your way home a little 
sooner.
    I want to thank Senator Wellstone, who is a great champion 
of working people. I have to say that he may be short in 
stature, but he is a giant when it comes to----
    Senator Wellstone. I am as tall as you are.
    [Laughter.]
    Senator Clinton. [continuing]. I am not sure that is 
right--but he is a giant when it comes to what really matters, 
and he certainly has a heart as big as this room.
    So I want to thank him for convening this hearing. I want 
to thank Senator Enzi who also has a great interest in these 
issues, and particularly I want to thank Senator Enzi for 
making sure that Mr. Jackson was on this panel; I think that 
was a very, very useful addition to our panel.
    I look forward to working with all of you as we begin to 
deal with a lot of these problems, and maybe we will not have 
to keep holding hearings like this one in the years to come if 
we try to do the work right now.
    Thank you very, very much.
    Senator Wellstone. I want to thank Senator Clinton for her 
kind words. We have held a couple of these Subcommittee 
hearings, and I really look forward to working with Senator 
Clinton; it is great that she is here in the U.S. Senate.
    I would like to thank Senator Enzi as well, and I want to 
announce that we will leave the record open for 2 weeks. This 
has been very powerful, riveting testimony. A lot of you came 
from a good distance, and we thank you for your commitment, and 
we want to make it clear to you that you have our commitment.
    This Hearing of the Subcommittee on Employment, Safety and 
Training of the Health, Education, Labor, and Pensions 
Committee is adjourned. Thank you, everyone.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

              PREPARED STATEMENT OF THE HUMAN RIGHTS WATCH

    Mr. Chairman, and members of the Committee: Human Rights Watch 
appreciates the opportunity to submit this testimony regarding health 
and safety concerns facing child farmworkers in the United States. 
Agricultural work is the most hazardous and grueling area of employment 
open to children in the United States. It is also the least protected.
    Hundreds of thousands of children and teens labor each year in 
fields, orchards, and packing sheds across the United States. They pick 
lettuce and cantaloupe, weed cotton fields, and bag produce. They climb 
rickety ladders into cherry orchards, stoop low over chili plants, and 
``pitch'' heavy watermelons for hours on end. Many begin their work 
days--either in the fields or en route to the fields--in the middle of 
the night. Twelve-hour workdays are common.
    In June of 2000, Human Rights Watch published a report (Fingers to 
the Bone: U.S. Failure to Protect Child Farmworkers) based on an 
extensive investigation that included dozens of interviews with child 
farmworkers, farmworker advocates and experts. Interviews included both 
migrant and seasonal agricultural workers; many are immigrants, or the 
children of immigrants.
    Our investigation found that child farmworkers labor under more 
dangerous conditions than their contemporaries working in non-
agricultural settings. They are routinely exposed to dangerous 
pesticides, sometimes working in fields still wet with poison, often 
given no opportunity to wash their hands before eating lunch. They risk 
heat exhaustion and dehydration, as their employers fail to provide 
enough water, or any at all. They suffer injuries from sharp knives, 
accidents with heavy equipment, falls from ladders. Repetitive motions 
in awkward and punishing poses can interfere with. the proper growth of 
their bodies. Lack of sleep--because they are working too many hours--
interferes with their schooling and increases their chances of injury. 
Depression affects them more often than other minors, a reflection of 
the cumulative stresses and burdens in their young lives. Only 55 
percent of them will graduate from high school.
    Farmworker youth face persistent wage exploitation and fraud. One-
third of those interviewed by Human Rights Watch reported earnings that 
were significantly less than minimum wage. Some earned only two or 
three dollars an hour.
    Incredibly, these juvenile workers are protected less under United 
States law than are juveniles working in safer occupations. Under the 
Fair Labor Standards Act (FLSA), children working on farms may be 
employed at a younger age than other working children--twelve (even 
younger under some circumstances) as opposed to fourteen. Employers may 
also work them for longer hours--in agriculture, there is no limit to 
the number of hours a child may work. In all other occupations, 
children under the age of sixteen are limited to three hours of work a 
day when school is in session. Not only that, but FLSA does not require 
overtime pay for agricultural work as it does for other occupations. 
Finally, juveniles in agriculture may engage in hazardous work at the 
age of sixteen; for all other occupations, the minimum age for 
hazardous work is eighteen.
    The Fair Labor Standards Act claims to prohibit ``oppressive child 
labor.'' Yet the FLSA permits oppressive child labor in agriculture to 
continue. FLSA's bias against farmworker children amounts to de facto 
race-based discrimination: an estimated 85 percent of migrant and 
seasonal farmworkers nationwide are racial minorities. In addition to 
raising serious concerns under the Equal Protection clause of the U.S. 
Constitution, this discrimination may violate numerous provisions of 
international law.

Health and Safety Risks: Pesticide Exposure

    Exposure to pesticides is a serious risk to all farmworkers. The 
Environmental Protection Agency estimates that as many as 300,000 
farmworkers suffer pesticide poisoning each year, while the Natural 
Resources Defense Council estimates as many as 40,000 physician-
diagnosed poisonings occur each year. Only a small percentage of 
pesticide-related illnesses are reported to government or health 
officials.
    Children and adults working in the fields may be exposed to 
pesticides in a variety of ways, including: working in a field where 
pesticides have recently been applied; breathing in pesticide ``drift'' 
from adjoining or nearby fields; working in a pesticide-treated field 
without appropriate protective gear, such as gloves and masks; eating 
with pesticide-contaminated hands; eating contaminated fruits and 
vegetables; and eating in a pesticide-contaminated field. Fields are 
typically sprayed with pesticides on a weekly basis.
    Immediate signs of acute pesticide poisoning include nausea, 
vomiting, diarrhea, wheezing, rashes, headaches, and dizziness. Long-
term consequences may include childhood leukemia, kidney tumors, brain 
tumors, brain damage, and learning and memory problems.
    In 1997, a seventeen-year-old migrant farmworker died after being 
sprayed by pesticides twice in one week while working. After the second 
spraying, he showed symptoms of severe pesticide poisoning, including 
vomiting, sweating, diarrhea and headaches. He had received no training 
from his employer regarding pesticide dangers and the symptoms of 
exposure, and reportedly slept in his pesticide-soaked clothing the 
night before his death.
    Many of the children interviewed by Human Rights Watch reported 
being exposed to pesticides and experiencing one or more symptoms of 
pesticide exposure, most commonly headaches, nausea and vomiting, 
rashes, and dizziness. Some were subjected to pesticide drift when 
adjacent fields were sprayed while they were working. Others noticed 
the smell of pesticides in the fields where they worked and saw residue 
on leaves. None of the youth interviewed by Human Rights Watch had 
received training regarding the dangers of pesticides, safe usage, 
preventive measures, or what to do in the event of exposure. Such 
training is required by the Worker Protection Standard of the EPA. Some 
of the teens interviewed did not even know what pesticides were.
    Although there have been very few studies to date regarding 
pesticide exposure among children and youth working in agriculture, the 
data that do exist suggest that such exposure is commonplace. A 1990 
Natural Resources Defense Council study of migrant farmworker children 
in New York State found that more than 40 percent had worked in fields 
still wet with pesticides, and 40 percent had been sprayed with 
pesticides, either directly from crop duster airplanes or indirectly 
from drift

Sanitation

    Drinking water, water for hand washing, and toilet facilities are 
the minimum sanitation requirements imposed by the U.S. Occupational 
Safety and Health Administration (OSHA) on farms. Even these minimal 
requirements, however, are often ignored by growers and by the farm 
labor contractors who bring in workers. Furthermore, Congress prohibits 
enforcement of these regulations on farms with ten employees or less, 
essentially exempting small farms from having to protect their workers' 
most basic health and dignity requirements. An estimated 95 percent of 
all United States farms fall under this exemption.
    Nearly all of the children interviewed by Human Rights Watch for 
this report said that they had worked in fields or orchards where one 
or more of these three basic requirements--drinking water, handwashing 
facilities, and toilet facilities--was not met.
Lack of Toilet Facilities
    Many children interviewed by Human Rights Watch reported a complete 
lack of toilet facilities or portapotties that were too unsanitary to 
use. Lack of usable toilet facilities contributes to the spread of 
parasitic infection among workers. It can also be particularly 
dangerous and humiliating for girls and women, in that it leaves them 
with the unpleasant choice of public urination--more obvious and 
awkward for females--or urinary retention. Urinary retention is a cause 
of urinary tract infections, which are suffered by farmworkers at a 
higher rate than the general population. A desire to avoid urination 
may also lead workers to limit their fluid intake, with potentially 
grave, even deadly consequences.
Lack of Handwashing Facilities
    Both federal and state occupational safety and health laws require 
agricultural employers to provide their workers with soap and water for 
handwashing. Only about half of the teens interviewed for this report 
said that handwashing facilities were available at their work sites.
    Being unable to wash their hands with soap and water increases 
farmworkers' risk of pesticide poisoning. Pesticide residue on the 
plants transfers to workers' hands and arms, where it remains until 
they are able to wash it off. If this is not possible while at work, 
their skin can remain contaminated for twelve hours or more--however 
long it takes them to get home and wash greatly prolonging their 
pesticide exposure.
    Unwashed hands also virtually guarantee that pesticides will be 
ingested when workers eat their lunch. Workers typically break for 
thirty minutes for lunch, often sitting right in the fields to eat or 
moving to the edges of the fields when shade is available.
    When employers don't provide handwashing facilities, workers may 
resort to washing in irrigation ditches, which are unclean and often 
contaminated with fertilizer and pesticide runoff. Or the employers or 
field supervisors may themselves provide dirty and contaminated water 
to the workers. Such water exposes workers to dangerous chemicals and 
to organic wastes and parasites.
Lack of Drinking Water
    Physical labor under hot conditions can rapidly overwhelm the body. 
Without adequate fluid intake and rest, workers risk devastating 
dehydration and heat-induced illness, up to and including death.
    OSHA and the Environmental Protection Agency (EPA) recommend that 
workers laboring under hot weather conditions drink a minimum of eight 
ounces of water every half-hour. Very high heat or humidity increases 
the amount of recommended water, so that, for example, a person working 
in 90 degree heat under a full sun should drink eight ounces of water 
every fifteen minutes.
    Federal and state occupational safety and health laws require 
agricultural employers to supply sufficient amounts of cool water to 
their workers. OSHA estimates ``Sufficient'' at ``two to three gallons 
per worker on a hot day.'' Only some growers and farm labor contractors 
comply with this requirement. Many provide inadequate amounts of water, 
water that is hot or warm, or no drinking water at all. Still others 
provide contaminated water. An Arizona farm was cited in 1997, for 
example, for providing farm workers with canal water contaminated by E. 
coli, dangerous and potentially fatal bacteria.
    Many teens reported to Human Rights Watch that their foremen or 
farm labor contractors would bring one five or ten-gallon jug to the 
work site; when it was gone, no more water was brought in. Other young 
workers told Human Rights Watch that they had to bring their own 
drinking water. Still others bought beverages from co-workers or 
supervisors who, in lieu of providing water, sold sodas or beer for 
$1.00 to $1.50 each.

Heat Illnesses

    Heat illnesses can lead to death or brain-damage and are an ever-
present danger for field workers. The EPA and OSHA estimate 
approximately 500 deaths annually from heat illnesses in the United 
States. Children are more susceptible to heat stress than adults.
    Many of the young workers interviewed by Human Rights Watch had 
suffered from mild to moderate heat illness, with symptoms including 
dizziness, headaches, nausea, and vomiting. Two reported witnessing 
cases of heat illness--one of a sister, another of a boyfriend--so 
severe that the afflicted person was unable to work for an entire week. 
``He had the heat inside him,'' described one. ``He was very pale and 
throwing up.'' ``He was sick from the sun.''

Musculoskeletal Trauma

    The strenuous and often awkward labor of farmwork increases the 
risk of injuries, including chronic repetitive stress disorders and 
musculoskeletal trauma. Several teens told Human Rights Watch that they 
suffered from chronic back and/or neck pain when they were working in 
the fields.
    Early adolescence is a time of rapid growth, which makes teenage 
workers more vulnerable than adults to musculoskeletal disorders. 
Agricultural work in particular has been linked to musculoskeletal 
trauma, due to the stresses on the body of constant bending, lifting, 
twisting, and other awkward or punishing work. Furthermore, because 
back pain is generally rare among adolescents as a whole--and a history 
of back pain is a risk factor for new back injuries medical experts 
conclude that ``the long-term consequences of back strains among 
adolescent workers are of substantial concern.''

Hazardous Equipment and Work-Related Injuries

    Agriculture is the most dangerous occupation open to juveniles in 
the United States. Farmworkers routinely use knives, hoes, and other 
cutting implements; operate or work near heavy machinery; work on 
ladders; and work with or near pesticides and other dangerous 
chemicals. Children working in agriculture in the U.S. make up only 8 
percent of the population of working minors overall, yet account for 40 
percent of work-related fatalities among minors. The National Research 
Council and Institute of Medicine report that an estimated 100,000 
children suffer agriculture-related injuries annually in the United 
States. Minors working in agriculture have also been found to suffer a 
higher frequency of severe and disabling injuries than those working in 
all other occupations.
    Tractors and other motorized farm equipment represent very serious 
hazards, and FLSA prohibits their operation by children aged fifteen 
and younger. Abidance by this prohibition, and enforcement when it is 
violated, is another matter. Human Rights Watch interviewed a sixteen 
year old who had worked full time for the three previous summers--when 
thirteen, fourteen, and fifteen years old--driving a tractor.
    For all workers, but especially for field workers, fatigue 
increases the risk of injury. Long hours, early morning hours, and work 
in very hot conditions all increase fatigue, as does the heavy physical 
labor entailed in most agricultural work. The relative inexperience of 
young workers also increases their risk of accidents and injury.
    Cuts from knives were the injury most commonly reported to Human 
Rights Watch by young workers. Several knew of other people who had 
been injured badly, their fingers cut off by knives or their hands 
mangled in machinery.

U.S. Law and Enforcement

    U.S. law is grossly and unjustifiably inadequate--not only does it 
offer insufficient protection for farmworker children and adolescents, 
but it offers them vastly less protection than it does for juveniles 
working in other occupations. The Fair Labor Standards Act allows 
children in agriculture to work at younger ages, for longer hours and 
under more hazardous conditions than minors in other jobs. The law 
allows children as young as twelve to work unlimited hours in 
agriculture. In contrast, children in other occupations cannot work 
before age fourteen, and can only work three hours on a school day 
until age sixteen. Finally, the FLSA allows children in agriculture to 
engage in hazardous work at the age of sixteen; for all other 
occupations, the minimum age for hazardous work is eighteen. Because 
85% of farmworkers are racial minorities--the vast majority Latino--the 
law's double standard amounts to de facto race-based discrimination.
    Further worsening the situation, government enforcement of even 
these deficient laws is sporadic and weak. Only a tiny fraction of 
child labor violations are ever uncovered by the Department of Labor. 
For example, in 1998, the Department of Labor's Wage and Hour Division 
found 104 minors illegally employed in agriculture--one for every 1,000 
estimated to be working illegally in the fields. In addition, penalties 
are typically too weak to discourage employers from using illegal child 
labor.
    In addition, Congress has limited in recent years the ability of 
publicly-funded legal aid offices to assist farmworkers, by prohibiting 
class-action lawsuits and prohibiting the representation of persons in 
the U.S. without proper documentation. In sum, juvenile farmworkers are 
left with limited protection and few means of recourse when their 
rights are violated.
           recommendations to congress and the administration

To The United States Congress

    (1) The Fair Labor Standards Act should be amended to increase the 
protection extended to juveniles working in agriculture. Such 
protection should conform with that offered to other working children 
in the United States and bring it into accord with international 
standards for the protection of children. Specifically, the act should 
be amended to: (a) Prohibit the employment of children aged thirteen 
and younger in agriculture, except for those working on farms owned and 
operated by their parents; (b) Limit the number of hours that children 
aged fourteen and fifteen can legally work in agriculture to: three 
hours a day on a school day and eighteen hours a week during a school 
week; eight hours a day on a non-school day and forty hours a week when 
school is not in session; (c) Prohibit before-school agricultural work 
by children aged fifteen and younger. (Currently, there are no 
restrictions on early-morning agricultural work, although in 
nonagricultural occupations such work is forbidden for under-sixteen-
year olds.); and (d) Raise the minimum age for hazardous agricultural 
work to eighteen.
    (2) Regarding application of the Occupational Safety and Health 
Act, Congress should halt its yearly approval of a rider exempting 
farms with ten or fewer employees from OSHA jurisdiction.
    (3) Congress must address the educational and vocational needs of 
farmworkers. This is urgent, particularly for those juveniles who have 
already dropped out of school. The national program created for 
farmworker youth under the Workforce Investment Act of 1998 should be 
adequately funded to enable states to assist farmworker youth in 
completing their education and securing meaningful job training and 
placement assistance.

To the Wage and Hour Division, United States Department of Labor

    (1) The Wage and Hour Division should dramatically increase 
agricultural workplace inspections targeting child labor and minimum 
wage violations. All violators should be sanctioned to the fullest 
extent of the law. Furthermore, serious, repeat, and willful violators 
should be actively publicized as such, both for deterrence purposes and 
to educate the public regarding child labor rights.
    (2) The Wage and Hour Division should utilize The Fair Labor 
Standards Act's ``hot goods'' provision, which prohibits the interstate 
movement of goods produced in violation of child labor or minimum wage 
laws, whenever possible, favoring it over the traditional course of 
citations and relatively insignificant civil money penalties.
    (3) The Wage and Hour Division should vigorously enforce the OSHA 
Field Sanitation Regulations, which require employers to provide 
workers with drinking water, toilets, and handwashing facilities. Such 
enforcement must be proactive and include agency-initiated, unannounced 
inspections.
    (4) The Wage and Hour Division should collect, maintain, and 
disseminate disaggregated statistics regarding children working in 
agriculture, including the number and ages of children working; the 
number of children injured, including type and severity of injury; the 
number of children sickened by occupational exposure to pesticides; the 
number of inspections carried out at agricultural workplaces; and the 
result of the inspections.

To The Environmental Protection Agency

    (1) The Worker Protection Standard should be amended to: (a) Impose 
a minimum age of eighteen for all pesticide handlers; (b) Revise 
restricted-entry intervals (REIs), which prohibit entry into an area 
treated by pesticides for a specified period of time following the 
application of the chemicals. The revised REIs should distinguish 
between adults and children and impose more stringent REIs for 
children. The revised REIs also should incorporate an additional safety 
margin on top of what is determined necessary to ensure short and long-
term safety, and should take into account the combined effect of both 
occupational and non-occupational exposures. The EPA currently uses an 
acute illness model that does not protect workers from long-term, 
chronic effects of pesticides.
    (2) The EPA should closely monitor states' enforcement of the 
Worker Protection Standard and related pesticide regulations to ensure 
that such enforcement is vigorous and meaningful.
    (3) The EPA should expand its program to educate workers regarding 
the Worker Protection Standard, and should ensure that materials used 
are culturally, age, and language appropriate.
   Prepared Statement of the National Mobilization Against SweatShops
    [1] The National Mobilization Against SweatShops (NMASS) is a 
grassroots effort led by youth and working people from all backgrounds 
and communities. We are a membership organization dedicated to fighting 
for control over our time and our lives. Through educational and 
organizing work, we are demanding the right to work 40 hours a week at 
a living wage for all working people, whether we are overworked, 
underemployed or working at home caring for our children or other 
family members.
    [2] Our members come from all trades and industries. We are garment 
workers, restaurant employees, asbestos removers, paralegals, cleaning 
employees, teachers, construction workers, and home health care 
attendants. We are both U.S.-born and immigrants, documented and 
undocumented workers. We are fighting together for the human rights of 
all workers.
    [3] NMASS, along with the Chinese Staff & Workers Association and 
Workers' Awaaz are leading the ``It's About TIME!'' Campaign for 
Workers Health & Safety, an effort that brings together injured and 
not-yet-injured working people and youth to fight for what we value: 
our health, families and lives. We are working to expose the greediness 
of employers and insurance companies whose profit-driven practices 
devalue our time and health. We are organizing to change the New York 
State Workers' Compensation Board to give injured workers timely and 
just compensation for work-related injuries. Ultimately, we are 
fighting to end the root causes of occupational injuries and illnesses: 
long hours and other sweatshop conditions.
                             i. the problem

A. Long Work Hours Destroy all Workers' Lives

    New York State allows employers to force workers to work long hours 
and ``Sweat'' to death under unsafe working conditions, violating 
workers' basic human rights.
    [4] Working people all over the United States are being overworked, 
forced by employers to labor inordinately long hours. As U.S. 
businesses ``downsize'' the workforce, workers who remain are forced to 
work harder and longer work weeks to compensate for the many lost hours 
of labor. Those who lose their jobs can only find contingent or 
temporary work, and become even more vulnerable to exploitation by 
employers trying to squeeze profit from cheap labor. Many are forced to 
work several jobs, just so their families can survive. According to the 
federal Bureau of Labor Statistics, the U.S. leads the industrialized 
world in the number of hours worked--U.S. workers work 350 more hours, 
or 9 more full-time weeks than Europeans, In fact, in workplaces such 
as garment factories, a 40-hour work week is considered part-time. Eva 
Herrera worked for over 10 years printing designs onto T-shirts, 
inhaling fumes from numerous chemicals and solvents, while averaging 80 
hours per week. Amapola Ochoa found that being a full-time home health 
care attendant often meant working 24 hours per day, caring for 
physically and mentally ill patients and performing an endless number 
of other tasks.
    [5] In addition to the increasingly long hours of overtime, U.S. 
workers are forced to work under hazardous and unhealthy conditions. 
They are pushed to work at intense paces, exposed to toxic chemicals 
and forced to use harmful repetitive motions. As a result, more and 
more workers are getting hit with debilitating injuries and health 
problems. Mussa Abdulkader suffered a debilitating and permanent back 
injury while lifting heavy objects in his job as a public school 
custodian. Arkadiusz Tomaszewski developed severe respiratory and skin 
illnesses after working long hours exposed to asbestos and toxic glues.
    [6] The law does nothing to combat these problems; most workers do 
not have the right to say ``no'' to employers who force them to work 
overtime. New York State does not protect workers from being obligated 
to work more than 40 hours a week. Hundreds of thousands of workers in 
New York are suffering from an array of occupational injuries and 
illnesses, many of which are not easily diagnosed. Repetitive-stress-
syndrome, back and spinal damage, neuropsychological problems, and 
respiratory disease are just a few examples. Both Eva Herrera and 
Arkadiusz Tomaszewski suffer from complex occupational injuries, and 
have encountered many problems finding adequate medical treatment. 
However, when they applied for Workers' Compensation benefits, they 
encountered even more problems.

B. The New York State Workers' Compensation Board Violates Labor Law

    New York State's Workers' Compensation Board (WCB) permits endless 
delays and denials of benefits and medical treatment to injured 
workers, violating workers' right to compensation for injuries and 
illnesses incurred while working.
    [7] Unable to work after getting injured, many workers turn to the 
New York State Workers' Compensation Board (WCB), whose supposed 
purpose is to protect the health and safety of injured workers. 
However, injured workers find that they are unable to receive Workers' 
Compensation benefits in a timely manner. They are called to numerous 
hearings, where judges and lawyers continually disregard workers' 
rights by silencing injured workers and allowing the insurance 
companies' lawyers to say whatever they please to justify the denial of 
benefits and medical treatment. Injured workers must then endure 
endless delays in an effort by the WCB and insurance companies to force 
them back to work, accept small settlements or give up their claims. 
Workers can often wait up to a year between WCB hearings. Insurance 
companies then make unsubstantiated appeals, further delaying cases for 
years. Throughout these many years of delay, however, the WCB does not 
provide injured workers with either interim living expenses or urgently 
needed medical treatment. Maria Labuz, who was injured while cleaning 
buildings, survives only on the little money she gets from Social 
Security disability payments. She has waited 12 years without being 
able to receive proper medical attention or physical therapy.
    [8] If injured workers do receive Workers' Compensation benefits, 
they find that the weekly amount approved by the WCB is not nearly 
enough to support injured workers and their families. In New York 
State, injured workers can receive as little as U.S. $40 a week, the 
state's minimum weekly benefit rate. In 1994, private insurance 
companies in New York collected U.S. $2 billion in Workers' 
Compensation premiums and paid out only U.S. $1 billion in wage 
replacement and medical costs; this difference was among the highest in 
the nation. By denying injured workers their benefits or forcing them 
to re-enter the workforce, the WCB is permitting insurance carriers to 
profit from destroying injured workers' lives. Injured workers are left 
with little or nothing to live on, their health rapidly deteriorating, 
and their families ravaged by poverty and hopelessness.
                          ii. the consequences

A. Injured Workers' Lives Are Destroyed

    Injured workers' health, dignity and lives are destroyed by the 
endless delays and denials of the benefits and medical treatment to 
which they have a right.
    [9] New York State's Workers' Compensation Board ruins the lives of 
injured workers in many ways. First, the Board deters countless injured 
workers from applying by maintaining a system that is notorious for its 
endless delays, inadequate benefits and inhumane treatment of working 
people. Thus, many people who are injured on the job choose to continue 
working, because they know they will have difficulty surviving if they 
wait for Workers' Compensation benefits.
    [10] Injured workers who do apply for benefits must endure the 
heartless bureaucracy of this system, which not only fails to meet 
injured workers' needs, but exacerbates their health, financial and 
family problems. When seeking medical verification of their injury, 
many find that doctors do not recognize the injuries and illnesses 
acquired from jobs as medical disorders. Unacknowledged by both doctors 
and the Worker's Compensation Board, the injuries are left untreated 
and worsen over time until it ends only in death. Workers suffer a 
chain reaction of problems, including the destruction of their family--
financially, emotionally, and physically. Their spouses and children 
take up more work to compensate for their loss of income. Often they 
succumb to dependence on public assistance or in the worst case, 
poverty and hopelessness.

B. Employers and Insurance Companies Are Unjustly Subsidized by New 
                    York State

    New York State unjustly subsidizes employers and insurance 
companies by allowing them to escape liability for the injuries and 
illnesses workers suffer on the job, and then supporting injured 
workers and their families with government-funded public assistance.
    [11] By permitting the endless delays and denials of Workers' 
Compensation cases, the WCB allows employers and insurance companies to 
easily avoid taking responsibility for work-related injuries and 
illnesses. The WCB has let insurance companies walk away with billions 
of dollars in profits in the past several years alone; employers have 
also benefited from lower Workers' Compensation insurance premiums. 
Injured workers are forced to search for other sources of income, and 
often must rely on public assistance. As a result, New York State is 
left with the responsibility to provide government benefits for injured 
workers, allowing these companies to keep injured workers' unpaid 
benefits as their profits.

C. Working Conditions Worsen Drastically for all Workers

    The WCB effectively sanctions further violation of labor law and 
the worsening of working conditions that lead to occupational injuries 
and illnesses by allowing employers and their insurance companies to 
escape liability for workers' injuries and illnesses.
    [12] In allowing employers and insurance companies to escape 
liability for workers who get hurt on the job, the WCB gives employers 
the green light to continue violating labor law. If the WCB actually 
protected injured workers by ensuring timely claim resolution and 
adequate living expenses, it would encourage employers to shorten hours 
and safer working conditions to avoid higher insurance premiums. 
Instead, New York State does not punish employers for exploiting their 
workers, but does reward them with lower premiums. Sanctioned by an 
employer-friendly WCB, bosses push workers harder, squeezing longer 
hours from their daily lives. Ironically, the WCB effectively allows 
employers to worsen conditions for all working people.
                           iii. the solutions

A. Prohibiting Mandatory Overtime

    Workers in New York State must have the right to say ``no'' to 
overtime hours.
    [13] New York State must address the root causes of workplace 
injuries and illnesses--long hours and unsafe conditions. Employers 
must be prohibited from requiring an employee to work overtime. We must 
have the right to say ``no'' to exploitative employers that coerce us 
to labor the long hours that put us at risk of injury and even 
permanent disability.

B. Overhaul the Workers' Compensation Board

    1. The WCB must process and resolve injured workers' cases quickly.
    [14] All injured workers must have the right to the timely 
resolution of their Workers' Compensation cases. Every injured worker 
must have the right to a hearing within thirty days of filing their 
compensation claim. Each claimant must have the right to the resolution 
of the claim within ninety days of filing.
    1. The WCB must provide interim benefits and medical treatment 
immediately.
    [15] Every injured worker should receive interim living expenses 
and adequate medical treatment within 1 week of applying for workers' 
compensation benefits.
    1. The WCB must increase the minimum benefit rate to an amount on 
which workers can live.
    [16] The current weekly minimum benefit rate of $40 is not enough 
for any person--much less their entire family--to live upon. Every 
injured worker must have the right to a weekly minimum that is no less 
than forty times the New York State minimum hourly wage.
    1. The WCB must be held accountable for its compliance with all 
legislative changes.
    [17] New York State must implement initiatives that will rectify 
the lack of accountability of the WCB to injured workers and the 
general public. We must have the right to detailed information about 
the WCB's compliance with the current law and any legislative change.
    The undersigned declare, under penalty of perjury, that the 
foregoing is true and correct to the best of their knowledge.

Executed this__day of October 2001, in New York, New York.
                                                 JoAnn Lum,
                                                   Director, NMASS.

                                          Arek Tomaszewski,
                                               Board Member, NMASS.
Sworn and Subscribed before me this__day of October, 2001.

                                           Sameer M. Ashar,
                 Notary Public, State of New York, No. 02AS6056863,
   Qualified in the County of Kings, Commission expires 02/04/2003.
                                 ______
                                 
                     Affidavit of Mussa Abdulkader
    I, Mussa Abdulkader, hereby declare under penalty of perjury as 
follows:
    1. I reside at 286 Fort Washington Avenue, Apt. 6C, New York, NY 
10032.
    2. I immigrated from Eritrea to the United States in February 1979.
    3. I was a Custodian at Public School 126 in the Bronx, New York 
when I injured myself on the job on September 8, 1995.
    4. I was lifting a trash bag that weighed approximately 45 pounds.
    5. The wagon was broken and I had to carry this bag about a block 
and a half.
    6. As I lifted the 45 pound trash bag, it got stuck, and I pulled 
harder.
    7. At this point I heard a loud crack in my back and felt a great 
deal of pain in my lower back; I could not breathe and had to sit down.
    8. My boss told me not to work the rest of the day but I said I 
wanted to go see a doctor.
    9. The doctor I saw gave me pain killers which temporarily reduced 
the pain, but when the pain returned I went to the emergency room at 
Columbia-Presbytarian Hospital.
    10. The doctor in the emergency room said I had a hernia, needed 
surgery, and that I should find a doctor who would accept Workers' 
Compensation.
    11. On September 14, 1995, 1 filed a claim with the Workers' 
Compensation Board, case number 09555484.
    12. I initially received $400.00 per week from the Workers' 
Compensation Board from September 1995 to February 1996.
    13. The weekly payment was reduced to $200.00 from February 1996 to 
June 1997, after which I received nothing.
    14. The insurance company doctor missed four scheduled hearings; 
when he did appear he proceeded to testify against me.
    15. I appealed a decision of the Board dated October 19, 1998, 
denying coverage; the Board did not make a decision on my appeal until 
June 1, 2000.
    16. I have not worked since the injury and not been able to support 
my family in Eritrea; I am the eldest son in my family and have many 
dependents.
    17. I remain injured and in pain; when the weather changes the pain 
radiates down my right leg and I feel numb; my hips hurt a lot.

Dated: Brooklyn, New York, October__, 2001,


                                          Mussa Abdulkader.


Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                     Affidavit of Aleksandra Baran
    I, Aleksandra Baran, hereby declare under penalty of perjury as 
follows:
    1. I reside at 320 Eckford Street, Apt. 3R, Brooklyn, New York 
11222.
    2. I am 75 years old.
    3. I immigrated from Poland in December 1984 by myself.
    4. I worked as a home attendant for Family Home Care Services since 
June 1988. For the first five years in that job, I worked 24-hour 
shifts at approximately $5.00 per hour. Later I worked 12-hour shifts 
at approximately $7.00 per hour. I did not receive overtime pay.
    5. I was injured on January 27, 1994 while I was working. I was hit 
by a car as I was shopping for a client.
    6. I lost consciousness and received fractures in my knee and 
ankle, as well as injuries to my hand, left shoulder, back, neck and 
thumb.
    7. I was brought to my place of work by two women who picked me up 
out of the snow in the street. I then took a car service to the 
doctor's office.
    8. I filed a Workers' Compensation claim in early 1994.
    9. I recovered from my injuries at home and was not able to work 
after 1994.
    10. The first 6 months after I filed my Workers' Compensation claim 
I received $300.00 per week. This was later decreased to $250.00 per 
week and eventually $180.00 per week.
    11. Three years after I filed my Workers' Compensation claim I 
stopped receiving any benefits. I don't know why my case was closed by 
the Workers' Compensation Board.
    12. My case was later reopened. My last hearing was in January 
2001.
    13. Over time I used up the small saving I had to survive.
    14. I have children in Poland who I am unable to support.
    15. There was never any translation from English to Polish in any 
of the Workers' Compensation hearings that I attended.


Dated: Brooklyn, New York, October__, 2001,


                                          Aleksandra Baran.


Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                      Affidavit of Tomas Carrillo
    I, Tomas Carrillo, hereby declare under penalty of perjury as 
follows:
    1. I reside at 230 Suydam Street, Apartment 1L, Brooklyn, New York 
11237.
    2. I was an auto mechanic working for A&G Auto Dismantlers when I 
was injured in 1994.
    3. I dismantled cars, taking parts out for sale and use, and worked 
six days a week and from 8 to 9 hours per day.
    4. I was taking a windshield out in 1994, when an auto part cut my 
right hand, severing nerves and causing me to lose movement in two of 
my fingers.
    5. I went back to work after this first accident but because my 
right hand was weak, I put more pressure on my left hand.
    6. I then had a second accident in which my left hand was cut and I 
injured another finger.
    7. I filed a Workers' Compensation claim after these two accidents 
in 1994, case file number 09450172.
    8. I received $200.00 per week for three years until 1997, after 
which the payments were cut off.
    9. My case remains open and I have had approximately four hearings 
before the Workers' Compensation Board over six years.
    10. Both the insurance company doctor and my own doctor agreed on 
the record that I have a permanent impairment of my right hand.
    11. My health continues to deteriorate and I am unable to work.
    12. I have become very temperamental, I blow up easily, and my wife 
and I have had to start selling food in the park on the weekends in 
order to survive.

Dated: Brooklyn, New York, October__, 2001,

                                            Tomas Carrillo.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                       Affidavit of Lau Mei Chan
    I, Lau Mei Chan, hereby declare under penalty of perjury as 
follows:
    I live at: 5218 8th Avenue, Apt. 3F, Brooklyn, NY 11220.
    I immigrated to the U.S. in 1989 and am a current green card 
holder.
    I worked in the garment industry for eight years as a seamstress, 
in quality control, doing correction work on garments, and as a 
foreperson.
    In 1997, I was injured when I was holding a bundle of clothes and 
slipped and fell on the factory floor.
    I injured the right side of my body, specifically my leg, back, 
neck, and shoulder. I could neither sit nor stand at work due to my 
injuries. I was completely out of the workforce for one year due to my 
injuries.
    I was afraid to tell my boss about the injury because he had fired 
an injured worker before I was injured at work.
    I worked long hours, usually from 8:30 a.m. to 8:30 p.m. and 
sometimes until 12:00 midnight and longer. I usually worked six days 
each week. My co-worker was fired so I was performing two peoples' 
workload, which contributed to my injuries. The long hours contributed 
to my injuries.
    I finally filed for Workers' Compensation in November 1997 after I 
realized that I could no longer work in the garment industry due to my 
injuries.
    I have not received any Workers' Compensation benefits.
    I have had approximately seven hearings over three years.
    My husband has had to work two jobs, including a night shift from 
12:00 midnight to 8:00 a.m., in order to support our family. However, 
his income was still inadequate to support the five of us; therefore, 
in 1999, 1 started working through a Chinatown Planning Council class, 
doing some light work as a home attendant. I work four hours a day, six 
days a week.

Dated: New York, New York, July__, 2001,

                                              Lau Mei Chan.

Sworn and Subscribed before me this__day of July, 2001.

                                           Sameer M. Ashar,
                 Notary Public, State of New York, No. 02AS6056863,
          Qualified in Kings County, Commission Expires 04/02/2003.
                                 ______
                                 
      Affidavit of the Chinese Staff & Workers' Association (CSWA)

CSWA's History and Mission

    [1] Chinese Staff & Workers' Association is a membership-based 
community organization and workers' center in New York City composed of 
workers of all trades, particularly from the garment, restaurant, 
domestic, and construction industries. Founded in 1979, we are one of 
the oldest workers' centers in the country. With over 1,300 members and 
two centers in Manhattan's Chinatown and Brooklyn's Sunset Park, we 
organize workers to advance our rights and dignity in the workplace and 
community, to speak as a voice that challenges sweatshop conditions, 
and to promote workers' leadership in our efforts for economic and 
social justice. Through our work over the past 22 years, we have: 
recovered nearly $10 million in owed backwages, minimum wage, and 
overtime pay, particularly in the garment industry; won a landmark case 
against the City of New York to stop a luxury development from being 
built in Chinatown and that would we have displaced low-income 
community members and local businesses; secured the first wage increase 
in almost ten years for New York's tipped employees; compelled 
government institutions to hold garment manufacturers responsible for 
the labor-law violations of their contractors contributing to the 
passage of a N.Y. State law in 1998 to that effect; and brought the 
issue of sweatshops to the forefront of the national agenda.

Sweatshop Conditions Produce Injuries

    [2] We organize workers who are hardest hit by abusive and inhumane 
sweatshop conditions, such as long hours, low wages, unsafe working 
conditions, and a lack of worker protections. Sweatshop conditions, 
however, have proliferated so that not-yet-injured workers from all 
backgrounds and in all industries remain under constant risk of injury.
    [3] According to the 2000 Census, Chinese immigrants make up one of 
the largest and fastest growing populations in New York City, growing 
51 % over the last decade to an estimated 424,774. The vast majority of 
these immigrants are low-income, living or working in New York's 
Chinatowns. 50% of the residents never finish high school; almost 40% 
percent do not speak English very well or at all; and, 30% of the 
area's families officially live below the federal poverty line. These 
percentages climb even more when we factor in the vast number of 
uncounted, undocumented immigrants who live and work in our 
communities.
    [4] Chinese immigrants have been coming to the U.S., lured by 
images of wealth and opportunity promoted abroad. Many immigrants from 
China come to this country as indentured servants, owing $30,000-
$60,000 to snakeheads (smugglers.) Instead of the promised wealth and 
opportunity, when they arrive they encounter a horrifying reality: the 
American sweatshop. They are immediately channeled into Chinatown's 
unregulated trades, such as garment, restaurant and construction. Under 
this unregulated system, they are routinely forced to work 70-100 hours 
a week or more, without receiving benefits, over-time pay or even 
minimum wage.
    [5] In the garment industry alone, for example, over 30,000 Chinese 
immigrant women labor in New York City's garment factories, union and 
non-union alike. Almost all of them work at a breakneck pace for twelve 
to sixteen hours a day, six-seven days a week, and earn from two to 
four dollars an hour with no overtime pay or benefits. In one garment 
factory, workers were putting in up to 138 hours a week. In one week 
alone, they were able to produce 10,000 pieces each. Many garment 
factories are dusty, unventilated, rat-infested and poorly lit. Fire 
escapes, exits, and stairwells are blocked and sometimes locked. Fabric 
is treated with formaldehyde and chemical dyes before being sent to the 
shops to be sewn and assembled. Garment workers bend over sewing 
machines and strain to see in poor lighting, while performing endless 
repetitive motions. Other garment workers operate dangerous machines to 
steam and iron clothes or to hang and package garments, standing on 
their feet for 12 hours at a stretch, sometimes longer. In one factory 
where workers were making clothes for the Donna Karan label, bathrooms 
were padlocked and no drinking water was available.
    [6] Conditions in the restaurant industry are not much better. 
Thousands of Chinese immigrant men and women toil six days a week in 
New York City restaurants and daily face a host of abusive working 
conditions. Waiters, dim sum waitresses, busboys, and cooks work long 
hours with no breaks while constantly on their feet, yet receive no 
overtime pay or medical benefits. Restaurant workers severely disable 
their backs or their legs or endure arm, neck, and shoulder pain from 
carrying heavy trays, linens, crates of food or supplies. Others endure 
critical bums from kitchen stoves and from handling hot pans. Cuts on 
their fingers and hands occur from working with knives and kitchen 
machinery. Respiratory problems and even lung cancer are becoming more 
and more apparent as workers breathe in hot grease and smoke while 
working under intense temperatures in the kitchen. The high stress 
environment leads to ulcers and high blood pressure. Bunions and sore 
feet, varicose veins, and numbness in legs are the result of standing 
all day. Workers often labor without food throughout an entire shift. 
In one of the biggest banquet parlors in Chinatown, women workers must 
get permission to go the bathroom, and management shamelessly demands 
that they wait as long as a half an hour before being able to relieve 
themselves. In addition to the many health-related problems, restaurant 
workers cite the affects that working conditions have had on their 
emotional health. In particular, restaurant workers' shifts are highly 
irregular and often the opposite of most people's working hours. The 
outcome is that workers relationships with family are often severed. 
They are rarely able to spend time with their families and engage in 
their children's development during their time off.
    [7] In these and other industries, numerous workplace injuries are 
caused and compounded by mandatory overtime. Long hours, together with 
the speed-up in the intensity of work, guarantee that workplace 
accidents and injuries, toxic poisonings, and occupational health 
diseases will afflict hundreds of thousands of workers in New York 
State alone. These conditions are widespread in the service and white-
collar industries as well. Workers develop painful skin rashes, asthma, 
tuberculosis and other respiratory problems, repetitive stress 
disorders such as carpal-tunnel syndrome, debilitating leg and foot 
injuries, chronic neck and back pain, recurring bouts of dizziness, and 
vision problems. Some injuries are so severe that workers are maimed 
and become permanently disfigured. In addition to the irreparable 
damage to workers' physical health, dehumanizing work in sweatshops 
also leads to mental debilitation and destruction of one's family life.

New York Workers' Compensation Board: Undue Delays & Inadequate 
                    Payments

    [8] After sustaining injuries produced by sweatshop conditions, 
injured workers must deal with the failings of the New York Workers' 
Compensation (WC) system. The WC Board, whose primary purpose is 
supposedly to monitor the WC system, disregards workers' rights and 
allows insurance companies and employers to control their lives and 
ultimately their deaths.
    [9] In order to force injured workers to return to work, the WC 
system imposes extreme delays that forestall the resolution of 
thousands of cases. There are two types of delay in the process: delays 
between hearings and delays caused by groundless appeals from insurance 
companies and employers. Workers wait months or even up to a year 
between hearings, ultimately dragging their cases out for years on end. 
No matter how unjustified, appeals by insurance companies further 
extend the process as injured workers repeat the same testimony again 
and again in hearing after hearing. Many of our injured members have 
not received a penny after waiting from two up to even ten years. In 
the meantime, the WC provides no payments to cover immediate living 
expenses or urgently needed medical treatment. In New York State alone, 
there are over 180,000 open workers' compensation cases.
    [10] The excessive delays pressure and intimidate injured workers 
to give up their cases. When insurers deny payments to injured workers, 
this often means the end or severe curtailment of their medical care. 
Constant pain, poverty, and the destruction of their family lives are a 
daily part of life for injured workers. The unwarranted delays in the 
Workers' Compensation system often force injured workers to work while 
debilitated which, of course, exacerbates existing injuries. 
Oftentimes, our injured workers members must borrow from their families 
and friends, forcing family members and children to enter the paid 
workforce or take on an additional job, and straining or sometimes 
destroying their relationships and support networks. Delays thus cause 
a downward slide in the circumstances of injured workers, as they lose 
their homes and sink into poverty and despair, or even attempt suicide. 
Many times, after years of waiting, injured workers find their cases 
dismissed.
    [11] While injured workers pay a high price for their injuries, 
insurance companies and employers evade accountability. They are not 
penalized for unwarranted appeals that put injured workers' lives at 
risk. In some cases, our members report that their employers attempt to 
influence their doctors by calling them and telling them to send 
injured workers back to work. Insurance companies extend the delays by 
insisting that injured workers see insurance-approved or employer-
approved doctors located far from where injured workers live.
    [12] Beyond the problem of delays, the benefit rate in New York 
State is far too low. Even when workers are awarded payments, they are 
often slashed to the state minimum of $40 a week--not enough for anyone 
to live on. As one of the most expensive places to live in this 
country, New York has one of the lowest state minimums in the country. 
In comparison, Pennsylvania, its neighboring state, has a minimum 
benefit rate of $357.78. The $40 minimum causes delays in injured 
workers' cases by offering insurance companies a profitable incentive 
to drag out cases until workers are forced out of desperation to accept 
the lowest settlement possible. In addition to the rate being too low, 
there is no legal time limit for delays or provisions to provide 
immediate relief written into the law. These examples demonstrate the 
abusive nature of WC laws as they currently exist and the failure of 
the law to provide equitable, just treatment to injured workers.
    [13] WCB hearings reflect the disregard for workers' rights. At 
hearings, translation for nonEnglish speaking workers is inconsistently 
and infrequently provided. When translation is provided, only questions 
to and responses from injured workers are translated, while the 
remainder of the proceedings is not. Even worse is the prevailing 
disbelief in workers being legitimately injured on the job. Workers who 
suffer internal injuries either through repetitive motions or exposure 
to chemicals have a particularly hard time getting their injuries 
acknowledged. Even workers with the most obvious injuries are told they 
are not truly injured.
    [14] Instead of relief for workplace injuries, workers gain nothing 
but the misery and humiliation of navigating a deceptive system. As the 
only remedy for injured workers, Workers' Compensation in New York 
State is clearly failing them.

Our Efforts to Change the Workers' Compensation System

    [15] Even the power of the insurance companies has not been enough 
to stop the slew of stories in the media in the past few months 
exposing the severity of the problem of workplace injuries and deaths 
and the failure of the WCB to deal with them in New York State (see 
articles in the Daily News and New York Newsday). These articles are a 
reflection of the work we have done to organize injured workers to call 
for immediate change of the WCB.
    [16] In November of 1997, we met with the Chair of the WCB, Robert 
Snashall to bring these problems to his attention. When no effort was 
made to address the problems, we launched the ``It's About TIME!: 
Campaign for Workers' Health and Safety'' together with the National 
Mobilization Against SweatShops (NMASS) and Workers' Awaaz (WA). The 
campaign was started and is led by Chinese injured workers, as well as 
many injured workers of other races and ethnicities, and demands a 
total overhaul of the Workers' Compensation system. We have organized 
street actions and public rallies outside the WCB offices beginning in 
December of 1999, at which we have collected over 7000 names on 
petitions to press for the overhaul of the WCB system. We have met with 
many state politicians such as Catherine Nolan, Labor Committee Chair 
of the New York State Assembly. Our demands to reform the WCB were 
recently translated into legislation. Assemblyperson Nolan has 
introduced proposed legislation (Bill Number A09270) in the Assembly to 
(1) require a hearing within thirty days of filing for workers' 
compensation, and the resolution of a claim within ninety days of the 
filing of the original claim, (2) provide immediate interim living 
expenses within one week of filing a claim, (3) increase the minimum 
weekly benefit to 40 times the New York State hourly minimum wage, (4) 
to prohibit an employer from requiring an employee to work overtime to 
prevent further injuries as a result of long hours, (5) to implement 
initiatives that will correct the WCB's lack of accountability to 
injured workers and the general public. The equivalent Labor Committee 
Chair in the Senate, however, has refused thus far to introduce similar 
legislation.
    [17] Despite all of our organizing efforts, injured workers remain 
caught in the limbo of gratuitous and extreme delays. Without timely 
resolution to their cases, injured workers will continue to suffer the 
injustices and humiliations of a larger system that allows mandatory 
overtime and sweatshop conditions to rob them of their dignity and 
health.
    The undersigned declare, under penalty of perjury, that the 
foregoing is true and correct to the best of their knowledge.

    Executed this__day of October 2001, in New York, New York.

                                                  Wing Lam,
                    Director, Chinese Staff & Workers' Association.

Sworn and Subscribed before me this day of October 2001.
                                           Sameer M. Ashar,
                 Notary Public, State of New York, No. 02AS6056863,
   Qualified in the County of Kings, Commission expires 02/04/2003.
                                 ______
                                 
                        Affidavit of Juan Flores
    I, Juan Flores, hereby declare under penalty of perjury as follows:
    1. I reside at 35 21st Street, Apartment 1A, Long Island City, New 
York 11106.
    2. I am 68 years old.
    3. I had been working as a car mechanic for eleven years when I was 
involved in a workplace accident on June 30, 1992 at F. Gomez Service 
Station in Brooklyn, New York.
    4. On that day I was doing an inspection of a car when it started 
rolling and I was hit by the car from behind and pinned between the car 
and a worktable.
    5. Due to that accident, I received injuries to my neck, lower 
back, and both legs.
    6. I have worked sporadically after the accident.
    7. I filed a Workers' Compensation claim in June 1992, marked case 
number 09256974.
    8. The case remains open and there have been approximately ten 
hearings over nine years.
    9. I received Workers' Compensation benefits in the total amount of 
$2000.00 between June 1992 and January 1993, though I was supposed to 
receive a total amount of $5760.00 over a 28 week period on the basis 
of the conclusion of the Board that I had a ``Permanent Partial 
Disability.''
    10. My current doctor has indicated, upon a reading of my most 
recent MRI report, that I have a chronic case of spinal stenosis, which 
is a degenerative condition requiring physical rehabilitation and pain 
control therapy.
    11. I cannot afford physical rehabilitation or pain control therapy 
and I continue to suffer pain in my lower back, spine, legs, and neck.
    12. My Workers' Compensation medical benefits were cut off in 1997 
or 1998.
    13. My only income is from Social Security Disability, which I use 
to support myself and my mother.
    14. The Workers' Compensation Board has not provided translation 
services at some of my hearings.

Dated: Brooklyn, New York October__, 2001,

                                               Juan Flores.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                        Affidavit of Eva Herrera
    I, Eva Herrera, hereby declare under penalty of perjury as follows:
    1. I live at 415 Suydam Street, Apartment 2L, Brooklyn, New York, 
11217.
    1. I arrived in the United States in August of 1981 from Mexico. I 
became a permanent resident of the U.S. in 1988.
    1. I was a full-time garment worker silk-screening clothes from 
1985 to 1998. During this time, I worked at J.M.L. Productions in 
Brooklyn, New York.
    1. I worked an average of 72 hours per week, six days a week. I was 
paid in both cash and by check. I was never paid overtime for the extra 
hours I worked, even though I was forced to work overtime.
    1. My work was very demanding. I arrived in the morning to clean 
and prepare the printing machines before I spent the day printing the 
designs onto clothes. This process was extremely difficult. I had to 
constantly inhale the fumes of the printing chemicals and cleaning 
solvents, as well as the smoke emitting from the machines. When 
chemicals spilled, we had to stop our work, clean the spill, and then 
work twice as fast to make up for lost time. The pace was inhumane, 
resulting in frequent injuries and strains.
    1. The employers did not recognize how hard the work was. They did 
not understand that the heavy workload they forced upon us was killing 
us. They thought only about finishing more work, so they could earn 
more money. We needed time to rest, but instead were forced to work 
constantly.
    1. On July 15, 1998, 1 filed a Workers' Compensation claim, after 
years of injuries and illnesses incurred on the job. My case was opened 
as #09845057.
    1. I was suffering and continue to suffer from neurological damage, 
respiratory problems, and back and spinal injuries due to the 
dangerously long and intense hours that I worked.
    1. I have attended nearly 10 hearings in three years but have yet 
to receive any benefits. Each time I went to a hearing, I was treated 
terribly. The judges and insurance company representatives did 
everything they could to prevent me from speaking. When I was 
questioned, they only tried to confuse me. The judges often shouted at 
me, and pressured my lawyer to end the hearing as quickly as possible.
    1. The judges changed from hearing to hearing, and none of them 
ever understood my occupational illnesses well. None of them have ever 
understood the complexity and severity of my health condition.
    1. I am depressed and constantly facing pressure from family 
members to return to work. I find it difficult even to walk for more 
than a few minutes.
    1. The Workers' Compensation Board, in my experience, protects 
employers and insurance companies, not injured workers.

Dated: Brooklyn, New York, October__, 2001,

                                               Eva Herrera.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                      Affidavit of Huang Sheng Ku
    I, Huang Sheng Ku, hereby declare under penalty of perjury as 
follows:
    1. I live at: 41 Avenue A, Apt. 2B New York, NY 10009
    2. I am a United States citizen. I immigrated from Shanghai, China 
in 1987.
    3. From 1987 to 1993, I worked in garment factories and as a 
housekeeper.
    4. In 1993, I started working at Dana Alexander, Inc. I worked 
there five days a week for 40 to 50 hours a week.
    5. I suffered a workplace injury on September 30, 1993 in which 1 
broke my left leg, lower back, and two of the fingers on my left hand.
    6. I was walking backwards, helping a co-worker named Wilson Then 
move a tall pile of potato chip boxes that were loaded onto an 
automatic lifting cart. The boxes were unsafely prepared without the 
required plastic wrap to secure them together. I fell backwards into a 
protruding machine part that was on the factory floor.
    7. I was on the floor and screaming due to the pain. Wilson Then 
came over and moved the machine part to the side to make it seem as if 
I had fallen on my own. One manager named Jack came over to me, but he 
had not witnessed my fall.
    8. I went to the emergency room at Beth Israel Hospital in 
Manhattan by myself. I was put under medication and taken in for 
surgery on my left hand. Despite my other injuries, the doctors only 
treated my fractured middle left finger. I pointed at my other injuries 
and said, ``hurt!'' to the nurse, but she ignored me. I was in 
tremendous pain when I awoke.
    9. After the accident, I saw a doctor named Dr. Levy at Beth Israel 
Hospital and a physical therapist named Debbie Brienza, recommended by 
the hospital. I had a series of short visits with Dr. Levy, during 
which he ignored my indications of back problems. On December 22, 1993, 
he told me he would not give me a doctors' note for work leave and that 
I should go back to work, but continue to see the physical therapist. 
In January 1994, Debbie, the physical therapist, told me to go back to 
work. I asked her if the boss had called her and asked her to tell me 
this. She said yes, but that he promised he would give me light work.
    10. On January 17, 1994, 1 returned to work at the factory. The 
boss did not give me lighter work, as he had told the physical 
therapist he would do. My back started to hurt again. After work, I 
slipped in the snow and fell in front of the factory. I was brought 
back inside the factory by co-workers. The manager asked my co-worker, 
Yin Chan, to check if I had any injuries. She discovered that my hip 
was red and swollen.
    11. In April 1994, I filed for Workers' Compensation benefits.
    12. I received $181.00 per week for approximately three months.
    13. I have had approximately 21 Workers' Compensation hearings over 
seven and a half years.
    14. At my sixth hearing on April 9, 1996 at the Workers' 
Compensation Board, the judge closed the case on my back because he 
thought my back injuries were due to the second fall I had which was an 
off-work premise injury. But my back was injured from the original 
September 30, 1993 workplace fall. At this hearing, Wilson Then lied 
about the fall I had by saying I had not fallen on the machine part 
(which he later moved) but had fallen on the floor. After this hearing, 
the judge mistook the testimony of my boss, Alexander Dzieduszycki, for 
that of a doctor.
    15. Though I was in attendance at the sixth hearing, I did not 
understand what was happening even though there was a translator. This 
was because the translator only translated questions directed to me and 
then translated my responses, but did not translate anything else for 
me.
    16. All of the hearings since then have served no purpose and there 
have been no further decisions forthcoming.
    17. There has been Mandarin interpretation at only four of the 21 
hearings I have attended. For the first 13 hearings, there was only one 
time when a translator was provided. Two of my hearings were canceled 
because the court had not provided a translator.
    18. A short time after my injury, my daughter-in-law and grandson 
immigrated to the United States. I have been forced to depend on them 
for survival because I am injured and can no longer work.
    19. Other than for three months, the Workers' Compensation Board 
has not given me one penny.
    20. I feel that I have been treated like a criminal by my employer, 
their insurance company, and the Workers' Compensation Board.
    21. The Workers' Compensation Board is on the side of the employers 
and their insurance companies and gives their words greater weight than 
that of injured workers.
    22. I have suffered a great deal of mental and physical pain after 
my workplace injury, and this is so partly because of the unfairness 
and delays in the adjudication of my Workers' Compensation claim.

Dated: New York, New York July__, 2001,

                                            Huang Sheng Ku.

Sworn and Subscribed before me this__day of July, 2001.

                                           Sameer M. Ashar,

                 Notary Public, State of New York, No. 02AS6056863,
          Qualified in Kings County, Commission Expires 04/02/2003.
                                 ______
                                 
                    Affidavit of Stanislawa Kocimska
    I, Stanislawa Kocimska, hereby declare under penalty of perjury as 
follows:
    1. I have no permanent residence.
    2. I was a Home Attendant for eight years when I injured myself on 
the job on March 17, 1994.
    3. I injured my back and my knee when I caught my patient as he was 
falling down from his bed to the floor.
    4. I was unable to move my back and knee after receiving this 
injury.
    5. I went to see a Dr. Sorokin.
    6. The doctor filled out a disability form and one and a half years 
after the accident, I received disability payments for six months.
    7. Shortly after my accident, I also filed a Workers' Compensation 
claim, case number 09437140.
    8. I have never received any payments from the Workers' 
Compensation Board and 3 months after the accident stopped receiving 
payments for medical treatment.
    9. The Workers' Compensation Board repeatedly schedules hearings 
over one year apart.
    10. I waited for over four and a half years for a ruling and in 
this time have lost my apartment and am now homeless, relying on 
different friends to provide me with shelter each night.
    11. The case is now closed.
    12. I have not worked since March 1994 and I now beg for money at 
Polish churches to provide for my own basic needs.
    13. My health has been deteriorating and I have limited mobility in 
my back; I have difficulty walking and bending down.
    14. Additionally, when I went to the offices of the Workers' 
Compensation Board to speak with other injured workers, I was 
physically and verbally threatened by a security guard employed by the 
Board; he stepped on my foot and pushed my shoulder.
    15. At the few hearings at which the Workers' Compensation Board 
provided translation services, the translation was incompetent and 
inadequate.

Dated: Brooklyn, New York, October__, 2001,

                                       Stanislawa Kocimska.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                        Affidavit of Maria Labuz
    I, Maria Labuz, hereby declare under penalty of perjury as follows:
    1. I reside at 155 Greenpoint Avenue, Apartment 6, Brooklyn, New 
York 11222 by myself.
    2. I am a 68-year old immigrant to the United States from Poland 
and have no family in the United States.
    3. I had an accident while serving as a cleaner at an office on 
February 28, 1988 when I slipped and hit my head on the floor.
    4. I hit my head on the floor after I had waxed the floor of the 
office and was going home at the end of a shift and I returned to 
finish a task.
    5. I lost hearing in my left ear and hurt my back and neck. I have 
only limited movement of my neck.
    6. I filed a Workers' Compensation claim and started receiving 
$300.00 per week over an eight-month period.
    7. Then, the doctor I went to after my accident told me to go back 
to work, so I stopped receiving Workers' Compensation benefits and 
worked for three more years.
    8. I had a second injury in 1991, when I was hit by a loaded cart.
    9. I worked for three months after the second injury and then asked 
my supervisor for a part-time job, because I could not undertake the 
full-time work with my injuries.
    10. I worked in a part-time job for one week after which a new 
company took over, and the new supervisor fired me immediately.
    11. I have been without a job since 1991 and I am barely surviving.
    12. My Workers' Compensation case has been open since June 1991 and 
I have not been receiving any benefits during this period.
    13. There have been approximately 20 hearings in my case over 10 
years, many of them short, and many for the purpose of asking for 
production of medical records.
    14. The Workers' Compensation Board has treated me inhumanely; they 
ignore my questions and do not tell me of the status of my claim.
    15. I have used up my savings and am borrowing money to survive and 
to receive medical treatment for my injuries.
    16. The Workers' Compensation Board did not provide translation 
services at approximately one-half of my hearings.

Dated: Brooklyn, New York, October__, 2001,

                                               Maria Labuz.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                       Affidavit of Zhi Hua Qian
    I, Zhi Hua Qian, hereby declare under penalty of perjury as 
follows:
    1. I live at: 41-07 42nd Street, Apartment 5D, Sunnyside, New York 
11104.
    2. I arrived in the United States in May of 1992 from China. I 
became a naturalized citizen of the U.S. in 2000.
    3. I worked intermittently as a waiter at restaurants in Florida 
and New York from 1992 to 1994.
    4. I started work at the Marriott Marquis Hotel in Manhattan, New 
York in January 1995. There was no union at the Marriott.
    5. In 1996, the manager put me in an unfair situation where I 
worked about 31 hours and five days per week as a full-time worker. The 
situation was unfair because management gave the other workers seven 
hours' time and wages to do the same quantity and quality of work that 
they required me to do in only six hours' time and for only six hours' 
wages. The managers also put me to work every Sunday, Sunday being the 
day when there were the most bags of linen to lift of the entire week. 
None of the other workers were willing to work on Sundays. When I 
worked on Sundays, I had to do two persons' share of work. Although the 
manager sometimes asked another worker to come to help work overtime on 
Sundays (usually for three to four hours), that worker usually went 
home whenever he wanted and did not work from the beginning of the 
shift until all the work was completed. After about two hours of this 
heavy, fast-paced work, I would get extremely tired, but would have to 
continue working, which would make me even more exhausted.
    6. The work was very hard because there was a lot, and I had to 
work very fast. I had to continually lift piles of linens and bags from 
one metro-cart and move them to another or pick them up from the floor 
and put them into the metro-carts. We also had to get into the carts 
and jump down on the linen, and then put in more linens until the carts 
were full. We also had to push the carts, which were extremely heavy 
once they were filled.
    7. Management did not understand how difficult and heavy the work 
was and that workers needed time to recuperate, because the managers 
never did this work themselves, not even for one day.
    8. Because I had one less hour to do the same amount of work as the 
other workers, I had to work more quickly than they did. So, I suffered 
repetitive stress injuries in my legs, lower back, hands, and wrists.
    9. On March 3, 1998, after I found that my hands were both numb and 
in severe pain from these injuries, I was unable to work and I left the 
job.
    10. I applied for Workers' Compensation on May 28, 1998.
    11. I have had seven hearings over the last three years. In the 
seventh hearing, the judge was new to my case. She did not know the 
previous situation. There are two parts to my case: one for my hands 
and wrists and another for my legs and lower back. My lawyer added my 
leg and back injuries to my case in April of 1999. The judge mistakenly 
used the date of the seventh hearing (September 1, 2000) to make the 
decision. But there had already been three hearings to discuss the 
portion of my case regarding my legs and lower back. Based on the 
incorrect date, and because she did not know about the earlier 
hearings, the judge thought the two-year statute of limitations had 
expired on the portion of my case regarding my legs and lower back. On 
October 5, 2000, 1 filed an appeal of the judge's decision (regarding 
my legs and lower back). I had an eighth hearing scheduled for December 
13, 2000 to discuss my hand and wrist injuries. When I went to that 
hearing, the Workers' Compensation Board canceled the hearing because 
part of my case (regarding my legs and lower back) was already being 
appealed.
    12. Translation was provided at only some of the hearings for my 
case, not at all of them.
    13. Over the last three years, I have only received limited living 
expenses for a period of 19.6 weeks from March 4, 1998 to July 20, 
1998. Since then, for almost three years, I have received nothing and 
do not know when I will receive any benefits to support my family.
    14. I do not receive Workers' Compensation for my living expenses. 
I have continued to get medical treatment but, for over two years, my 
doctors say they have not received payment from the insurance company. 
So, I am only able to see the physical therapist twice a month when 
before I was going three times a week. Even though they are seeing me, 
the doctors do not know when or if they will be paid. Seeing the 
physical therapist only twice a month is not enough to help me deal 
with the pain.
    15. I have not been able to work since March 1998. 1 have a wife, 
one daughter under a year old, and another daughter who is three years 
old, all of whom I have been unable to support.

Dated: New York, New York, August__, 2001,

                                              Zhi Hua Qian.

Sworn and Subscribed before me this__day of July, 2001.

                                           Sameer M. Ashar,
                 Notary Public, State of New York, No. 02AS6056863,
          Qualified in Kings County, Commission Expires 04/02/2003.
                                 ______
                                 
                      Affidavit of Agueda Santana
    I, Agueda Santana, hereby declare under penalty of perjury as 
follows:
    1. I reside at 1687 Linden Street, Apartment 3, Ridgewood, New York 
11385.
    2. I was injured while working as a Home Attendant with Institute 
Home Care Services on September 24, 1996.
    3. I was caring for a 75-year old client with Alzheimer's Disease 
when she pushed me down the stairs.
    4. I was six months pregnant at the time and was unable to leave my 
bed for three months after the injury, until I went to the hospital for 
the birth of my baby.
    5. I filed a Workers' Compensation claim shortly after the birth of 
my baby and my case number is 09660096.
    6. I received approximately $1300.00 from 1996 to April 1999 and my 
case remains open.
    7. The Workers' Compensation Board continues to schedule hearings 
at which the insurance company doctors are to testify about my 
injuries.
    8. I have had approximately 15 Workers' Compensation hearings over 
five years in my case.
    9. I suffer from permanent injuries to my legs, shoulder, back, and 
arm and have been unable to work.
    10. I have lost my apartment, have been forced to move in with my 
parents, and my brother is the only person who is working in our 
household.
    11. I am depressed and in constant pain; I find it very difficult 
to even walk.
    12. The Workers' Compensation Board has not provided translation 
services at any of my hearings.

Dated: Brooklyn, New York, October__, 2001,

                                            Agueda Santana.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                   Affidavit of Arkadiusz Tomaszewski
    I, Arkadiusz Tomaszewski, hereby declare under penalty of perjury 
as follows:
    1. I am a resident at 70 E. 8th Street, Apartment 213, Brooklyn, 
New York 11218-1818.
    2. I immigrated to the United States from Poland in November 1986.
    3. In 1988, I started working in the asbestos removal business. I 
started work at R&S Brothers Insulation, Inc. in October 1992.
    4. My job was to cover the ceilings, walls, and floors of rooms in 
which we were removing asbestos with sheets of plastic using different 
types of glues. I applied the glue from cans to the walls using a 
brush.
    5. In my job at R&S, I started at 7 a.m. and worked into the 
evening.
    6. I was injured at my workplace on September 15, 1992. At around 
11 a.m. I started to feel nauseous, began vomiting, and my vision was 
blurred. My supervisor told me to cut the plastic sheets and get out of 
the space. He refused to call an ambulance.
    7. We had been complaining about the health and safety conditions 
at this site without any response from our employer.
    8. An inspector from the Occupational Safety and Health 
Administration had earlier inspected that site and mentioned that there 
was inadequate ventilation due to the fact that plastic covered every 
opening in the space.
    9. A co-worker was suffering from similar symptoms and together we 
struggled to get to the local hospital. There we were checked in 
through the emergency room for 24 hours and given oxygen.
    10. After my injury, I started getting headaches, breaking out in 
sweats, remained out of breath, and got rashes on my hands.
    11. I ran the New York Marathon in 1988 and was rendered unable to 
even train for another marathon.
    12. I tried to return to work after a few weeks, however I was 
unable to keep a job in the field of asbestos removal for longer than a 
few days. I started to get rashes on my face on the second or third day 
of work and developed an allergy to latex for the first time in my 
life.
    13. I filed for Workers' Compensation benefits in 1993, case number 
09271614.
    14. In 1994, 1 received approximately $4000.00 in a lumpsome 
payment of Workers' Compensation from the insurance company. I faced 
eviction and borrowed money from friends because I was unable to work 
for longer than 2 to 3 days at any job. I never received any Workers' 
Compensation benefits other than the single lumpsome payment.
    15. There have been approximately 30 hearings in my case over a 
seven year period.
    16. There was confusion over whether my employer was self-insured 
or had an outside insurance carrier, and the Workers' Compensation 
Board took a number of years to determine which entity is liable for my 
injuries.
    17. In 1998 1 received a favorable decision from the Workers' 
Compensation Board, which was subsequently appealed by the insurance 
company. I have still not received any benefits.
    18. I also serve as a volunteer with the NMASS Health and Safety 
Committee.
    19. As a volunteer with NMASS, I have come into close contact with 
a significant number of Workers' Compensation claimants, all of whom 
face delays in the adjudication of their claims, pending from 3 months 
to over 20 years.
    20. The average delay suffered by claimants with whom I work is 
approximately 6 years.
    21. The Workers' Compensation Board is not responsive to our 
requests for assistance and allows insurance companies to delay payment 
of claims.
    22. It is clear to me that the Board is on the side of the 
insurance companies and employers, and gives more credence to the 
testimony of their doctors and lawyers. I believe that many of the 
administrative law judges employed by the Board are former insurance 
company lawyers.
    23. The recent reforms initiated by the Pataki administration and 
the Board create even more incentives for insurance companies and 
employers to delay adjudication of claims; because of long delays, 
workers in need of money are forced into the Section 32 expedited 
decision-making part, through which they receive significantly less 
money than they are entitled to.

Dated: New York, New York, October__, 2001,

                                     Arkadiusz Tomaszewski.

Sworn and Subscribed before me this__day of October, 2001.
                                 ______
                                 
                  Affidavit of the Workers' Awaaz (WA)

WA's History and Mission

    [1] Workers' Awaaz is a membership-based community organization of 
South Asian women workers of, particularly domestic workers, in New 
York City. Founded in 1997, we are one of the first South Asian 
workers' centers in the country. We organize workers to advance our 
rights and dignity in the workplace and community, to expose sweatshop 
conditions, and to build worker leaders to fight for economic and 
social justice. During our work in the past few years, we have 
organized what has so far been an invisible workforce of domestic 
workers--hidden behind the closed doors of employers' private homes. 
Through our campaigns we have exposed the brutal and exploitative 
conditions of work that many domestic workers face and won settlements 
for back wages and damages.

Sweatshops in Private Homes

    [2] We organize workers who are hardest hit by abusive and inhumane 
sweatshop conditions, such as long hours, low wages, unsafe working 
conditions, and a lack of worker protections.
    [3] According to the 2000 Census, South Asian immigrants make up 
one of the largest and fastest growing populations in New York City. 
Many of these newly arrived immigrants are low-income, living or 
working in different industries across New York City. A large, 
underestimated number of South Asian workers are undocumented, working 
off the books in low-wage, hazardous jobs.
    [4] Like other sweatshop jobs that South Asians work in, domestic 
workers work 6-7 days a week, 14-18 hours a day for about $142 per hour 
in private homes in NYC and its suburbs. Most South Asian domestic 
workers are live-in domestic workers. Almost all of them, whether 
documented or undocumented, are paid in cash by employers who do not 
record hours, withhold or pay taxes, or provide workers compensation 
insurance for them. Since domestic workers live with their employers 
for most or all of the week, the biggest problem they experience is 
extremely long hours and no control over their time. They spend their 
days working on an endless cycle of chores--scrubbing pots and pans, 
washing clothes, vacuuming, cleaning floors and cooking. When required 
to take care of small children, they are on call 24 hours a day. Many 
times, they do not have enough time to eat their meals, take a shower 
or rest briefly during the day. Sometimes, they sleep in basements that 
are not adequately heated in the winter. In addition, most experience 
stress and harassment daily. Some don't receive time off; most don't 
receive minimum wage; and all are required to work overtime without 
overtime wages, benefits or any kind of protection. The long hours mean 
that domestic workers do not get enough time to rest, eat, sleep and 
take care of their health. Most domestic workers, after working in the 
industry for several years, develop chronic back, neck or shoulder pain 
and other stress related illnesses due to the intense pace of work and 
long hours.

New York Workers' Compensation Board

    [5] One of the few protections that injured domestic workers are 
supposed to have is workers compensation insurance.
    [6] However, it is well-documented through the testimony of injured 
workers and reported in the media that the WC system imposes extreme 
delays that forestall the resolution of thousands of cases. Workers 
wait months or even up to a year between hearings, ultimately dragging 
their cases out for years on end. In the meantime, the WC provides no 
payments to cover immediate living expenses or urgently needed medical 
treatment.
    [7] The excessive delays pressure and intimidate injured domestic 
workers to continue working at their sweatshop jobs. Almost all 
domestic workers, whether documented or undocumented, are paid off the 
books, in cash by employers who do not withhold taxes for them or buy 
workers compensation insurance. If domestic workers file a Workers Comp 
claim, they must still continue to live and work with their employer, 
while they wait for the claim to be processed. Filing a workers 
compensation claim makes her working and living situation impossible 
for the domestic worker. Additionally, the nature of their injuries--
repetitive stress syndrome and chronic muscular pain--make domestic 
workers' claims more difficult to be recognized by the WCB. Many 
domestic workers who have been screened by occupational physicians are 
told to continue taking painkillers because the physicians are not 
optimistic about workers compensation claims for repetitive stress and 
other injuries due to sheer long hours and mandatory overtime. Most 
workers chose to continue working, making their injuries worse, than 
file a claim that may take years to be resolved.

Our Efforts to Change the Workers' Compensation System

    [8] Recognizing the need to reform the WC system, we came together 
with the National Mobilization Against SweatShops (NMASS) and the 
Chinese Staff and Workers' Association (CSWA) to launch the ``It's 
About TIME!: Campaign for Workers' Health and Safety''.
    [9] The campaign demands a total overhaul of the Workers' 
Compensation system. We have organized street actions and public 
rallies outside the WCB offices and petition drives to press for the 
overhaul of the WCB system. We have met with many state politicians 
such as Catherine Nolan, Labor Committee Chair of the New York State 
Assembly. Our demands to reform the WCB were recently translated into 
legislation. Assemblyperson Nolan has introduced proposed legislation 
(Bill Number A09270) in the Assembly to (1) require a hearing within 
thirty days of filing for workers' compensation, and the resolution of 
a claim within ninety days of the filing of the original claim, (2) 
provide immediate interim living expenses within one week of filing a 
claim, (3) increase the minimum weekly benefit to 40 times the New York 
State hourly minimum wage, (4) to prohibit an employer from requiring 
an employee to work overtime to prevent further injuries as a result of 
long hours, (5) to implement initiatives that will correct the WCB's 
lack of accountability to injured workers and the general public. The 
equivalent Labor Committee Chair in the Senate, however, has refused 
thus far to introduce similar legislation.
    [10] Despite all of our organizing efforts, injured workers' claims 
remain subject to long and unnecessary delays. Without timely 
resolution to their cases, injured workers will continue to suffer the 
injustices and humiliations of a system that allows mandatory overtime 
and sweatshop conditions to rob them of their dignity and health, 
indeed their life.
    The undersigned declare, under penalty of perjury, that the 
foregoing is true and correct to the best of their knowledge.

Executed this__day of October 2001, in New York, New York.

                                           Shahbano Aliani,
                                      Board Member, Workers' Awaaz.

                                           Satwant Kukreja,
                                             Staff, Workers' Awaaz.

Sworn and Subscribed before me this__day of October 2001.
                                 ______
                                 
                        Affidavit of Jinen Zhou
    I, Jinen Zhou, hereby declare under penalty of perjury as follows:
    1. I live at: 1665 Cornelia St., Apt. 3L, Ridgewood, NY 11385.
    2. I immigrated to the United States with my son in 1989. I 
currently have a green card. I have had my citizenship interview but 
have not had my swearing-in ceremony yet.
    3. While in the U.S., I have not worked anywhere other than at Sing 
Tao newspaper.
    4. I worked for the Sing Tao newspaper company from 1990 to 1996, 
where I loaded newspaper bundles into the backs of the trucks and 
delivered them to stores and newsstands.
    5. I worked seven days a week, approximately eight to nine hours a 
day. I was not given any breaks during the day, while the workers in 
the office got one-hour lunch breaks. I was forced to work very fast. 
The working conditions were unsafe. I had to sit in the back of the 
moving truck with the newspapers. Even though I worked seven days a 
week, I was only paid for six days of work.
    6. One night, on October 19, 1996, it was raining. The floor of the 
truck was wet and slippery from the rain. I was in the back of the 
truck. At one point, the truck made a sharp turn and I fell onto the 
floor of the truck.
    7. When I got up, I felt very dizzy. I had injured my head, my 
neck, my back, and both knees. I went to a Chinese doctor to get herbs 
to relieve the pain because the Western doctor's office was closed over 
the weekend. On Monday October 21, 1996, I was still in a lot of pain 
so I went to see a Western doctor named Dr. Shen.
    8. I had a previous workplace injury in 1993 when a truck door 
smashed my thumb. At that time, my boss had gone with me to the doctor 
and I had an x-ray taken of my thumb, but my boss took the x-ray and 
never gave it back to me. A doctor performed surgery on my thumb and I 
saw that doctor approximately four times. Before my thumb was healed 
and while I was still under the care of this doctor, my boss called me 
and said there was a lot of work for me and that I must come back to 
work right away or he would fire me. This is why, when I had my second 
injury, I did not immediately go to the hospital. I was afraid my boss 
would threaten me again, or fire me.
    9. I filed for Workers' Compensation in October of 1996.
    10. I received $279.00 a week from October 20, 1996 to June 9, 
1997. From June 9, 1997 to August 21, 1998, my payments were reduced to 
$170.00 a week. From August 21, 1998 to July of 2000, my payments were 
again arbitrarily reduced to $160.00 a week.
    11. In July of 2000, my payments were suspended. There is a mistake 
in my medical history records from when Dr. Shen asked me about my 
first Workers' Compensation injury. For some reason, he wrote down that 
I had injured my knee, when I had injured my thumb. When my former 
employer's insurance company applied for a suspension of my payments in 
February of 2000, they used this mistake to claim my right knee injury 
was a pre-existing injury, which it was not.
    12. The insurance company and their doctor (Dr. Hudak) continue to 
refuse to acknowledge any of my workplace injuries, including the 
damage to my right knee.
    13. Since February of 2000, there has been no hearing to discuss 
the suspension. My last hearing was on December 14, 1999.
    14. I have had approximately nine hearings over four and a half 
years.
    15. Due to my head injuries, I remain dizzy and get intense 
migraine headaches. I suffer from memory loss, insomnia, and severe 
neck and shoulder pain. I have painful cramps and also numbness in my 
legs, and a lot of pain in both knees. In June of 1997, 1 had to have 
surgery on my left knee.
    16. I am unable to afford any medical treatment for these 
conditions. Despite the insurance company's appeal, Dr. Chao still sees 
me twice a month. Dr. Chao has not been paid since the insurance 
company's appeal.
    17. I have a son and a daughter who I cannot support due to my 
injuries. I am borrowing money from family and friends in order to make 
ends meet.
    18. The delay of Workers' Compensation has destroyed my mental 
health and my relationships with my family members. My self-esteem as a 
providing father and husband has been destroyed. I suffer from severe 
depression still and have been suicidal at times.

Dated: New York, New York, July__, 2001,

                                                Jinen Zhou.

Sworn and Subscribed before me this__day of July, 2001.
                                           Sameer M. Ashar,
                 Notary Public, State of New York, No. 02AS6056863,
          Qualified in Kings County, Commission Expires 04/02/2003.
                                 ______
                                 
     PREPARED STATEMENT OF THE UNITED FOOD AND COMMERCIAL WORKERS 
                       INTERNATIONAL UNION (UFCW)

    On behalf of the 1.4 million members of the United Food and 
Commercial Workers International Union (UFCW), we are glad to present 
testimony on the important issue of workplace safety and health for 
immigrant and low wage workers. The UFCW is North America's largest 
private sector union, nearly a million and half people working together 
to improve their lives and their communities. UFCW members are in many 
different industries, but are concentrated in retail food, meat 
packing, poultry, and other food processing industries.
    Whenever American families sit down to share a meal, chances are, 
most of what they'll eat has passed through the hardworking hands of 
the UFCW members who work in these industries. Thousands of other UFCW 
members work in the health care industry, in department stores, and in 
the garment manufacturing, distillery and winery, chemical, and textile 
trades.
    Our industries have been affected by the same demographic changes 
as the rest of the nation. In many of our industries--poultry 
processing, meat processing, and garment manufacturing--there are great 
numbers of immigrant workers. We work to service, organize, and 
represent these workers to the best of our ability, but there are 
challenges. For example, legal documentation is a continuing challenge 
for employers, both in verifying documents and avoiding discrimination 
in the process. While this hearing will not focus on the issues 
regarding legalization and documentation, it is important to note that 
undocumented workers are often at the mercy of unscrupulous employers. 
Workers' fear of speaking up for themselves means that they face 
additional job hazards.
    We offer here a cautionary tale as an example of this phenomenon. 
On October 11, 2000, Santos Morales (his name has been changed to 
protect his identity), a young man from Guatemala in his early 
twenties, reported to work, as usual, in the middle of the night. His 
job was to clean the hash gut grinder and other equipment at a pork 
plant in a small town in Minnesota so that the equipment would be 
sanitized for the day shift.
    Like every other day, Mr. Morales put on his boots and his hard hat 
and set off to clean the machine--which meant actually climbing inside 
of the hash gut grinder. At approximately 4:15 A.M., Mr. Morales became 
caught up to his knees in the grinder. The machine, it turned out, was 
still running. Flailing his arms and screaming in pain, it was a full 
ten minutes before help arrived. When the local fire and rescue 
department was unable to extract him from the grinder, surgeons from a 
hospital in Sioux City, Iowa were flown in. After welding through the 
machine, they determined that it would be necessary to amputate both 
legs below the knees in order to free him from the screw auger of the 
grinder. Mr. Morales had worked at the plant for only six months before 
the tragedy occurred. Like other recent immigrants on the night cleanup 
crew, he had received only a single hour of training before being sent 
out on the floor. Lock-out, tag-out procedures for stopping the flow of 
electricity while machinery is cleaned or serviced were posted only in 
English not in Spanish. No hands-on training was conducted in Spanish. 
As hard as it may be to believe, no one ever explained the hazards of 
the job to Mr. Morales. He was not even employed by the company, but 
worked for a contractor who performed the work.
    Mr. Morales' story is shared by many immigrant workers. They are 
pushed to do their jobs under high pressure in order to meet production 
requirements; they are fearful that if they complain they will be 
fired, threatened with deportation, or, in some cases, actually 
deported. Cleanup in meat packing and food processing plants has always 
been one of the most dangerous jobs, left to the most vulnerable 
workers. Today, this almost always means the work is done by recent 
immigrants from Latin and Central America.
    Mr. Morales now lives in a nursing home. He may never see his wife 
in Guatemala again. The loss of his legs, his livelihood, and his 
dreams rests on all of us.
    This tale is true, and what makes it most regrettable, is that it 
was avoidable. Under the auspices of a grant from the U.S. Department 
of Labor, the UFCW has been engaged in training workers to prevent 
workplace injuries and, most importantly, to train workers to train 
others. This ``train the trainer'' method has helped us to replicate 
and expand our ability to make workplaces safer. Central to our most 
recent grant is a Latino Outreach Program that specifically targets 
Hispanic workers with Spanish language training and materials. Our work 
is often collaborative with the companies that employ our members and 
has focused primarily on the most hazardous industries--meat packing 
and poultry processing. We are working to prevent exactly the kind of 
accident that took the legs and livelihood of Santos Morales. 
Unfortunately, despite our successful execution of the grant as 
intended, the Occupation Safety and Health Administration has informed 
us that our four-year grant has been cut back to only two years and 
that our funding for this year has been decreased by 25 percent. There 
is no question that vulnerable, low wage, immigrant workers will suffer 
as a result of this proposed action.
    The members of this Subcommittee are doing a real service to the 
nation by shining a bright light on a topic that is not well known by 
the American public. Late tonight, in communities all over this nation, 
Mr. Morales' former co-workers will continue to do the dangerous but 
necessary work that America needs to have done. They should not do so 
in fear, without the protections of our laws, or without the 
opportunity to collectively organize to improve their workplace if they 
so choose. There is no doubt that their safety is inextricably bound 
with ours, both as consumers, as well as workers. There are numerous 
policy changes that Congress could make to improve their safety, and 
several of them are within the purview of this Subcommittee.
    First, Congress should insist that OSHA continue to fund the Susan 
Harwood Training Grant Program to continue the successful work in 
training workers to recognize workplace hazards and thus reduce 
occupational injuries and illnesses. For OSHA to reduce the funding 
and, therefore, the effectiveness of this program, would be a tragic 
mistake.
    Second, increase OSHA's budget authority so that it can 
appropriately enforce the law and prevent workplace tragedies.
    Third, promulgate an ergonomic standard. Immigrant workers are 
disproportionally impacted by ergonomic injuries and those injuries 
continue unabated while the Department of Labor ``considers'' other 
approaches.
    Fourth, improve OSHA's whistle-blower protection for immigrants and 
others filing OSHA complaints. This would ensure that workers would not 
have to hide in the shadows or accept substandard treatment due to 
their immigrant/documentation status. While workers have the right to 
file 11(c)--discrimination--cases with OSHA) it is rare that they are 
successful, as substantiating such claims is quite difficult 
(particularly for immigrant workers). This small step alone would 
encourage employers to ameliorate some of their most egregious behavior 
and would save the lives and limbs of countless immigrant workers.
    Fifth, OSHA must hire more people from immigrant communities in 
order to ensure compliance with the law. UFCW will continue to develop 
culturally appropriate materials and training, but it is critical that 
the agency charged with protecting the health and safety of all workers 
is truly accessible to all workers.
    Mr. Chairman, the problems and challenges of immigrant workers will 
continue after this hearing. Mr. Morales will not regain his legs, and 
unfortunately, others will suffer similar fates. We must do all that we 
can to prevent these avoidable tragedies. We at the UFCW pledge our 
assistance to immigrant workers. Thank you for the opportunity to 
present this testimony and we would be glad to respond to written 
inquiries.

  United Food and Commercial Workers International 
                                      Union (UFCW),
                                            UFCW Local 789,
                                                 February 25, 2002.
Hon. Paul Wellstone,
U.S. Senate,
Washington, DC 20510.
RE: Dakota Premium

    Dear Paul: On February 18, 2002, 1 met with your aide, Marge Baker. 
We talked at length about a number of issues. At the center of the 
discussion was worker safety/ergonomics but the issues reached much 
broader matters. It was clear the increasing numbers of immigrant 
workers (documented and undocumented) were driving the failures of 
worker safety.
    There is perhaps no better example of that fact than Dakota 
Premium. It's a packing house in South St. Paul, Minnesota and the lone 
remnant of a once thriving industry in that town. It's also a plant 
that has gone from a predominantly Anglo workforce to one with 95% 
Latinos.
    What makes the plant different from so many is the unique chain of 
events that have occurred since June of 2000. To hear the story, is to 
say it's not possible. For that reason, we have elected to recant 
several of the incidents. I apologize in advance. Most of the 
information will be anecdotal. By the time we finish, you will 
understand why workers elect to remain nameless.
    It is significant to understand for purposes of this narrative 
there are several undocumented workers in the plant. Let me be clear, 
we've never asked nor do we care. Having said that, it makes an 
enormous difference in what has happened. Any actions taken always 
increase the risk and exposure of their legal status. It will become 
apparent, this employer and others rely on that to contain costs.
    During the spring of 2000, workers at Dakota Premium found 
themselves being taken advantage of. Wage rates ranged from $8.00 to 
S10.00 an hour. While this is well below industry standards, it was 
another factor driving the anger. Workers were being hurt. Once they 
were injured, it was not unusual for the employer to tell the worker, 
they had no work for them. Most often, they just left. Collectively, 
they saw what was happening and started talking. It was fairly easy to 
see the higher rate of injury was directly related to the higher line 
speed.
    On June 1, 2000 workers on the processing side presented a list of 
demands to the employer. Mind you, there is no Union presence at this 
point. Their primary concern was worker safety. The employer told them 
to get to work or get out of the plant. The majority of the workers 
walked out.
    One worker walked to our Union hall and asked for help. At the same 
time, leaders of the ``strike'' were invited back into the plant to 
present their list of demands. A return to work agreement was reached, 
with the most important feature, a safe line speed number that would be 
monitored by the workers.
    UFCW Local 789 signed over eighty authorization cards that day. In 
the next month, an additional sixty cards were signed. The Union asked 
for voluntary recognition, the employer demanded an NLRB election. A 
date was set for July 21. Both sides ran aggressive campaigns.
    The Union won the election, 112 to 71. Within days, the employer 
filed objections to the election. The charges covered everything from 
the Union bribing workers ($10,000.00 per vote) to threatening to have 
workers deported if they voted against the Union. One allegation, 
centered on a ballot produced by the Union without our name on it. 
After a lengthy hearing, the Union was absolved of any wrong doing.
    The owner, Rosen Industries, continued the appeals to Washington. 
In each case they have been denied. On August 28, 2001, the NLRB 
certified UFCW Local 789 as the bargaining representative for the 
Dakota Premium Workers. The Union requested negotiations begin. The 
employer refused; sending yet another appeal to the NLRB. The Union 
filed charges against the employer for failure to bargain. The employer 
appealed and 10 charges against the Company are pending a hearing over 
their appeal.
    All of this says nothing to the tragedy that has unfolded in the 
workplace. For purposes of simplifying and to accentuate the abuses 
workers have suffered, we have extracted the incidents in numerical 
order below. You will note the lack of detail because workers are 
afraid. The employer told workers they would never win. They boldly 
stated their employer would never sit and negotiate a contract. A year 
and eight months later, those threats have had a chilling effect on 
workers who took an enormous risk to demand plant safety, a little 
dignity and a living wage. Here are, the incidents:
            In Solidarity,
                                              Bill Pearson,
                                         President, UFCW Local 799.
                                 ______
                                 
  United Food and Commercial Workers International 
                                      Union (UFCW),
                                            UFCW Local 789,
                                                 February 29, 2002.
Hon. Paul Wellstone,
U.S. Senate,
Washington, DC 20510.
RE: Dakota Premium
    Dear Senator: These are some examples of the many incidents that 
occur in Dakota Premium. Not too long ago, a female worker got into an 
accident at work resulting in the loss of half of the ring finger and 
the tip of the middle finger. The response of the company was to take 
her to the company's clinic and send her home with no information at 
all. She didn't know anything about worker's comp, her insurance 
coverage or anything. She was out of work before she called us and 
asked what to do. After she obtained legal counsel, she finally got 
fair treatment and lost wages. There are many cases like this. 
Unfortunately many workers don't report injuries for fear of 
retaliation or termination.
    Another horrible situation is that there are no bathroom breaks, so 
many workers resort to peeing on the floor. Amazingly this is a common 
practice at this plant. You can't blame the workers this is a natural 
function of the body. When they don't have access to bathroom breaks, 
they are forced to do this; no matter how disgusting it sounds. It is 
strange though, that the only person who has been punished for doing 
this was a Union Sympathizer.
    A third case that shows the horrible things that workers have to go 
through happened about a month ago. A worker was suspended and was to 
be replaced by another worker, who happens to be the husband of the HR 
manager. He refused to do the job and asked someone else to do it for 
him. When that person said no he was terminated, nothing happened to 
the husband of the HR manager.
    A final example happened about a year ago. A mistake made by the 
cleaning crew left an excess of ammonia in the plant. Workers knew that 
something was wrong but they didn't know what to do until a worker that 
didn't know Spanish tried to push everyone outside. The level of 
intimidation in the plant was so high that most of the workers wouldn't 
leave their position; even with their health at risk. It took seeing 
one of the female workers pass out from the fumes to convince them to 
leave the building. This is a good indication of the lack of training 
for management and lack of concern for the workers. It is obvious that 
in this plant workers are not seen as human beings.
            Respectfully,
                                              Bill Pearson,
                                         President, UFCW Local 789.
                                 ______
                                 
                 Western Growers Association (WGA),
                                          Irvine, CA 92614,
                                                    March 12, 2002.
Hon. Paul Wellstone,
U.S. Senate,
Washington, DC 20510.
    Dear Mr. Chairman: Western Growers Association (WGA) would like to 
comment for the record of the subcommittee hearing on ``Workplace 
Safety and Health for Immigrant and Low Wage Workers'' on February 27, 
2002. WGA requests that this letter be submitted for the hearing 
record.
    WGA is an agricultural trade association established in 1926 whose 
over 3,500 members grow, pack and ship 90% of the fresh vegetables and 
nearly 70% of the fresh fruit and nuts grown in Arizona and California. 
This constitutes about one-half of the nation's supply of fresh 
produce.
    WGA shares your worthy goal of ensuring that all agricultural 
workers have safe and healthy working conditions and environments in 
which to work. Moreover, WGA also agrees with you that immigrant 
workers should be treated fairly and with respect in all aspects of the 
employer/employee relationship. WGA joins you in condemning any abuses 
of federal labor law committed by a very small minority of employers 
that adversely impact immigrant farmworkers. WGA welcomes the 
opportunity to work with members of Congress on prudent legislative 
initiatives to improve working conditions in agriculture.
    One of the areas in which WGA seeks to work with members of 
Congress, farmworker advocates, the Bush Administration and other 
interested parties on a bipartisan basis is in the area of adjustment-
of-status and guest worker legislation. WGA supports legislation to 
provide undocumented workers who are already working in agriculture 
with the ability to earn legal status through future work in 
agriculture. We believe that so-called ``adjustment-of-status'' 
legislation is in the best interests of both immigrant workers and 
agricultural employers who have no way of telling whether employment 
documents presented by workers are authentic or not. Such legislation 
would greatly reduce the problem of undocumented immigrants ``working 
in the shadows,'' which all too often subjects them to unfair or even 
dangerous treatment.
    WGA believes that a viable agricultural guest worker program is 
also in the best interests of both immigrant farmworkers and 
agricultural employers. WGA supports legislation to streamline and 
reform the current H-2A guest worker program so that alien workers have 
the opportunity to work in agriculture in the United States on a 
temporary basis if they so choose. The current H-2A program is 
extremely bureaucratic and inefficient, and often cannot match workers 
with growers on a timely basis, which is essential for harvesting 
highly perishable fruit and vegetable crops before they spoil. The 
current inefficiencies in the H-2A program benefit neither immigrant 
workers nor employers, and WGA urges Congress to enact legislation to 
establish a workable guest worker program.
    WGA has long been interested in ensuring that both domestic and 
immigrant farmworkers have access to affordable health insurance 
coverage. In order to achieve this goal, WGA has sponsored an 
association health plan for our member employers for over 40 years. Our 
association health plan enables agricultural producers to provide 
affordable health benefits to workers that generally are not available 
through the commercial insurance industry. We provide a wide array of 
benefit options, including PPO, HMO and traditional indemnity plans, 
which are designed to meet the specific needs of working families 
employed in agriculture. Our association health plan provides coverage 
to Mexican workers who reside in Mexico on a permanent basis but are 
employed in California and Arizona agriculture on a seasonal basis, and 
provides coverage for them to be treated in Mexico. We believe our 
health plan has been very successful in expanding affordable health 
benefits to immigrant farmworkers over the past 40 years.
    WGA remains committed to working with employers and workers to 
ensure that all agricultural workers have safe and healthy working 
environments, as well as affordable and secure health benefits. WGA 
appreciates your consideration of our views and looks forward to 
working together on health and safety issues for agricultural workers 
in the future.
            Sincerely,
                                        Donald G. Dressler,
                                     President--Insurance Services.
                                 ______
                                 
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]


</pre></body></html>
